APPENDIX

A-1
D
APPENDIX A - SUMMARY ORDER OF THE UNITED STATES COURT
OF APPEALS FOR THE SECOND CIRCUIT, FILED MAY 8, 2020
Case 19-1052, Document 121-1, 05/08/2020, 2835070, Page1 of 4

19-1052

Doe v. Merck & Co., Inc.

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED
BY FEDERAL RULE OF APPELLATE PROCEDURE 32.1 AND THIS COURT'S LOCAL RULE 32.1.1.
WHEN CITING A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY
MUST CITE EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DATABASE (WITH THE
NOTATION "SUMMARY ORDER"). A PARTY CITING A SUMMARY ORDER MUST SERVE A COPY
OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated Term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New Yark on the
8th day of May, two thousand twenty.
Present:

JOHN M. WALKER, JR.,
ROSEMARY S. POOLER,
GERARD E. LYNCH,
Circuit Judges.

JANE DOE, individually and as Parent/Guardian of Baby Doe,
BABY DOE,
Plaintiffs-Appellants,

v.

19-1052

MERCK & CO., INC., HEALTH AND HUMAN SERVICES, ALEX AZAR, in his official
capacity as Secretary of Health and Human Services, STEPHEN HAHN, M.D. in his official
capacity as Acting Commissioner of Food and Drugs (a division of HHS), UNITED STATES
OF AMERICA,

Defendants-Appellees. 1
Appearing for Appellants:

Patricia Finn, Nanuet, N.Y.

Appearing for Appellees:

Dino S. Sangiamo (Adam Possidente, Matthew T. McLaughlin,
Mitchell Y. Mirviss, Davis S. Gray, on the brief), Venable LLP,
New York, N.Y.

1

The Clerk of Court is directed to amend the caption as above.

A-2
D
Case 19-1052, Document 121-1, 05/08/2020, 2835070, Page2 of 4

Layaliza Soloveichik, Assistant United States Attorney (Varuni
Nelson, Assistant United States Attorney, on the brief),for Richard
P. Donoghue, United States Attorney for the Eastern District of
New York, Brooklyn, N.Y.
Appeal from the United States District Court for the Eastern District of New York (Block, J.).
ON CONSIDERATION WHEREOF, IT IS HEREBY ORDERED, ADJUDGED,
AND DECREED that the order of said District Court be and it hereby is AFFIRMED.

Appellants Jane Doe and Baby Doe ("Plaintiffs") appeal from the March 21, 2019
decision and order of the United States District Court for the Eastern District of New York
(Block, J.) dismissing their complaint for failure to state a claim upon which relief can be
granted. We assume the parties' familiarity with the underlying facts, procedural history, and
specification of issues for review.
Plaintiffs are a mother and son who allege that the son, Baby Doe, developed autism as a
result of thimerosal-containing vaccines ("TCVs"), the measles mumps rubella ("MMR")
vaccine, or a combination of the two that he received as an infant. Plaintiffs brought suit against
Merck as the manufacturer of the MMR vaccine that Baby Doe received in 1999, as well as the
Department of Health and Human Services, the Secretary of Health and Human Services
("Secretary"), the Acting Commissioner of the Food and Drug Administration ("FDA"), and the
United States (collectively, "the federal Defendants").
Plaintiffs' complaint alleges three counts. Count One claims that all defendants violated
the National Childhood Vaccine Act of 1986 ("Vaccine Act"), 42 U.S.C. § 300aa-l, et seq.
Count Two alleges that Merck committed fraud and conspired to commit fraud. Count Three
seeks declaratory and injunctive relief, primarily in the form of an order directing the Secretary
to instruct the FDA to revoke Merck's license to manufacture the MMR vaccine.
We affirm the district court's decision to dismiss Count One claims against both Merck
and the federal Defendants. 2 Regarding Merck, Plaintiffs allege that all of their Count One
claims arise under the Vaccine Act, but that Act does not establish a private right of action
against manufacturers, such as Merck. The Vaccine Act sets forth administrative procedures that
must be exhausted in order for a petitioner to bring a state law tort claim against a private entity
and precludes actions against manufacturers by petitioners who have not administratively
exhausted. See 42 U.S.C. §§ 300aa-22(a), 300aa-1 l(a)(2). But neither these provisions nor any
other in the Vaccine Act enable petitioners to sue private entities for alleged violations of the
Act. As we held in Olmsted v. Pruco Life Insurance Co. of New Jersey, 283 F.3d 429, 432 (2d
Cir. 2002), where "[n]o provision of [a statute] explicitly provides for a private right of action for
violations of [specific provisions of that statute], ... we must presume that Congress did not
intend one." That presumption is reinforced here because the provisions in question focus on the
"person regulated rather than the individuals protected." Id. at 432-33 (internal quotation marks
Although the district court relied on different grounds in dismissing Count One, we are free to
affirm on any ground that has support in the record. See Wright v. Giuliani, 230 F.3d 543, 547
(2d Cir. 2000).

2

2

A-3
D
Case 19-1052, Document 121-1, 05/08/2020, 2835070, Page3 of 4

and citation omitted). Moreover, Congress created a citizen-suit provision to allow claims against
the Secretary for failure to perform an act or duty under the Act, 42 U.S.C. § 300aa-31, and
"Congress's explicit provision of a private right of action to enforce one section of a statute
suggests that omission of an explicit private right to enforce other sections was intentional."
Olmsted, 283 F.3d at 433. The district court was therefore correct in dismissing Plaintiffs' claims
against Merck under Count 1.
Although Plaintiffs may sue the Secretary-and only the Secretary-pursuant to 42
U.S.C. § 300aa-31, Plaintiffs' complaint contains no factual allegations articulating which duties
were violated or how they were violated. 3 Plaintiffs' claims against the Secretary for violations
of the Vaccine Act were thus properly dismissed. See Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)
("To survive a motion to dismiss, a complaint must contain sufficient factual matter, accepted as
true, to state a claim to relief that is plausible on its face." (internal quotation marks and citation
omitted)).
We likewise affirm the district court's dismissal of Count Two. "Under New York law, to
state a cause of action for fraud, a plaintiff must allege a representation of material fact, the
falsity of the representation, knowledge by the party making the representation that it was false
when made, justifiable reliance by the plaintiff and resulting injury." Lerner v. Fleet Bank, N.A.,
459 F.3d 273,291 (2d Cir. 2006) (internal quotation marks and citations omitted). Here,
however, there was no reliance. The relevant vaccines were given to Baby Doe in 1999, yet the
earliest allegedly fraudulent act took place in June 2000. Accordingly, Plaintiffs cannot establish
that they relied on the purportedly fraudulent conduct. See id. (explaining that plaintiff could not
demonstrate reliance on a statement in making an investment because the investment predated
the statement). And because Plaintiffs' fraud claim fails, so does their conspiracy-to-commitfraud claim. See Crigger v. Fahnestock & Co., Inc., 443 F.3d 230, 237 (2d Cir. 2006) ("Under
New York law, civil conspiracy to commit fraud, standing alone, is not actionable if the
underlying independent tort has not been adequately pleaded." (internal quotation marks,
ellipses, and citation omitted)).
Finally, we affirm the district court's dismissal of Count Three. With respect to Plaintiffs'
challenge to the FDA's licensing of Merck to manufacture the MMR vaccine, the district court's
invocation of the doctrine of primary jurisdiction was not erroneous. Reliance on the doctrine of
primary jurisdiction is "appropriate whenever enforcement of the claim requires the resolution of
issues which, under a regulatory scheme, have been placed within the special competence of an
administrative body." Ellis v. Tribune Television Co., 443 F.3d 71, 81 (2d Cir. 2006) (internal
quotation marks and citation omitted). Here, the relevant considerations counsel for the
conclusion that on this matter the FDA has primary jurisdiction. The question of the efficacy and
safety of Merck's vaccines "involves technical or policy considerations within the agency's
particular field of expertise." See id. at 82-83. In addition, this type of licensing is within the
agency's discretion under 42 U.S.C. § 262. See Ellis, 443 F.3d at 83. Moreover, uniformity
would be more appropriately reached through application to one administrative agency rather
Although Plaintiffs allege some facts in their briefing on appeal, Plaintiffs failed to allege any
of these facts in their complaint despite having filed three different complaints in this action.
Plaintiffs "should not be able effectively to amend a complaint through any document short of an
amended pleading." Grayson v. Mayview State Hosp., 293 F.3d 103, 109 n.9 (3d Cir. 2002).
3

3

A-4
D
Case 19-1052, Document 121-1, 05/08/2020, 2835070, Page4 of 4

than the various courts. See id. at 82. And lastly, although the FDA provides for "citizen
petitions," 21 C.F.R. § 10.30, there is no indication that Plaintiffs have filed one here. For these
reasons, we agree with the district court that challenges to Merck's license should be directed in
the first instance to the FDA.
With respect to Plaintiffs' challenge to New York's MMR-vaccine requirements, it is not
apparent to us how any of the federal Defendants could be liable for New York's decision to
require the MMR vaccine, and the State of New York is not a defendant in this suit. Indeed,
Plaintiffs style this as a Fourteenth Amendment challenge, but the Fourteenth Amendment
"applies to the states but not to the federal government." See Noel v. Chapman, 508 F.2d 1023,
1026 n.2 (2d Cir. 1975). Therefore, the district court correctly dismissed Count Three as well.
We have considered the remainder of Plaintiffs' arguments and find them to be without
merit. Accordingly, the order of the district court hereby is AFFIRMED.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

4

B-1
D
APPENDIX B - MEMORANDUM AND ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE EASTERN DISTRICT
OF NEW YORK, FILED MARCH 21, 2019
Case 1:16-cv-04005-FB-RLM Document 74 Filed 03/21/19 Page 1 of 11 PagelD #: 1506

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK

------------------------------------------------x

JANE DOE, individually and as
Parent/Guardian ofBABY DOE,

MEMORANDUM AND ORDER
Case No. 16-CV-04005 (FB) (RLM)

Plaintiffs,

Appearances:

-againstMERCK & CO. INC,; HEALTH AND
HUMAN SERVICES; THOMAS PRICE,
M.D., in his official capacity as Secretary
ofHealth and Human Services; SCOTT
GOTTLIEB, MD., in his official
capacity as Commissioner of the Food
and Drug Administration, a division of
Health and Human Services; and the
UNITED STATES OF AMERICA,
Defendants.

------------------------------------------------x

For Doe:
PATRICIA FINN
Patricia Finn, Attorney P.C.
58 East Route 59, Suite 4
Nanuet, NY 10954
For Merck:
MATTHEW T. MCLAUGHLIN
VenableLLP
1270 Avenue of the Americas
25th Floor
New York, NY 10020
For the Federal Defendants:
RICHARD P. DONOGHUE
United States Attorney's Office
Eastern District of New York
271 Cadman Plaza East
7th Floor
Brooklyn, NY 11201
By: LAYALIZA K. SOLOVEICHIK

BLOCK, Senior District Judge:

Minor plaintiff Baby Doe and his mother, Jane Doe (collectively, "Doe"), has
filed suit against (1) Merck & Co. Inc. ("Merck"); and (2) Health and Human
Services, Thomas Price (in his official capacity as Secretary of Health and Human
Services), Scott Gottlieb (in his official capacity as Commissioner of the Food and

1

B-2
D
Case 1:16-cv-04005-FB-RLM Document 74 Filed 03/21/19 Page 2 of 11 PagelD #: 1507

Drug Administration), and the United States of America (collectively, "Federal
Defendants"). Pending before the Court are Merck's and the Federal Defendants'
respective motions to dismiss Doe's Third Amended Complaint ("TAC"). The
Court grants both motions and dismisses the TAC with prejudice.

BACKGROUND
Doe alleges that Merck produced a measles, mumps, and rubella ("MMR")
vaccine that was administered to him in 1999 and caused him to develop autism. 1
TAC ,r,r 112, 117. New York Public Health Law requires students attending postsecondary educational institutions to be vaccinated for MMR, which includes
receiving MMR booster shots. See N.Y. Pub. Health Law§§ 2164, 2165. 2 Doe
worries that another dose of the vaccine could "seriously injure[] [him], substantially
aggravate[] his existing condition," or even kill him. Doe Opp. Br. at 8.
The TAC, to put it mildly, is enigmatic. Notwithstanding the requirements of
Federal Rule of Civil Procedure 8(a), the basis for its claims and the claims'
respective causes of action are far from clear. Doe attempts to alleviate the confusion
in his opposition brief.

Although this arguably represents an impermissible

The Court uses the term "autism" as a shorthand for "autism spectrum
disorder," which is a neurological disorder "affecting a person's ability to
communicate, form relationships, and/or respond appropriately to the environment."
Autism General Order #1, Dkt. No. 67 Ex. A n.2 ("Autism General Order #1").
2 The parties dispute whether the Public Health Law also requires
immunization for residents at group home living facilities. Because the Court's
decision does not depend on the resolution of that question, it does not address it.
1

2

B-3
D
Case 1:16-cv-04005-FB-RLM Document 74 Filed 03/21/19 Page 3 of 11 PagelD #: 1508

amendment to the complaint, see O'Brien v. Nat' I Prop. Analytics Partners, 719 F.
Supp. 222, 229 (S.D.N.Y. 1989), 3 the Court uses Doe's brief as an aid in
understanding the TAC.
The TAC contains three counts. In Count One, Doe alleges violations of the
National Childhood Vaccine Act of 1986 ("Vaccine Act") by both Merck and the
Federal Defendants, for which he seeks damages. He also seeks damages in Count
Two, where he alleges that Merck committed fraud and conspired with the
government to commit fraud, all in an effort to maintain the license for its MMR
vaccine. Finally, in Count Three, Doe seeks declaratory and injunctive relief, asking
the Court to revoke Merck's MMR license and enjoin New York from requiring the
MMR vaccine booster shot as part of its Public Health Law.
To better understand these counts and why they are meritless, the Court
supplies a brief summary of the relevant legal framework and prior related litigation.

A.

The Vaccine Act and the Vaccine Court
"To stabilize the vaccine market and facilitate compensation [for injuries

caused by vaccines], Congress enacted the [Vaccine Act] in 1986." Bruesewitz v.
Wyeth LLC, 562 U.S. 223, 228 (2011). The Act established a no-fault liability
scheme (colloquially called the "Vaccine Court") operated by the United States

Not only are parties prohibited from using briefs as vehicles to amend
complaints, but the Court also specifically disallowed any further amendments on
December 20, 2016.
3
3

B-4
D
Case 1:16-cv-04005-FB-RLM Document 74 Filed 03/21/19 Page 4 of 11 PagelD #: 1509

Court of Federal Claims. Petitioners who claim to have suffered a vaccine-related
injury are required to file a claim in the Vaccine Court and name the Secretary of
Health and Human Services as a defendant. A "Special Master" adjudicates the
claim in a simplified proceeding with limited discovery and tight deadlines. So long
as the alleged injury is listed in the "Vaccine Injury Table," the petitioner does not
have to prove causation (injuries not included in the table may be asserted but still
require a showing of causation). Dissatisfied petitioners may appeal the Special
Master's decision to the Court of Federal Claims. Once a final judgment is issued,
petitioners may either accept it or reject it and seek relief in a traditional tort suit.
See generally id. at 228-30.
B.

Omnibus Autism Proceeding

In the early 2000s, thousands of petitions were filed in the Vaccine Court on
behalf of children who had developed autism. Some of the petitioners had received
MMR vaccines, some had received vaccines containing the mercury-based
preservative thimerosal (so-called "thimerosal containing vaccines" or "TCVs"),
and some received combinations of the two. The Vaccine Injury Table did not
include autism as a recognized injury for any of these vaccines.
To process the large number of petitions, the Office of Special Masters
established an opt-in Omnibus Autism Proceeding ("OAP"), which was designed to
determine causation through "test cases," with the results then applicable to the
4

B-5
D
Case 1:16-cv-04005-FB-RLM Document 74 Filed 03/21/19 Page 5 of 11 PagelD #: 1510

remaining petitions.

These test cases were grouped by the vaccines that the

petitioners received: those that received MMR vaccines only, those that received
TCVs only, and those that received both MMR vaccines and TCVs. Petitioners who
opted into the OAP were bound by the results of the test cases. If, for example, the
MMR-only test cases demonstrated that MMR vaccines caused autism, petitioners
who alleged that they developed autism after receiving an MMR vaccine (but not a
TCV) would not need to prove causation. Likewise, if the MMR-only test cases
showed no causation, that result would be applicable to any MMR-only petitioner
who had opted into the OAP. See Autism General Order #1 at 3--4.
Doe's case was selected as one of the TCVs-only test cases. TAC ,r 116. In
a decision that spanned over 200 pages, Special Master Vowell concluded that there
was no scientific evidence of any causal link between TCVs and autism. See CD v.
Sec'y of Health & Human Servs., No. 03-1202V, 2010 WL 892250, at *1 & n.6,

*201 (Fed. Cl. Mar. 12, 2010). 4 Doe did not appeal this result. He also did not file
any separate petition in the Vaccine Court alleging that his autism was caused by the
MMR vaccine (as opposed to by a TCV).

Doe has waived the redaction of his name by citing to the Westlaw version
of the Special Master's decision, which contains his full name. Fed. R. Civ. P.
5.2(h); see TAC ,r 116. The Court adopts Doe's convention of using his initials in
the caption when citing to that decision.
5
4

B-6
D
Case 1:16-cv-04005-FB-RLM Document 74 Filed 03/21/19 Page 6 of 11 PagelD #: 1511

DISCUSSION

On a motion to dismiss, the Court accepts all factual allegations as true to
determine whether they "state a claim to relief that is plausible on its face." Ashcroft

v. Iqbal, 556 U.S. 662,678 (2009) (quoting Bel/Atlantic Corp. v. Twombly, 550 U.S.
544, 570 (2007)).

A.

Claims Against Merck
1.

Count One

Doe explains that he brings Count One under 42 U.S.C. § 300aa-1 l(a)(2), see
Doe Opp. Br. at 20, which establishes the procedure that allows plaintiffs to file suit
against vaccine manufacturers after administratively exhausting the claim in the
Vaccine Court. It would thus seem that Doe is alleging that Merck's MMR vaccine
caused his autism, and that he is suing for that injury. As previously noted, however,
Doe only alleged in the Vaccine Court that his injury was caused by a TCV, not an
MMR vaccine. Because he has failed to exhaust his administrative remedies, the
Court would lack jurisdiction over a claim against Merck for MMR-caused autism. 5
In his opposition brief, Doe advances an altogether different explanation of
Doe argues that his TCV petition should be construed as extending to an
MMR petition as well. In support, he cites the Special Master's decision that noted
that "the evidence adduced in the omnibus proceeding" could be used in "other
cases." CD, 2010 WL 892250 at *2. Not only does it not follow that shared evidence
constitutes interchangeable petitions, but the sharing of evidence was actually only
available "in additional cases presenting the same theory of causation." Id.
(emphasis added).
5

6

B-7
D
Case 1:16-cv-04005-FB-RLM Document 74 Filed 03/21/19 Page 7 of 11 PagelD #: 1512

his claim. He alleges that Merck "tamper[ed]" with a separate OAP test case petition
"by furnishing [the government] with an eleventh hour witness," all in an effort "to
discredit" that petitioner's "laboratory evidence" and "attack[]" her "theory of
causation in her MMR case that relied upon preliminary research." Whatever this
cryptic allegation may mean, it cannot form the basis of a§ 300aa-1 l(a)(2) claim.
No amount of "furnishing" or "discredit[ing]" perpetrated by Merck in the OAP
could have resulted in a ''vaccine-related injury or death" to Doe, not least of all
because he received the vaccine in 1999 and the OAP did not begin until the 2000s.
2.

Count Two

Doe alleges that Merck committed fraud in procuring and maintaining its
license to manufacture and distribute its vaccines. He also alleges that Merck and
the government have engaged in a civil conspiracy to commit fraud in furtherance
of the same. In support of these allegations, Doe describes several events that all
occurred in the 2000s and provides hazy insinuations of backroom deals and
corporate-government plots aimed at concealing vital health information from the
unwitting public. See TAC ,r,r 171-200. In his opposition brief, Doe adds still more
color to this claim. He summarizes the "legal issue for the District Court" as follows:
[W]hat does [a current Merck executive who was formerly employed
by the Center for Disease Control and Prevention] know about the
causal link between MMR and Autism, allegedly identified in the
original Atlanta Autism Studies, and how children with mitochondrial
disorders that are vaccinated can become autistic[?]
7

B-8
D
Case 1:16-cv-04005-FB-RLM Document 74 Filed 03/21/19 Page 8 of 11 PagelD #: 1513

Doe Opp. Br. at 23.
Even taken as true, none of Doe's allegations can form the basis of a valid
fraud claim against Merck. Nor is it relevant that the government once employed an
individual who now works for Merck, even if said individual knew then or knows
now about a causal link between MMR vaccines and autism. Putting aside the
particularity requirements for fraud of Federal Rule of Civil Procedure 9(b), every
alleged statement or omission made by a Merck employee occurred after Doe
received the vaccine in 1999. Thus, Doe cannot prove reliance, which is fatal to his
fraud claim. See Schlaifer Nance & Co. v. Estate of Warhol, 119 F.3d 91, 98 (2d
Cir. 1997).

Furthermore, because Doe cannot prove fraud, he cannot prove

conspiracy to defraud. Criggerv. Fahnestock& Co, Inc., 443 F.3d230, 237 ("Under
New York law, civil conspiracy to commit fraud, standing alone, is not actionable if
the underlying independent tort has not been adequately pleaded." (quoting Vasile
v. Dean Witter Reynolds Inc., 20 F. Supp. 2d 465,482 (E.D.N.Y. 1998) (alterations

omitted))); see also Marcus v. AT&T Corp., 138 F.3d 46, 57 n.2 (2d Cir. 1998)
(observing that federal common law fraud and New York state common law fraud
have "practically identical" standards); TAC

,r 169 (citing cases interpreting New

York law).
3.

Count Three

In Count Three, Doe requests that the Court revoke Merck's license for
8

B-9
D
Case 1:16-cv-04005-FB-RLM Document 74 Filed 03/21/19 Page 9 of 11 PagelD #: 1514

distributing its MMR vaccine and enjoin New York from requiring the vaccine.
The Court declines to exercise primary jurisdiction to grant such relief. The
proper body to consider revocation of a vaccine manufacturer's license is the Food
and Drug Administration. See Ellis v. Tribute Television Co., 443 F .3d 71, 81 (2006)
(describing primary jurisdiction). Not only are vaccine safety and licensing issues
peculiarly within the FDA's expertise and discretion, see id. at 82-83, but the FDA
has specifically established procedures for citizens to petition the agency to take
administrative action that it has authority over, see 21 C.F.R. §§ 10.25, 10.30. An
administrative petition is the proper mechanism for requesting the relief Doe seeks,
not a claim for injunctive relief in this Court.
As for New York's vaccination requirements, that request is properly directed
at the State of New York, which is not a party to this lawsuit. Doe inexplicably urges
the Court to treat Merck as a state actor "acting under color of state law, as an agent
of the United States government in the distribution/sale of the MMR vaccine to
children required to attend school in New York State." Doe Opp. Br. at 25. Doe
provides no analysis as to how or why Merck's role in providing and distributing
vaccines would make it a state actor, nor why its role as an "agent of the United
States government" would obviate the need for New York to be represented in this

9

B-10
Case 1:16-cv-04005-FB-RLM

Document 74 Filed 03/21/19 Page 10 of 11 PagelD #: 1515

lawsuit. 6
B.

Claims Ae;ainst the Federal Defendants
1.

Count One

Doe explains that he brings Count One against the Federal Defendants under
the so-called "citizen's action" of the Vaccine Act, 42 U.S.C. § 300aa-3 l. This
section allows citizens to sue the Secretary of Health and Human Services "where
there is alleged a failure of the Secretary to perform any act or duty [under the Act]."
Because § 300aa-3 l only waives sovereign immunity as to the Secretary of
Health and Human Services, the Court dismisses Count One as to all of the other
Federal Defendants. As to the Secretary, Doe fails to allege any particular duty in
which the Secretary was derelict. To the extent that duty is the general duty to ensure
the safety of childhood vaccines, see, e.g., 42 U.S.C. § 300aa-27, that claim is now
precluded. As previously noted, Doe's OAP petition, which named the Secretary as
defendant, only alleged that a TCV induced his autism. Doe could have but did not
allege that an MMR vaccine induced his autism. Claim preclusion now bars that

Doe miscites Jacobson v. Massachusetts, 197 U.S. 11 (1905), for the
proposition that courts are required to "assess the constitutionality of each
vaccination mandate individually," Doe Br. at 25, and that such mandates may only
be allowed in "highly circumscribed situations," such as emergencies, epidemics,
and the like, id. at 26. In Jacobson, the Court held that a Massachusetts mandate
requiring smallpox vaccinations did not violate the Constitution. Doe's quotations
are taken entirely out of context. See Jacobson, 197 U.S. at 38 (establishing what
amounts to a rational basis test for vaccination mandates).
10
6

B-11
Case 1:16-cv-04005-FB-RLM

Document 74 Filed 03/21/19 Page 11 of 11 PagelD #: 1516

claim in this Court. See Curtis v. Citibank, N.A., 226 F.3d 133, 139 (2d Cir. 2000).
2.

Count Two

The TAC labels Count Two as "Merck's Fraud & Conspiracy to Commit
Fraud" (emphasis added). Thus, by its own terms, Count Two is not brought as to
the Federal Defendants. Furthermore, as explained supra, although the alleged
conspiracy was with government officials, a conspiracy to commit fraud is not
actionable without the underlying fraud.

3.

Count Three

The Court declines to exercise jurisdiction to grant this relief. See supra.
CONCLUSION

In Doe's OAP petition, Special Master Vowell lamented that
[u]nfortunately, the [Does] (and uncounted other parents of children
with ASD) have relied upon practitioners and researchers who peddled
hope, not opinions grounded in science and medicine. My heart goes
out to parents like the [Does] who struggle daily, emotionally and
financially, to care for their children, but I must decide cases based on
the law and not sentiment.
2010 WL 892250, at *201. The Court must do likewise and dismisses the TAC with
prejudice.
SO ORDERED.

/S/ Frederic Block
FREDERIC BLOCK
Senior United States District Judge

Brooklyn, New York
March 21, 2019
11

C-1
D
APPENDIX C - ORDER ENTERING JUDGMENT IN FAVOR OF THE
DEFENDANTS MERCK & CO. INC., HEALTH AND HUMAN SERVICES,
ALEX AZAR, IN HIS OFFICIAL CAPACITY AS SECRETARY OF HEALTH
AND HUMAN SERVICES, STEPHEN M. HAHN, M.D., IN HIS OFFICIAL
CAPACITY AS ACTING COMMISSIONER OF FOOD AND DRUG (A DIVISION
OF HHS), AND THE UNITED STATES OF AMERICA, DISMISSING THE CASE
WITH PREJUDICE, FILED MARCH 25, 2019, NO. 16-CV-04005
Case 1:16-cv-04005-FB-RLM Document 75 Filed 03/25/19 Page 1 of 1 PagelD #: 1517

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK

------------------------------------------------X

JANE DOE, individually and as
Parent/Guardian of BABY DOE,

JUDGMENT
16-CV-04005 (FB) (RLM)

Plaintiff,
-againstMERCK & CO. INC,; HEALTH AND
HUMAN SERVICES; THOMAS PRICE,
M.D., in his official capacity as Secretary
of Health and Human Services; SCOTT
GOTTLIEB, M.D., in his official capacity
as Commissioner of the Food and Drug
Administration, a division of Health and
Human Services; and the UNITED STATES
OF AMERICA,
Defendants.

-------------------------------------------------X

A Memorandum and Order of Honorable Frederic Block, United States District Judge,

having been filed on March 21, 2019, granting Merck's and Federal Defendants' respective
motions to dismiss Doe's Third Amended Complaint; and dismissing the Third Amended
Complaint with prejudice; it is
ORDERED and ADJUDGED that Merck's and Federal Defendants' respective motions
to dismiss Doe's Third Amended Complaint are granted; and that the Third Amended Complaint
is dismissed with prejudice.
Douglas C. Palmer
Clerk of Court

Dated: Brooklyn, New York
March 22, 2019
by:

Isl Jalitza Poveda
Deputy Clerk

D-1
D
APPENDIX D - JUDGMENT IN DOE ET AL. V MERCK & CO, INC., ET AL.,
NO. 19-1052, UNITED STATES COURT OF APPEALS FOR THE SECOND CIRCUIT,
ENTERED JUNE 29, 2020

MA ND~TE6/29/2020, 2872954, 4
Pagel of

19-1052

Doe v. Merck & Co., Inc.

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HA VE PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED
BY FEDERAL RULE OF APPELLATE PROCEDURE 32.1 AND THIS COURT'S LOCAL RULE 32.1.1.
WHEN CITING A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY
MUST CITE EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DATABASE (WITH THE
NOTATION "SUMMARY ORDER"). A PARTY CITING A SUMMARY ORDER MUST SERVE A COPY
OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated Term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York on the
8th day of May, two thousand twenty.
Present:

JOHN M. WALKER, JR.,
ROSEMARY S. POOLER,
GERARD E. LYNCH,
Circuit Judges.

JANE DOE, individually and as Parent/Guardian of Baby Doe,
BABY DOE,
Plaintiffs-Appellants,

v.

19-1052

MERCK & CO., INC., HEALTH AND HUMAN SERVICES, ALEX AZAR, in his official
capacity as Secretary of Health and Human Services, STEPHEN HAHN, M.D. in his official
capacity as Acting Cornrnissioner of Food and Drugs (a division of HHS), UNITED STATES
OF AMERICA,

Defendants-Appellees. 1
Appearing for Appellants:

Patricia Finn, Nanuet, N.Y.

Appearing for Appellees:

Dino S. Sangiarno (Adarn Possidente, Matthew T. McLaughlin,
Mitchell Y. Mirviss, Davis S. Gray, on the brief), Venable LLP,
New York, N.Y.

1 The

Clerk of Court is directed to amend the caption as above.

MANDATE ISSUED ON 06/29/2020

D-2
D
Case 19-1052, Document 126, 06/29/2020, 2872954, Page2 of 4

Layaliza Soloveichik, Assistant United States Attorney (Varuni
Nelson, Assistant United States Attorney, on the brief),for Richard
P. Donoghue, United States Attorney for the Eastern District of
New York, Brooklyn, N.Y.
Appeal from the United States District Court for the Eastern District of New York (Block, J.).
ON CONSIDERATION WHEREOF, IT IS HEREBY ORDERED, ADJUDGED,
AND DECREED that the order of said District Court be and it hereby is AFFIRMED.

Appellants Jane Doe and Baby Doe ("Plaintiffs") appeal from the March 21, 2019
decision and order of the United States District Court for the Eastern District of New York
(Block, J.) dismissing their complaint for failure to state a claim upon which relief can be
granted. We assume the parties' familiarity with the underlying facts, procedural history, and
specification of issues for review.
Plaintiffs are a mother and son who allege that the son, Baby Doe, developed autism as a
result of thimerosal-containing vaccines ("TCVs"), the measles mumps rubella ("MMR")
vaccine, or a combination of the two that he received as an infant. Plaintiffs brought suit against
Merck as the manufacturer of the MMR vaccine that Baby Doe received in 1999, as well as the
Department of Health and Human Services, the Secretary of Health and Human Services
("Secretary"), the Acting Commissioner of the Food and Drug Administration ("FDA"), and the
United States (collectively, "the federal Defendants").
Plaintiffs' complaint alleges three counts. Count One claims that all defendants violated
the National Childhood Vaccine Act of 1986 ("Vaccine Act"), 42 U.S.C. § 300aa-l, et seq.
Count Two alleges that Merck committed fraud and conspired to commit fraud. Count Three
seeks declaratory and injunctive relief, primarily in the form of an order directing the Secretary
to instruct the FDA to revoke Merck's license to manufacture the MMR vaccine.
We affirm the district court's decision to dismiss Count One claims against both Merck
and the federal Defendants. 2 Regarding Merck, Plaintiffs allege that all of their Count One
claims arise under the Vaccine Act, but that Act does not establish a private right of action
against manufacturers, such as Merck. The Vaccine Act sets forth administrative procedures that
must be exhausted in order for a petitioner to bring a state law tort claim against a private entity
and precludes actions against manufacturers by petitioners who have not administratively
exhausted. See 42 U.S.C. §§ 300aa-22(a), 300aa-1 l(a)(2). But neither these provisions nor any
other in the Vaccine Act enable petitioners to sue private entities for alleged violations of the
Act. As we held in Olmsted v. Pruco Life Insurance Co. of New Jersey, 283 F.3d 429, 432 (2d
Cir. 2002), where "[n]o provision of [a statute] explicitly provides for a private right of action for
violations of [specific provisions of that statute], ... we must presume that Congress did not
intend one." That presumption is reinforced here because the provisions in question focus on the
"person regulated rather than the individuals protected." Id. at 432-33 (internal quotation marks
Although the district court relied on different grounds in dismissing Count One, we are free to
affirm on any ground that has support in the record. See Wright v. Giuliani, 230 F.3d 543, 547
(2d Cir. 2000).

2

2

D-3
D
Case 19-1052, Document 126, 06/29/2020, 2872954, Page3 of 4

and citation omitted). Moreover, Congress created a citizen-suit provision to allow claims against
the Secretary for failure to perform an act or duty under the Act, 42 U.S.C. § 300aa-31, and
"Congress's explicit provision of a private right of action to enforce one section of a statute
suggests that omission of an explicit private right to enforce other sections was intentional."
Olmsted, 283 F.3d at 433. The district court was therefore correct in dismissing Plaintiffs' claims
against Merck under Count 1.
Although Plaintiffs may sue the Secretary-and only the Secretary-pursuant to 42
U.S.C. § 300aa-31, Plaintiffs' complaint contains no factual allegations articulating which duties
were violated or how they were violated. 3 Plaintiffs' claims against the Secretary for violations
of the Vaccine Act were thus properly dismissed. See Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)
("To survive a motion to dismiss, a complaint must contain sufficient factual matter, accepted as
true, to state a claim to relief that is plausible on its face." (internal quotation marks and citation
omitted)).
We likewise affirm the district court's dismissal of Count Two. "Under New York law, to
state a cause of action for fraud, a plaintiff must allege a representation of material fact, the
falsity of the representation, knowledge by the party making the representation that it was false
when made, justifiable reliance by the plaintiff and resulting injury." Lerner v. Fleet Bank, N.A.,
459 F.3d 273,291 (2d Cir. 2006) (internal quotation marks and citations omitted). Here,
however, there was no reliance. The relevant vaccines were given to Baby Doe in 1999, yet the
earliest allegedly fraudulent act took place in June 2000. Accordingly, Plaintiffs cannot establish
that they relied on the purportedly fraudulent conduct. See id. (explaining that plaintiff could not
demonstrate reliance on a statement in making an investment because the investment predated
the statement). And because Plaintiffs' fraud claim fails, so does their conspiracy-to-commitfraud claim. See Crigger v. Fahnestock & Co., Inc., 443 F.3d 230, 237 (2d Cir. 2006) ("Under
New York law, civil conspiracy to commit fraud, standing alone, is not actionable if the
underlying independent tort has not been adequately pleaded." (internal quotation marks,
ellipses, and citation omitted)).
Finally, we affirm the district court's dismissal of Count Three. With respect to Plaintiffs'
challenge to the FDA's licensing of Merck to manufacture the MMR vaccine, the district court's
invocation of the doctrine of primary jurisdiction was not erroneous. Reliance on the doctrine of
primary jurisdiction is "appropriate whenever enforcement of the claim requires the resolution of
issues which, under a regulatory scheme, have been placed within the special competence of an
administrative body." Ellis v. Tribune Television Co., 443 F.3d 71, 81 (2d Cir. 2006) (internal
quotation marks and citation omitted). Here, the relevant considerations counsel for the
conclusion that on this matter the FDA has primary jurisdiction. The question of the efficacy and
safety of Merck's vaccines "involves technical or policy considerations within the agency's
particular field of expertise." See id. at 82-83. In addition, this type of licensing is within the
agency's discretion under 42 U.S.C. § 262. See Ellis, 443 F.3d at 83. Moreover, uniformity
would be more appropriately reached through application to one administrative agency rather
Although Plaintiffs allege some facts in their briefing on appeal, Plaintiffs failed to allege any
of these facts in their complaint despite having filed three different complaints in this action.
Plaintiffs "should not be able effectively to amend a complaint through any document short of an
amended pleading." Grayson v. Mayview State Hosp., 293 F.3d 103, 109 n.9 (3d Cir. 2002).
3

3

D-4
D
Case 19-1052, Document 126, 06/29/2020, 2872954, Page4 of 4

than the various courts. See id. at 82. And lastly, although the FDA provides for "citizen
petitions," 21 C.F.R. § 10.30, there is no indication that Plaintiffs have filed one here. For these
reasons, we agree with the district court that challenges to Merck's license should be directed in
the first instance to the FDA.
With respect to Plaintiffs' challenge to New York's MMR-vaccine requirements, it is not
apparent to us how any of the federal Defendants could be liable for New York's decision to
require the MMR vaccine, and the State of New York is not a defendant in this suit. Indeed,
Plaintiffs style this as a Fourteenth Amendment challenge, but the Fourteenth Amendment
"applies to the states but not to the federal government." See Noel v. Chapman, 508 F.2d 1023,
1026 n.2 (2d Cir. 1975). Therefore, the district court correctly dismissed Count Three as well.
We have considered the remainder of Plaintiffs' arguments and find them to be without
merit. Accordingly, the order of the district court hereby is AFFIRMED.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

A True Copy
catherlne, O'Ha,:aan W

4

E-1
D
APPENDIX E - 42 U.S.C. §300AA – 1, ET SEQ. NATIONAL VACCINE INJURY
COMPENSATION ACT, CHAPTER 6A, SUBCHAPTER XIX — VACCINES

42 USC CHAPTER &A, SUBCHAPTER XIX: VACCINES
From Title 42-THE PUBLIC HEALTH AND WELFARE
CHAPTER SA-PUBLIC HEALTH SERVICE

SUBCHAPTER XIX-VACCINES
PRIOR PROVISIONS

A prior subchapter XIX (§300aa et seq.), comprised oftitle XXI of the Public Health Service Act, act July 1, 1944, ch. 373, §§2101 to 2116, was
renumbered title XXIII, §§2301 to 2316, ofthe Public Health Service Act, and transferred to subchapter XXI (§300cc et seq.) of this chapter,
renumbered title XXV, §§2501 to 2514, of the Public Health Service Act, and transferred to subchapter XXV (§300aaa et seq.) of this chapter,
renumbered title XXVI, §§2601 to 2614, of the Public Health Service Act, renumbered title XXVII, §§2701 to 2714, of the Public Health Service
Act, and renumbered title 11, part B, §§231 to 244, of the Public Health Service Act, and transferred to part B (§238 et seq.) of subchapter I of this
chapter.

PART 1-NATIONAL VACCINE PROGRAM

§300aa-1. Establishment

The Secretary shall establish in the Department of Health and Human Services a National Vaccine Program to achieve optimal prevention of human infectious
diseases through immunization and to achieve optimal prevention against adverse reactions to vaccines. The Program shall be administered by a Director selected
by the Secretary.
(July 1, 1944, ch. 373, title XXI, §2101, as added Pub. L. 99-660, title Ill, §311(a), Nov. 14, 1986, 100 Stat. 3756.)
PRIOR PROVISIONS

A prior section 300aa-1, act July 1, 1944, §2102, was successively renumbered by subsequent acts and transferred, see section 238a of this title.
A prior section 2101 of act July 1, 1944, was successively renumbered by subsequent acts and transferred, see section 238 of this title.
EFFECTIVE DATE

Pub. L. 99-660, title 111, §323, Nov. 14, 1986, 100 Stat. 3784, as amended by Pub. L.100-203, title IV, §4302(a), Dec. 22, 1987, 101 Stat. 1330-221;
Pub. L. 102-168, title 11, §201 (a), Nov. 26, 1991, 105 Stat. 1102, provided that: "Subtitle 1 oftitle XXI of the Public Health Service Act [42 u.s.c.
300aa-1 et seq.] shall take effect on the date of the enactment of this Act [Nov. 14, 1986] and parts A and B of subtitle 2 of such title [42 u.s.c.
300aa-10 et seq., 300aa-21 et seq.] shall take effect on October 1, 1988 and parts C and D of such title [42 u.s.c. 300aa-25 et seq., 300aa-31 et seq.]
and this title [probably means provisions of title Ill of Pub. L. 99-660 other than those that enacted this subchapter and redesignated former sections
300aa to 300aa-15 of this title as sections 300cc to 300cc-15 of this title; these other provisions amended sections 218, 242c, 262, 286, and 289f of this title
and enacted provisions set out as notes under sections 201, 300aa-1, and 300aa-4 of this title] shall take effect on the date of the enactment of the
Vaccine Compensation Amendments of 1987 [Dec. 22, 1987]."
SEVERABILITY

Pub. L. 99-660, title Ill, §322, Nov. 14, 1986, 100 Stat. 3783, as amended by Pub. L. 101-239, title VI, §6602, Dec. 19, 1989, 103 Stat. 2293; Pub. L.
101-502, §5(g)(1), Nov. 3, 1990, 104 Stat. 1288, provided that:
"(a) IN GENERAL-Except as provided in subsection (b), if any provision [of] part A or B of subtitle 2 of title XXI of the Public Health Service Act [42
u.s.c. 300aa-10 et seq., 300aa-21 et seq.]. as added by section 311 (a), or the application of such a provision to any person or circumstance is held
invalid by reason of a violation of the Constitution, both such parts shall be considered invalid.
"(b) SPECIAL RuLE.-lf any amendment made by section 6601 of the Omnibus Budget Reconciliation Act of 1989 [Pub. L. 101-239, amending
sections 300aa-10 to 300aa-17, 300aa-21, 300aa-23, 300aa-26, and 300aa-27 of this title] to title XXI of the Public Health Service Act [42 u.s.c. 300aa-1
et seq.] or the application of such a provision to any person or circumstance is held invalid by reason of the Constitution, subsection (a) shall not
apply and such title XXI of the Public Health Service Act without such amendment shall continue in effect."
[Amendment by section 5(g)(1) of Pub. L. 101-502 to section 322(a) of Pub. L. 99-660, set out above, effective Nov. 14, 1986, see section 5(h) of
Pub. L. 101-502, set out as an Effective Date of 1990 Amendment note under section 300aa-11 of this title.]
EVALUATION OF PROGRAM; STUDY AND REPORT TO CONGRESS

Pub. L.101-239, title VI, §6601(1), Dec. 19, 1989, 103 Stat. 2293, as amended by Pub. L. 102-168, title II, §201(b), Nov. 26, 1991, 105 Stat.1103,
directed the Secretary of Health and Human Services to evaluate the National Vaccine Injury Compensation Program under this subchapter and
report results of such study to Committee on Energy and Commerce of House of Representatives and Committee on Labor and Human
Resources of Senate not later than Jan. 1, 1993.
RELATED STUDIES

Pub. L. 99-660, title 111, §312, Nov. 14, 1986, 100 Stat. 3779, directed Secretary of Health and Human Services, not later than 3 years after the
effective date ofthis title (see Effective Date note above), to conduct, through studies by the Institute of Medicine oflhe National Academy of
Sciences or other appropriate nonprofit private groups or associations, a review of pertussis vaccines and related illnesses and conditions and
MMR vaccines, vaccines containing material intended to prevent or confer immunity against measles, mumps, and rubella disease, and related
illnesses and conditions, make specific findings and report these findings in the Federal Register not later than 3 years after the effective date of
this title, and at the same lime these findings are published in the Federal Register, propose regulations as a result of such findings, and not later
than 42 months after the effective date of this title, promulgate such proposed regulations with such modifications as may be necessary after
opportunity for public hearing.
STUDY OF OTHER VACCINE RISKS

Pub. L. 99-660, title 111, §313, Nov.14, 1986, 100 Stat. 3781, provided that:
"(a) STUDY."(1) Not later than 3 years after the effective date oflhis title [see Effective Date note above]. the Secretary shall, after consultation with the
Advisory Commission on Childhood Vaccines established under section 2119 oflhe Public Health Service Act [42 u.s.c. 300aa-19]"(A) arrange for a broad study of the risks (other than the risks considered under section 102 [21 u.s.c. 3821) to children associated
with each vaccine set forth in the Vaccine Injury Table under section 2114 of such Act [42 u.s.c. 300aa-14], and

E-2
D
"(B) establish guidelines, after notice and opportunity for public hearing and consideration of all relevant medical and scientific
information, respecting the administration of such vaccines which shall include"(Q the circumstances under which any such vaccine should not be administered,
"(ii) the circumstances under which administration of any such vaccine should be delayed beyond its usual time of administration,
and
"(iiQ the groups, categories, or characteristics of potential recipients of such vaccine who may be at significantly higher risk of
major adverse reactions to such vaccine than the general population of potential recipients.
"(2)(A) The Secretary shall request the Institute of Medicine of the National Academy of Sciences to conduct the study required by
paragraph (1) under an arrangement by which the actual expenses incurred by such Academy in conducting such study will be paid by the
Secretary.
"(B) If the Institute of Medicine is unwilling to conduct such study under such an arrangement, the Secretary shall enter into a similar
arrangement with other appropriate nonprofit private groups or associations under which such groups or associations will conduct such study.
"(C) The Institute of Medicine or other group or association conducting the study required by paragraph (1) shall conduct such studies in
consultation with the Advisory Commission on Childhood Vaccines established under section 2119 of the Public Health Service Act [42 u.s.c.
300aa-19].
"(b) REv1s10N oF Gu10EuNEs.-The Secretary shall periodically, but at least every 3 years after establishing guidelines under subsection (a), review
and revise such guidelines after notice and opportunity for public hearing and consideration of all relevant medical and scientific information,
unless the Secretary finds that on the basis of all relevant information no revision of such guidelines is warranted and publishes such finding in the
Federal Register.
"(c) FAcroRs AFFECTING Gu10EuNEs.-Guidelines under subsection (a) shall take into account"(1) the risk to potential recipients of the vaccines with respect to which the guidelines are established,
"(2) the medical and other characteristics of such potential recipients, and
"(3) the risks to the public of not having such vaccines administered.
"(d) D1ssEM1NAr10N.-The Secretary shall widely disseminate the guidelines established under subsection (a) to"(1) physicians and other health care providers,
"(2) professional health associations,
"(3) State and local governments and agencies, and
"(4) other relevant entities."
REVIEW OF WARNINGS, USE INSTRUCTIONS, AND PRECAUTIONARY INFORMATION

Pub. L. 99-660, title Ill, §314, Nov.14, 1986, 100 Stat. 3782, directed Secretary of Health and Human Services, not later than 1 year after the
effective date of this title (see Effective Date note above) and after consultation with Advisory Commission on Childhood Vaccines and with other
appropriate entities, to review the warnings, use instructions, and precautionary information presently issued by manufacturers of vaccines set
forth in the Vaccine Injury Table set out in section 300aa-14 of this title and by rule determine whether such warnings, instructions, and information
adequately warn health care providers of the nature and extent of dangers posed by such vaccines, and, if any such warning, instruction, or
information is determined to be inadequate for such purpose in any respect, require at the same time that the manufacturers revise and reissue
such warning, instruction, or information as expeditiously as practical, but not later than 18 months after the effective date of this title.
STUDY OF IMPACT ON SUPPLY OF VACCINES

Pub. L. 99-660, title Ill, §316, Nov.14, 1986, 100 Stat. 3786, provided that: "On June 30, 1987, and on June 30 of each second year thereafter, the
Secretary of Health and Human Services shall submit to the Committee on Energy and Commerce of the House of Representatives and the
Committee on Labor and Human Resources [now Committee on Health, Education, Labor, and Pensions] of the Senate"(1) an assessment of the impact of the amendments made by this title [enacting this subchapter, amending sections 218, 242c, 262,286, and
289f of this title, redesignating former sections 300aa to 300aa-15 of this @e as sections 300cc to 300cc-15 of this title, and enacting provisions set out
as notes under this section and sections 201 and 300aa-1 of this title] on the supply of vaccines listed in the Vaccine Injury Table under section
2114 of the Public Health Service Act [42 u.s.c. 300aa-14], and
"(2) an assessment of the ability of the administrators of vaccines (including public clinics and private administrators) to provide such
vaccines to children."
WAIVER OF PAPERWORK REDUCTION

Pub. L. 99-660, title Ill, §321, Nov. 14, 1986, 100 Stat. 3783, provided that: "Chapter 35 of title 44, United States Code, shall not apply to information
required for purposes of carrying out this title and implementing the amendments made by this title [enacting this subchapter, amending sections
218, 242c, 262,286, and 289f of this tltle, redesignating former sections 300aa to 300aa-15 of this title as sections 300cc to 300cc-15 of this tltle, and enacting
provisions set out as notes under sections 201, 300aa-1, and 300aa-4 of this title]."

§300aa-2. Program responsibilities
(a) The Director of the Program shall have the following responsibilities:

(1) Vaccine research
The Director of the Program shall, through the plan issued under section 300aa-3 of this title, coordinate and provide direction for research carried out in or
through the National Institutes of Health, the Centers for Disease Control and Prevention, the Office of Biologics Research and Review of the Food and Drug
Administration, the Department of Defense, and the Agency for International Development on means to induce human immunity against naturally occurring
infectious diseases and to prevent adverse reactions to vaccines.
(2) Vaccine development
The Director of the Program shall, through the plan issued under section 300aa-3 of this title, coordinate and provide direction for activities carried out in or
through the National Institutes of Health, the Office of Biologics Research and Review of the Food and Drug Administration, the Department of Defense, and the
Agency for International Development to develop the techniques needed to produce safe and effective vaccines.
(3) Safety and efficacy testing of vaccines
The Director of the Program shall, through the plan issued under section 300aa-3 of this title, coordinate and provide direction for safety and efficacy testing of
vaccines carried out in or through the National Institutes of Health, the Centers for Disease Control and Prevention, the Office of Biologics Research and Review
of the Food and Drug Administration, the Department of Defense, and the Agency for International Development.
(4) Licensing of vaccine manufacturers and vaccines
The Director of the Program shall, through the plan issued under section 300aa-3 of this title, coordinate and provide direction for the allocation of resources in
the implementation of the licensing program under section 263a of this title.
(5) Production and procurement of vaccines
The Director of the Program shall, through the plan issued under section 300aa-3 of this title, ensure that the governmental and non-governmental production
and procurement of safe and effective vaccines by the Public Health Service, the Department of Defense, and the Agency for International Development meet the
needs of the United States population and fulfill commitments of the United States to prevent human infectious diseases in other countries.
(6) Distribution and use of vaccines

E-3
D
The Director of the Program shall, through the plan issued under section 300aa-3 of this title, coordinate and provide direction to the Centers for Disease
Control and Prevention and assistance to States, localities, and health practitioners in the distribution and use of vaccines, including efforts to encourage public
acceptance of immunizations and to make health practitioners and the public aware of potential adverse reactions and contraindications to vaccines.

(7) Evaluating the need for and the effectiveness and adverse effects of vaccines and immunization activities
The Director of the Program shall, through the plan issued under section 300aa-3 of this title, coordinate and provide direction to the National Institutes of
Health, the Centers for Disease Control and Prevention, the Office of Biologics Research and Review of the Food and Drug Administration, the National Center for
Health Statistics, the National Center for Health Services Research and Health Care Technology Assessment, and the Centers for Medicare & Medicaid Services
in monitoring the need for and the effectiveness and adverse effects of vaccines and immunization activities.
(8) Coordinating governmental and non-governmental activities
The Director of the Program shall, through the plan issued under section 300aa-3 of this title, provide for the exchange of information between Federal
agencies involved in the implementation of the Program and non-governmental entities engaged in the development and production of vaccines and in vaccine
research and encourage the investment of non-governmental resources complementary to the governmental actiwies under the Program.
(9) Funding of Federal agencies
The Director of the Program shall make available to Federal agencies involved in the implementation of the plan issued under section 300aa-3 of this title funds
appropriated under section 300aa-6 of this title to supplement the funds otherwise available to such agencies for activities under the plan.
(b) In carrying out subsection (a) and in preparing the plan under section 300aa-3 of this tnle, the Director shall consult with all Federal agencies involved in
research on and development, testing, licensing, production, procurement, distribution, and use of vaccines.
(July 1, 1944, ch. 373, title XXI, §2102, as added Pub. L. 99-660, title Ill, §311(a), Nov. 14, 1986, 100 Stat. 3756; amended Pub. L. 102-531, tltle Ill, §312(d)(13),
Oct. 27, 1992, 106 Stat. 3505; Pub. L. 108--173, title IX, §900(e)(2)(F), Dec. 8, 2003, 117 Stat. 2372.)
PRIOR PROVISIONS

A prior section 300aa-2, act July 1, 1944, §2103, was successively renumbered by subsequent acts and transferred, see section 238b of this title.
A prior section 2102 of act July 1, 1944, was successively renumbered by subsequent acts and transferred, see section 238a of this title.
AMENDMENTS

2003-Subsec. (a)(7). Pub. L. 108-173 substituted "Centers for Medicare & Medicaid Services" for "Health Care Financing Administration".
1992-Subsec. (a)(1), (3), (6), (7). Pub. L. 102-531 substituted "Centers for Disease Control and Prevention" for "Centers for Disease Control".
ENCOURAGING VACCINE INNOVATION; MEETINGS

Pub. L. 114-255, div. A, title Ill, §3093(a), Dec. 13, 2016, 130 Stat. 1151, provided that: "The Director of the Centers for Disease Control and
Prevention shall ensure that appropriate staff within the relevant centers and divisions of the Office of Infectious Diseases, and others, as
appropriate, coordinate with respect to the public health needs, epidemiology, and program planning and implementation considerations related to
immunization, including with regard to meetings with stakeholders related to such topics."
GRANTS FOR RESEARCH ON VACCINE AGAINST VALLEY FEVER

Pub. L. 109-432, div. B, title IV, §402, Dec. 20, 2006, 120 Stat. 2994, authorized the Secretary of Health and Human Services to make grants for
research on the development of a vaccine against coccidioidomycosis (commonly known as Valley Fever) before Oct. 1, 2012.
DEMONSTRATION PROJECTS FOR OUTREACH PROGRAMS

Pub. L. 101-502, §2(b), Nov. 3, 1990, 104 Stat. 1285, provided that:
"(1) IN GENERAL.-The Secretary of Health and Human Services, acting through the Director of the Centers for Disease Control, may make grants
to public and nonprofit private entities for the purpose of carrying out demonstration projects"(A) to provide, without charge, immunizations against vaccine-preventable diseases to children not more than 2 years of age who reside in
communities whose population includes a significant number of low-income individuals; and
"(B) to provide outreach services to identify such children and to inform the parents (or other guardians) of the children of the availability
from the entities of the immunizations specified in subparagraph (A).
"(2) AuTHoR1ZAT10N oF APPROPR1AT10Ns.-For the purpose of carrying out paragraph (1), there are authorized to be appropriated such sums as may be
necessary for each of the fiscal years 1991 through 1993."
[Centers for Disease Control changed to Centers for Disease Control and Prevention by Pub. L. 102-531, title Ill, §312, Oct. 27, 1992, 106 Stat.
3504.]
SUPPLY OF VACCINES

Pub. L. 101-502, §3, Nov. 3, 1990, 104 Stat. 1285, provided that:
"(a) IN GENERAL-The Secretary of Health and Human Services, acting through the Director of the Centers for Disease Control, shall acquire and
maintain a supply of vaccines sufficient to provide vaccinations throughout a 6-month period. Any proceeds received by the Secretary from the
sale of vaccines from such supply shall be available to the Secretary for the purpose of purchasing vaccines for the supply. Such proceeds shall
remain available for such purpose until expended.
"(b) AuTHoR1ZAT10N oF APPROPR1An0Ns.-For the purpose of carrying out subsection (a), there are authorized to be appropriated $5,000,000 for fiscal
year 1991, and such sums as may be necessary for each of the fiscal years 1992 through 1995."
[Centers for Disease Control changed to Centers for Disease Control and Prevention by Pub. L. 102-531, title Ill, §312, Oct. 27, 1992, 106 Stat.
3504.]
Pub. L. 100-177, title I, §11 O(b), Dec. 1, 1987, 101 Stat. 991, provided that:
"(1) IN GENERAL.-The Secretary of Health and Human Services, acting through the Director of the Centers for Disease Control, shall acquire and
maintain a supply of vaccines sufficient to provide vaccinations throughout a 6-month period.
"(2) AurnoR1ZAT10N oF APPROPR1An0Ns.-There are authorized to be appropriated to carry out paragraph (1) $5,000,000 for fiscal year 1988, and such
sums as may be necessary for each of the fiscal years 1989 and 1990."
[Centers for Disease Control changed to Centers for Disease Control and Prevention by Pub. L. 102-531, title 111, §312, Oct. 27, 1992, 106 Stat.
3504.]

§300aa-3. Plan
The Director of the Program shall prepare and issue a plan for the implementation of the responsibilities of the Director under section 300aa-2 of this title. The
plan shall establish priorities in research and the development, testing, licensing, production, procurement, distribution, and effective use of vaccines, describe an
optimal use of resources to carry out such priorities, and describe how each of the various departments and agencies will carry out their vaccine functions in
consultation and coordination with the Program and in conformity with such priorities. The first plan under this section shall be prepared not later than January 1,
1987, and shall be revised not later than January 1 of each succeeding year.
(July 1, 1944, ch. 373, title XXI, §2103, as added Pub. L. 99-660, title 111, §311(a), Nov. 14, 1986, 100 Stat. 3757.)
PRIOR PROVISIONS

E-4
D
A prior section 300aa-3, act July 1, 1944, §2104, which was renumbered section 2304 by Pub. L. 99-660, was transferred to section 300cc-3 of
this title, prior to repeal by Pub. L. 98-621, §1 0(s), Nov. 8, 1984, 98 Stat. 3381.
A prior section 2103 of act July 1, 1944, was successively renumbered by subsequent acts and transferred, see section 238b of this title.

§300aa-4. Repealed.

Pub. L. 105-362, title VI, §601(a)(1)(H), Nov. 10, 1998, 112 Stat. 3285

Section, act July 1, 1944, ch. 373, title XXI, §2104, as added Pub. L. 99-660, title 111, §311(a), Nov. 14, 1986, 100 Stat. 3757, related to national
vaccine program report.
A prior section 300aa-4, act July 1, 1944, §2105, was repealed by Pub. L. 99-117, §12(f), Oct. 7, 1985, 99 Stat. 495. See section 300co-4 of this
title.
A prior section 2104 of act July 1, 1944, was renumbered section 2304 by Pub. L. 99-660 and classified to section 300cc-3 of this title, and was
repealed by Pub. L. 98-621, §1 0(s), Nov. 8, 1984, 98 Stat. 3381.

§300aa-5. National Vaccine Advisory Committee
(a) There is established the National Vaccine Advisory Committee. The members of the Committee shall be appointed by the Director of the Program, in
consultation with the National Academy of Sciences, from among individuals who are engaged in vaccine research or the manufacture of vaccines or who are
physicians, members of parent organizations concerned with immunizations, or representatives of State or local health agencies or public health organizations.
(b) The Committee shall(1) study and recommend ways to encourage the availabillty of an adequate supply of safe and effective vaccination products in the States,
(2) recommend research priorities and other measures the Director of the Program should take to enhance the safety and efficacy of vaccines,
(3) advise the Director of the Program in the implementation of sections 300aa-2, 300aa-3, and 300aa--41 of this tltle, and
(4) identify annually for the Director of the Program the most important areas of government and non-government cooperation that should be considered in
implementing sections 300aa-2, 300aa-3, and 300aa--41 of this title.
(July 1, 1944, ch. 373, title XXI, §2105, as added Pub. L. 99-660, title Ill, §311(a), Nov. 14, 1986, 100 Stat. 3758.)
REFERENCES IN TEXT

Section 300aa--4 of this title, referred to in subsec. (b)(3), (4), was repealed by Pub. L. 105-362, title VI, §601 (a)(1)(H), Nov. 10, 1998, 112 Stat. 3285.
PRIOR PROVISIONS

A prior section 300aa-5, act July 1, 1944, §2106, was successively renumbered by subsequent acts and transferred, see section 238c of this title.
A prior section 2105 of act July 1, 1944, was repealed by Pub. L. 99-117, §12(f), Oct. 7, 1985, 99 Stat. 495. See section 300co-4 of this tltle.
TERMINATION OF ADVISORY COMMITTEES

Advisory committees established after Jan. 5, 1973, to terminate not later than the expiration of the 2-year period beginning on the date of their
establishment, unless, in the case of a committee established by the President or an officer of the Federal Government, such committee is
renewed by appropriate action prior to the expiration of such 2-year period, or in the case of a committee established by the Congress, its
duration is otherwise provided by law. See section 14 of Pub. L. 92--463, Oct. 6, 1972, 86 Stat. 776, set out in the Appendix to Title 5, Government
Organization and Employees.
Pub. L. 93-641, §6, Jan. 4, 1975, 88 Stat. 2275, set out as a note under section 217a ofthis tltle, provided that an advisory committee established
pursuant to the Public Health Service Act shall terminate at such time as may be specifically prescribed by an Act of Congress enacted after Jan.
4, 1975.

1 See References in Text note below.
§300aa-6. Authorization of appropriations

(a) To carry out this part other than section 300aa-2(9) of this title there are authorized to be appropriated such sums as may be necessary for each of the fiscal
years 2004 and 2005.
(b) To carry out section 300aa-2(9) of this title there are authorized to be appropriated such sums as may be necessary for each ofthe fiscal years 2004 and
2005.
(July 1, 1944, ch. 373, title XXI, §2106, as added Pub. L. 99-660, title Ill, §311(a), Nov. 14, 1986, 100 Stat. 3758; amended Pub. L.101-502, §4, Nov. 3, 1990, 104
Stat. 1286; Pub. L. 108--276, §2(c), July 21, 2004, 118 Stat. 842.)
PRIOR PROVISIONS

A prior section 300aa--6, act July 1, 1944, §2107, was successively renumbered by subsequent acts and transferred, see section 238d of this title.
A prior section 2106 of act July 1, 1944, was successively renumbered by subsequent acts and transferred, see section 238c of this title.
Prior sections 300aa-7 to 300aa-9, act July 1, 1944, §§2108-2110, respectively, were successively renumbered by subsequent acts and
transferred, see sections 238e to 238g, respectively, of this title.
AMENDMENTS

2004-Pub. L. 108--276 substituted provisions authorizing appropriations for fiscal years 2004 and 2005 for provisions authorizing appropriations
for fiscal years 1991 through 1995 in subsecs. (a) and (b).
1990-Pub. L. 101-502 substituted provisions authorizing appropriations for fiscal years 1991 through 1995 for provisions authorizing
appropriations for fiscal years 1987 through 1991 in subsecs. (a) and (b).

PART 2-NATIONAL VACCINE INJURY CoM~ENSATION PROGRAM

SUBPART A-PROGRAM REQUIREMENTS

§300aa-10. Establishment of program
(a) Program established

E-5
D
There is established the National Vaccine Injury Compensation Program to be administered by the Secretary under which compensation may be paid for a
vaccine-related injury or death.
(b) Attorney's obligation
It shall be the ethical obligation of any attorney who is consulted by an individual with respect to a vaccine-related injury or death to advise such individual that

compensation may be available under the program l for such injury or death.

(c) Publicity
The Secretary shall undertake reasonable efforts to inform the public of the availability of the Program.

(July 1, 1944, ch. 373, title XXI, §2110, as added Pub. L. 99-660, title Ill, §311(a), Nov. 14, 1986, 100 Stat. 3758; amended Pub. L. 101-239, title VI, §6601(b), Dec.
19, 1989, 103 Stat. 2285.)
PRIOR PROVISIONS

A prior section 300aa-10, act July 1, 1944, §2111, was successively renumbered by subsequent acts and transferred, see section 238h of this
title.
A prior section 211 O of act July 1, 1944, was successively renumbered by subsequent acts and transferred, see section 238g of this title.
AMENDMENTS

1989--Subsec. (c). Pub. L. 101-239 added subsec. (c).
EFFECTIVE DATE OF

1989 AMENDMENT

Section 6601(s) of Pub. L.101-239, as amended by Pub. L. 102-572, title IX, §902(b)(1), Oct. 29, 1992, 106 Stat. 4516, provided that:
"(1) Except as provided in paragraph (2), the amendments made by this section [amending this section and sections 300aa-11 to 300aa-17,
300aa-21, 300aa-23, 300aa-26, and 300aa-27 of this title] shall apply as follows:
"(A) Petitions filed alter the date of enactment of this section [Dec. 19, 1989] shall proceed under the National Vaccine Injury Compensation
Program under title XXI of the Public Health Service Act [42 u.s.c. 300aa-1 et seq.] as amended by this section.
"(B) Petitions currently pending in which the evidentiary record is closed shall continue to proceed under the Program in accordance with
the law in effect before the date of the enactment of this section, except that if the United States Court of Federal Claims is to review the
findings of fact and conclusions of law of a special master on such a petition, the court may receive further evidence in conducting such review.
"(C) Petitions currently pending in which the evidentiary record is not closed shall proceed under the Program in accordance with the law
as amended by this section.
All pending cases which will proceed under the Program as amended by this section shall be immediately suspended for 30 days to enable the
special masters and parties to prepare for proceeding under the Program as amended by this section. In determining the 240-day period
prescribed by section 2112(d) of the Public Health Service Act [42 u.s.c. 300aa-12(d)]. as amended by this section, or the 420-day period
prescribed by section 2121 (b) of such Act [42 u.s.c. 300aa-21 (b)], as so amended, any period of suspension under the preceding sentence shall
be excluded.
"(2) The amendments to section 2115 of the Public Health Service Act [42 u.s.c. 300aa-15] shall apply to all pending and subsequently filed
petitions."
EFFECTIVE DATE
Subpart effective Oct. 1, 1988, see section 323 of Pub. L. 99-660, as amended, set out as a note under section 300aa-1 of this title.

1 So in original.

Probably_ should be cao.italized.

§300aa-11. Petitions for compensation
(a) General rule
(1) A proceeding for compensation under the Program for a vaccine-related injury or death shall be initiated by service upon the Secretary and the filing of a
petition containing the matter prescribed by subsection (c) with the United States Court of Federal Claims. The clerk of the United States Court of Federal Claims
shall immediately forward the filed petition to the chief special master for assignment to a special master under section 300aa-12(d)(1) of this title.
(2)(A) No person may bring a civil action for damages in an amount greater than $1,000 or in an unspecified amount against a vaccine administrator or
manufacturer in a State or Federal court for damages arising from a vaccine-related injury or death associated with the administration of a vaccine after October 1,
1988, and no such court may award damages in an amount greater than $1,000 in a civil action for damages for such a vaccine-related injury or death, unless a
petition has been filed, in accordance with section 300aa-16 of this title, for compensation under the Program for such injury or death and(i)(I) the United States Court of Federal Claims has issued a judgment under section 300aa-12 of this title on such petition, and
(II) such person elects under section 300aa-21 (a) of this title to file such an action, or
(ii) such person elects to withdraw such petition under section 300aa-21(b) of this title or such petition is considered withdrawn under such section.

(B) If a civil action which is barred under subparagraph (A) is filed in a State or Federal court, the court shall dismiss the action. If a petition is filed under this
section with respect to the injury or death for which such civil action was brought, the date such dismissed action was filed shall, for purposes of the limitations of
actions prescribed by section 300aa-16 of this title, be considered the date the petition was filed if the petition was filed within one year of the date of the dismissal
of the civil action.
(3) No vaccine administrator or manufacturer may be made a party to a civil action (other than a civil action which may be brought under paragraph (2)) for
damages for a vaccine-related injury or death associated with the administration of a vaccine after October 1, 1988.
(4) If in a civil action brought against a vaccine administrator or manufacturer before October 1, 1988, damages were denied for a vaccine-related injury or death
or if such civil action was dismissed with prejudice, the person who brought such action may file a petition under subsection (b) for such injury or death.
(5)(A) A plaintiff who on October 1, 1988, has pending a civil action for damages for a vaccine-related injury or death may, at any time within 2 years after October
1, 1988, or before judgment, whichever occurs first, petition to have such action dismissed without prejudice or costs and file a petition under subsection (b) for such
injury or death.
(B) If a plaintiff has pending a civil action for damages for a vaccine-related injury or death, such person may not file a petition under subsection (b) for such injury
or death.
(6) If a person brings a civil action after November 15, 1988 for damages for a vaccine-related injury or death associated with the administration of a vaccine
before November 15, 1988, such person may not file a petition under subsection (b) for such injury or death.
(7) If in a civil action brought against a vaccine administrator or manufacturer for a vaccine-related injury or death damages are awarded under a judgment of a
court or a settlement of such action, the person who brought such action may not file a petition under subsection (b) for such injury or death.
(8) If on October 1, 1988, there was pending an appeal or rehearing with respect to a civil action brought against a vaccine administrator or manufacturer and if
the outcome of the last appellate review of such action or the last rehearing of such action is the denial of damages for a vaccine-related injury or death, the person
who brought such action may file a petition under subsection (b) for such injury or death.
(9) This subsection applies only to a person who has sustained a vaccine-related injury or death and who is qualified to file a petition for compensation under the
Program.
(10) The Clerk of the United States Claims Court i is authorized to continue to receive, and forward, petitions for compensation for a vaccine-related injury or
death associated with the administration of a vaccine on or after October 1, 1992.

E-6
D
(b) Petitioners
(1)(A) Except as provided in subparagraph (B), any person who has sustained a vaccine-related injury, the legal representative of such person if such person is a
minor or is disabled, or the legal representative of any person who died as the result of the administration ofa vaccine set forth in the Vaccine Injury Table may, if the
person meets the requirements of subsection (c)(1), file a petition for compensation under the Program.
(B) No person may file a petition for a vaccine-related injury or death associated with a vaccine administered before October 1, 1988, if compensation has been
paid under this part for 3500 petitions for such injuries or deaths.
(2) Only one petition may be filed with respect to each administration of a vaccine. A covered vaccine administered to a pregnant woman shall constitute more
than one administration, one to the mother and one to each child (as such term is defined in subsection (1)(2)) who was in utero at the time such woman was
administered the vaccine.
(c) Petition content
A petition for compensation under the Program for a vaccine-related injury or death shall contain(1) except as provided in paragraph (3), an affidavit, and supporting documentation, demonstrating that the person who suffered such injury or who died(A) received a vaccine set forth in the Vaccine Injury Table or, if such person did not receive such a vaccine, contracted polio, directly or indirectly, from
another person who received an oral polio vaccine,
(B)(i) if such person received a vaccine set forth in the Vaccine Injury Table(1) received the vaccine in the United States or in its trust territories,
(II) received the vaccine outside the United States or a trust territory and at the time of the vaccination such person was a citizen of the United States
serving abroad as a member of the Armed Forces or otherwise as an employee of the United States or a dependent of such a citizen, or
(Ill) received the vaccine outside the United States or a trust territory and the vaccine was manufactured by a vaccine manufacturer located in the United
States and such person returned to the United States not later than 6 months after the date ofthe vaccination,
(ii) if such person did not receive such a vaccine but contracted polio from another person who received an oral polio vaccine, was a citizen of the United
States or a dependent of such a citizen,
(C)(0 sustained, or had significantly aggravated, any illness, disability, injury, or condition set forth in the Vaccine Injury Table in association with the vaccine
referred to in subparagraph (A) or died from the administration of such vaccine, and the first symptom or manifestation of the onset or of the significant
aggravation of any such illness, disability, injury, or condition or the death occurred within the time period after vaccine administration set forth in the Vaccine
Injury Table, or
(ii)(I) sustained, or had significantly aggravated, any illness, disabillty, injury, or condition not set forth in the Vaccine Injury Table but which was caused by a
vaccine referred to in subparagraph (A), or
(II) sustained, or had significantly aggravated, any illness, disabillty, injury, or condition set forth in the vaccine Injury Table the first symptom or manifestation
of the onset or significant aggravation of which did not occur within the time period set forth in the Table but which was caused by a vaccine referred to in
subparagraph (A),
(D)(O suffered the residual effects or complications of such illness, disability, injury, or condition for more than 6 months after the administration of the vaccine,
or (i0 died from the administration of the vaccine, or (iii) suffered such illness, disability, injury, or condition from the vaccine which resulted in inpatient
hospitalization and surgical intervention, and
(E) has not previously collected an award or settlement of a civil action for damages for such vaccine-related injury or death,
(2) except as provided in paragraph (3), maternal prenatal and delivery records, newborn hospital records (including all physicians' and nurses' notes and test
results), vaccination records associated with the vaccine allegedly causing the injury, pre- and post-injury physician or clinic records (including all relevant growth
charts and test results), all post-injury inpatient and outpatient records (including all provider notes, test results, and medication records), if applicable, a death
certificate, and if applicable, autopsy results, and
(3) an identification of any records of the type described in paragraph (1) or (2) which are unavailable to the petitioner and the reasons for their unavailability.

(d) Additional information
A petition may also include other available relevant medical records relating to the person who suffered such injury or who died from the administration of the
vaccine.
(e) Schedule
The petitioner shall submit in accordance with a schedule set by the special master assigned to the petition assessments, evaluations, and prognoses and such
other records and documents as are reasonably necessary for the determination of the amount of compensation to be paid to, or on behalf of, the person who
suffered such injury orwho died from the administration of the vaccine.
(f} Maternal immunization
(1) In general
Notwithstanding any other provision of law, for purposes of this subpart, both a woman who received a covered vaccine while pregnant and any child who was
in utero at the time such woman received the vaccine shall be considered persons to whom the covered vaccine was administered and persons who received the
covered vaccine.
(2) Definition
As used in this subsection, the term "child" shall have the meaning given that term by subsections (a) and (b) of section 8 of title 1 except that, for purposes of
this subsection, such section 8 shall be applied as if the term "include" in subsection (a) of such section were replaced with the term "mean".
(July 1, 1944, ch. 373, title XXI, §2111, as added Pub. L. 99-660, tltle Ill, §311(a), Nov.14, 1986, 100 Stat. 3758; amended Pub. L. 100-203, title IV, §§4302(b),
4304(a), (b), 4306, 4307(1), (2), Dec. 22, 1987, 101 Stat. 1330-221, 1330-223, 1330-224; Pub. L. 101-239, title VI, §6601(c)(1)-(7), Dec. 19, 1989, 103 Stat. 2285,
2286; Pub. L. 101-502, §5(a), Nov. 3, 1990, 104 Stat. 1286; Pub. L. 102-168, title II, §201(h)(1), Nov. 26, 1991, 105 Stat. 1104; Pub. L. 102-572, title IX, §902(b)(1),
Oct. 29, 1992, 106 Stat. 4516; Pub. L. 103--43, title XX, §2012, June 10, 1993, 107 Stat. 214; Pub. L. 105--277, div. C, title XV, §1502, Oct. 21, 1998, 112 Stat.
2681-741; Pub. L. 106-310, div. A, tltle XVII, §1701(a), Oct. 17, 2000, 114 Stat. 1151; Pub. L. 114-255, div. A, title Ill, §3093(c)(2), (3), Dec. 13, 2016, 130 Stat.
1152.)
CODIFICATION

In subsecs. (a)(2)(A), (3), (4), (5)(A), (8), and (b)(1 )(8), "October 1, 1988" substituted for "the effective date of this subpart" on authority of
section 323 of Pub. L. 99-660, as amended, set out as an Effective Date note under section 300aa-1 of this title.
PRIOR PROVISIONS

A prior section 300aa-11, act July 1, 1944, §2112, was successively renumbered by subsequent acts and transferred, see section 238i of this tltle.
A prior section 2111 of act July 1, 1944, was successively renumbered by subsequent acts and transferred, see section 238h of this title.
AMENDMENTS

2016-Subsec. (b)(2). Pub. L. 114-255, §3093(c)(3), inserted at end "A covered vaccine administered to a pregnant woman shall constitute more
than one administration, one to the mother and one to each child (as such term is defined in subsection (f)(2)) who was in utero at the time such
woman was administered the vaccine."
Subsec. (f). Pub. L. 114-255, §3093(c)(2), added subsec. (f).
2000-Subsec. (c)(1)(D)(iii). Pub. L.106--310 added cl. (iii).
1998-Subsec. (c)(1)(D)(O. Pub. L. 105--277 struck out "and incurred unreimbursable expenses due in whole or in part to such illness, disability,
injury, or condition in an amount greater than $1,000" before", or (ii) died".
1993-Subsec. (a)(10). Pub. L. 103-43 added par. (10).

E-7
D
1992-Subsec. (a)(1), (2)(A)(i)(I). Pub. L. 102-572 substituted "United States Court of Federal Claims" for "United States Claims Court" wherever
appearing.
1991-Subsec. (a)(2)(A)(Q, (ii). Pub. L. 102-168 realigned margins of els. (Q and (iQ.
1990-Subsec. (a)(2)(A). Pub. L. 101-502, §5(a)(1), substituted "unless a petition has been filed, in accordance with section 300aa-16 of this title,
for compensation under the Program for such injury or death and-" and els. (Q and (iQ for "unless"(Q a petition has been filed, in accordance with section 300aa-16 of this title, for compensation under the Program for such injury or death,
"(ii) the United States Claims Court has issued a judgment under section 300aa-12 of this title on such petition, and
"(iiQ such person elects under section 300aa-21(a) of this title to file such an action."
Subsec. (a)(5)(A). Pub. L. 101-502, §5(a)(2), struck out "without prejudice" after "without prejudice or costs".
Subsec. (a)(5)(B). Pub. L. 101-502, §5(a)(3), substituted "plaintiff'' for "plaintiff who".
Subsec. (d). Pub. L. 101-502, §5(a)(4), struck out "(d) except as provided in paragraph (3)," before "(d) Additional information".
Subsec. (e). Pub. L. 101-502, §5(a)(5), substituted "(e) Schedule" for "(e)(e) Schedule".
1989-Subsec. (a)(1). Pub. L. 101-239, §6601 (c)(1), substituted "filing of a petition containing the matter prescribed in subsection (c)" for "filing of
a petition" and inserted at end "The clerk of the United States Claims Court shall immediately forward the filed petition to the chief special master
for assignment to a special master under section 300aa-12(d)(1) of this title."
Subsec. (a)(2)(A)(i). Pub. L. 101-239, §6601 (c)(2), struck out "under subsection (b) ofthis section" after "section 300aa-16 of this title,".
Subsec. (a)(5)(A). Pub. L. 101-239, §6601 (c)(3)(A), substituted "petition to have such action dismissed without prejudice or costs" for "elect to
withdraw such action".
Subsec. (a)(5)(B). Pub. L. 101-239, §6601 (c)(3)(B), substituted "has pending" for "on October 1, 1988, had pending" and struck out "does not
withdraw the action under subparagraph (A)" after "vaccine-related injury or death".
Subsec. (a)(6). Pub. L. 101-239, §6601 (c)(4), substituted "November 15, 1988" for "the effective date of this subpart" in two places.
Subsec. (a)(8). Pub. L. 101-239, §6601 (c)(5), added par. (8). Former par. (8) redesignated (9).
Subsec. (a)(9). Pub. L. 101-239, §6601 (c)(5), (7), redesignated par. (8) as (9) and realigned margin.
Subsec. (c)(1). Pub. L. 101-239, §6601(c)(6)(A), inserted "except as provided in paragraph (3)," after "(1)" in introductory provisions.
Subsec. (c)(2). Pub. L. 101-239, §6601 (c)(6)(B), (C), added par. (2) and redesignated former par. (2) as subsec. (d).
Pub. L. 101-239, §6601 (c)(6)(A), inserted "except as provided in paragraph (3)," after "(2)".
Subsec. (c)(3). Pub. L. 101-239, §6601 (c)(6)(C), (D), added par. (3). Former par. (3) redesignated subsec. (e).
Subsec. (d). Pub. L. 101-239, §6601 (c)(6)(B), redesignated former subsec. (c)(2) as subsec. (d), expanded margin to full measure, inserted
subsec. designation and heading, substituted "A petition may also include other available" for "all available", struck out "(including autopsy
reports, if any)" after "relevant medical records", and substituted "administration of the vaccine." for "administration of the vaccine and an
identification of any unavailable records known to the petitioner and the reasons for their unavailability, and".
Subsec. (e). Pub. L. 101-239, §6601 (c)(6)(D), redesignated former subsec. (c)(3) as subsec. (e), expanded margin to full measure, inserted
subsec. designation and heading, and substituted "The petitioner shall submit in accordance with a schedule set by the special master assigned
to the petition" for "appropriate".
1987-Subsec. (a)(1). Pub. L. 100-203, §4307(1), which directed that par. (1) be amended by substituting "with the United States Claims Court"
for "with the United States district court for the district in which the petitioner resides or the injury or death occurred", was executed making the
substitution for "with the United States district court for the district in which the petitioner resides or in which the injury or death occurred", as the
probable intent of Congress.
Subsec. (a)(2)(A). Pub. L. 100-203, §4306, substituted "vaccine administrator or manufacturer'' for "vaccine manufacturer''.
Pub. L. 100-203, §4302(b)(1), substituted "effective date of this subpart" for "effective date of this part".
Subsec. (a)(2)(A)(iQ. Pub. L. 100-203, §4307(2), substituted "the United States Claims Court" for "a district court of the United States".
Subsec. (a)(3). Pub. L. 100-203, §4306, substituted "vaccine administrator or manufacturer'' for "vaccine manufacturer''.
Pub. L. 100-203, §4302(b)(1), substituted "effective date of this subpart" for "effective date of this part".
Subsec. (a)(4). Pub. L. 100-203, §4306, substituted "vaccine administrator or manufacturer'' for "vaccine manufacturer''.
Pub. L. 100-203, §4302(b)(1), substituted "effective date of this subpart" for "effective date of this part".
Subsec. (a)(5)(A). Pub. L. 100-203, §4302(b)(2), substituted "after the effective date of this subpart" for "after the effective date of this
subchapter".
Pub. L. 100-203, §4302(b)(1), substituted "who on the effective date of this subpart" for "who on the effective date of this part".
Subsec. (a)(5)(B). Pub. L. 100-203, §4302(b)(1), substituted "effective date of this subpart" for "effective date of this part".
Subsec. (a)(6). Pub. L. 100-203, §4302(b)(1), substituted "effective date of this subpart" for "effective date of this part" in two places.
Subsec. (a)(7). Pub. L. 100-203, §4306, substituted "vaccine administrator or manufacturer'' for "vaccine manufacturer''.
Subsec. (a)(8). Pub. L. 100-203, §4304(a), added par. (8).
Subsec. (b)(1)(A). Pub. L. 100-203, §4304(b)(1), substituted "may, if the person meets the requirements of subsection (c)(1), file" for "may file".
Subsec. (b)(1)(B). Pub. L. 100-203, §4302(b)(1), substituted "effective date of this subpart" for "effective date of this part".
Subsec. (c)(1)(D). Pub. L. 100-203, §4304(b)(2), substituted "for more than 6 months" for "for more than 1 year", "and incurred" for", (ii)
incurred", and "(ii)" for "(iii)".
CHANGE OF NAME

References to United States Claims Court deemed to refer to United States Court of Federal Claims, see section 902(b) of Pub. L. 102-572, set
out as a note under section 171 of Title 28, Judiciary and Judicial Procedure.
EFFECTIVE DATE OF

2000

AMENDMENT

Pub. L. 106-310, div. A, title XVII, §1701 (b), Oct. 17, 2000, 114 Stat. 1151, provided that: "The amendment made by subsection (a) [amending this
section] takes effect upon the date of the enactment of this Act [Oct. 17, 2000], including with respect to petitions under section 2111 of the Public
Health Service Act [42 u.s.c. 300aa-11] that are pending on such date."
EFFECTIVE DATE OF

1992 AMENDMENT

Amendment by Pub. L. 102-572 effective Oct. 29, 1992, see section 911 of Pub. L. 102-572, set out as a note under section 171 of Title 28, Judiciary
and Judicial Procedure.
EFFECTIVE DATE OF

1991

AMENDMENT

Pub. L.102-168, title 11, §201(Q, Nov. 26, 1991, 105 Stat.1104, provided that:
"(1) Except as provided in paragraph (2), the amendments made by this section [amending this section and sections 300aa-12, 300aa-15, 300aa16, 300aa-19, and 300aa-21 of this title and provisions set out as a note under section 300aa-1 of this title] shall take effect on the date of the
enactment of this Act [Nov. 26, 1991].
"(2) The amendments made by subsections (d) and (f) [amending sections 300aa-12, 300aa-15, 300aa-16, and 300aa-21 of this title] shall take effect
as if the amendments had been in effect on and after October 1, 1988."
EFFECTIVE DATE OF

1990 AMENDMENT

Pub. L. 101-502, §5(h), Nov. 3, 1990, 104 Stat. 1289, provided that: "The amendments made by subsections (f)(1) and (g) [amending section
300aa-21 of this title and provisions set out as a note under section 300aa-1 of this title and enacting provisions set out as a note under section 300aa-

E-8
D
12 of this @e] shall take effect as of November 14, 1986, and the amendments made by subsections (a) through (e) and subsection (f)(2)
[amending this section and sections 300aa-12, 300aa-13, 300aa-15, 300aa-16, and 300aa-21 of this title] shall take effect as of September 30, 1990."
EFFECTIVE DATE OF

1989 AMENDMENT

For applicability of amendments by Pub. L. 101-239 to petitions filed after Dec. 19, 1989, petitions currently pending in which the evidentiary
record is closed, and petitions currently pending in which the evidentiary record is not closed, with provision for an immediate suspension for 30
days of all pending cases, see section 6601 (s)(1) of Pub. L. 101-239, set out as a note under section 300aa-10 ofthis title.

1 See Change of Name note below.
§300aa-12. Court jurisdiction
(a) General rule

The United States Court of Federal Claims and the United States Court of Federal Claims special masters shall, in accordance with this section, have jurisdiction
over proceedings to determine if a petitioner under section 300aa-11 of this title is entitled to compensation under the Program and the amount of such
compensation. The United States Court of Federal Claims may issue and enforce such orders as the court deems necessary to assure the prompt payment of any
compensation awarded.

(b) Parties
(1) In all proceedings brought by the filing of a petition under section 300aa-11 (b) of this title, the Secretary shall be named as the respondent, shall participate,
and shall be represented in accordance with section 518(a) oftitle 28.
(2) Within 30 days after the Secretary receives service of any petition filed under section 300aa-11 of this title the Secretary shall publish notice of such petition in
the Federal Register. The special master designated with respect to such petition under subsection (c) shall afford all interested persons an opportunity to submit
relevant, written information(A) relating to the existence of the evidence described in section 300aa-13(a)(1)(B) of this title, or
(B) relating to any allegation in a petition with respect to the matters described in section 300aa-11 (c)(1)(C)(ii) of this title.

(c) United States Court of Federal Claims special masters
(1) There is established within the United States Court of Federal Claims an office of special masters which shall consist of not more than 8 special masters. The
judges of the United States Court of Federal Claims shall appoint the special masters, 1 of whom, by designation of the judges of the United States Court of Federal
Claims, shall serve as chief special master. The appointment and reappointment of the special masters shall be by the concurrence of a majority of the judges of the
court.
(2) The chief special master and other special masters shall be subject to removal by the judges of the United States Court of Federal Claims for incompetency,
misconduct, or neglect of duty or for physical or mental disability or for other good cause shown.
(3) A special master's office shall be terminated if the judges of the United States Court of Federal Claims determine, upon advice of the chief special master, that
the services performed by that office are no longer needed.
(4) The appointment of any individual as a special master shall be for a term of 4 years, subject to termination under paragraphs (2) and (3). Individuals serving as
special masters on December 19, 1989, shall serve for 4 years from the date of their original appointment, subject to termination under paragraphs (2) and (3). The
chief special master in office on December 19, 1989, shall continue to serve as chief special master for the balance of the master's term, subject to termination
under paragraphs (2) and (3).
(5) The compensation of the special masters shall be determined by the judges of the United States Court of Federal Claims, upon advice of the chief special
master. The salary of the chief special master shall be the annual rate of basic pay for level IV of the Executive Schedule, as prescribed by section 5315, title 5. The
salaries of the other special masters shall not exceed the annual rate of basic pay of level Vofthe Executive Schedule, as prescribed by section 5316, title 5.
(6) The chief special master shall be responsible for the following:
(A) Administering the office of special masters and their staff, providing forthe efficient, expeditious, and effective handling of petitions, and performing such
other duties related to the Program as may be assigned to the chief special master by a concurrence of a majority of the United States Claims Courts 1 judges.
(B) Appointing and fixing the salary and duties of such administrative staff as are necessary. Such staff shall be subject to removal for good cause by the chief
special master.
(C) Managing and executing all aspects of budgetary and administrative affairs affecting the special masters and their staff, subject to the rules and regulations
of the Judicial Conference of the United States. The Conference rules and regulations pertaining to United States magistrate judges shall be applied to the special
masters.
(D) Coordinating with the United States Court of Federal Claims the use of services, equipment, personnel, information, and facilities of the United States Court
of Federal Claims without reimbursement.
(E) Reporting annually to the Congress and the judges of the United States Court of Federal Claims on the number of petitions filed under section 300aa-11 of
this title and their disposition, the dates on which the vaccine-related injuries and deaths for which the petitions were filed occurred, the types and amounts of
awards, the length of time for the disposition of petitions, the cost of administering the Program, and recommendations for changes in the Program.

(d) Special masters
(1) Following the receipt and filing of a petition under section 300aa-11 of this title, the clerk of the United States Court of Federal Claims shall forward the petition
to the chief special master who shall designate a special master to carry out the functions authorized by paragraph (3).
(2) The special masters shall recommend rules to the Court of Federal Claims and, taking into account such recommended rules, the Court of Federal Claims
shall promulgate rules pursuant to section 2071 of title 28. Such rules shall(A) provide for a less-adversarial, expeditious, and informal proceeding for the resolution of petitions,
(B) include flexible and informal standards of admissibility of evidence,
(C) include the opportunity for summary judgment,
(D) include the opportunity for parties to submit arguments and evidence on the record without requiring routine use of oral presentations, cross examinations,
orhearings,and
(E) provide for limitations on discovery and allow the special masters to replace the usual rules of discovery in civil actions in the United States Court of Federal
Claims.
(3)(A) A special master to whom a petition has been assigned shall issue a decision on such petition with respect to whether compensation is to be provided
under the Program and the amount of such compensation. The decision of the special master shall(i) include findings of fact and conclusions of law, and
(ii) be issued as expeditiously as practicable but not later than 240 days, exclusive of suspended time under subparagraph (C), after the date the petition was
filed.
The decision of the special master may be reviewed by the United States Court of Federal Claims in accordance with subsection (e).
(B) In conducting a proceeding on a petition a special master(i) may require such evidence as may be reasonable and necessary,
(ii) may require the submission of such information as may be reasonable and necessary,
(iii) may require the testimony of any person and the production of any documents as may be reasonable and necessary,
(iv) shall afford all interested persons an opportunity to submit relevant written information(1) relating to the existence of the evidence described in section 300aa-13(a)(1)(B) of this title, or
(II) relating to any allegation in a petition with respect to the matters described in section 300aa-11 (c)(1)(C)(ii) of this title, and

E-9
D
(v) may conduct such hearings as may be reasonable and necessary.
There may be no discovery in a proceeding on a petition other than the discovery required by the special master.
(C) In conducting a proceeding on a petition a special master shall suspend the proceedings one time for 30 days on the motion of either party. After a motion for
suspension is granted, further motions for suspension by either party may be granted by the special master, if the special master determines the suspension is
reasonable and necessary, for an aggregate period not to exceed 150 days.
(D) If, in reviewing proceedings on petitions for vaccine-related injuries or deaths associated with the administration of vaccines before October 1, 1988, the chief
special master determines that the number of filings and resultant work.load place an undue burden on the parties or the special master involved in such
proceedings, the chief special master may, in the interest of justice, suspend proceedings on any petition for up to 30 months (but for not more than 6 months at a
time) in addition to the suspension time under subparagraph (C).
(4)(A) Except as provided in subparagraph (B), information submitted to a special master or the court in a proceeding on a petttion may not be disclosed to a
person who is not a party to the proceeding without the express written consent of the person who submitted the information.
(B) A decision of a special master or the court in a proceeding shall be disclosed, except that if the decision is to include information(i) which is trade secret or commercial or financial information which is privileged and confidential, or
(ii) which are medical files and similar files the disclosure of which would constitute a clearly unwarranted invasion of privacy,
and if the person who submitted such information objects to the inclusion of such information in the decision, the decision shall be disclosed without such
information.
(e) Action by United States Court of Federal Claims
(1) Upon issuance of the special master's decision, the parties shall have 30 days to file with the clerk of the United States Court of Federal Claims a motion to
have the court review the decision. If such a motion is filed, the other party shall file a response with the clerk of the United States Court of Federal Claims no later
than 30 days after the filing of such motion.
(2) Upon the filing of a motion under paragraph (1) with respect to a petition, the United States Court of Federal Claims shall have jurisdiction to undertake a
review of the record of the proceedings and may thereafter(A) uphold the findings of fact and conclusions of law of the special master and sustain the special master's decision,
(B) set aside any findings of fact or conclusion of law of the special master found to be arbitrary, capricious, an abuse of discretion, or otherwise not in
accordance with law and issue its own findings of fact and conclusions of law, or
(C) remand the petition to the special master for further action in accordance with the court's direction.

The court shall complete its action on a petition wtthin 120 days of the filing of a response under paragraph (1) excluding any days the petition is before a special
master as a result of a remand under subparagraph (C). The court may allow not more than 90 days for remands under subparagraph (C).
(3) In the absence of a motion under paragraph (1) respecting the special master's decision or if the United States Court of Federal Claims takes the action
described in paragraph (2)(A) with respect to the special master's decision, the clerk of the Untted States Court of Federal Claims shall immediately enter judgment
in accordance with the special master's decision.

(f) Appeals
The findings of fact and conclusions of law of the United States Court of Federal Claims on a petition shall be final determinations of the matters involved, except
that the Secretary or any petitioner aggrieved by the findings or conclusions of the court may obtain review of the judgment of the court in the United States court of
appeals for the Federal Circuit upon petition filed within 60 days of the date of the judgment with such court of appeals within 60 days of the date of entry of the
United States Claims Court's 2. judgment wtth such court of appeals.
(g) Notice

lf(1) a special master fails to make a decision on a petition within the 240 days prescribed by subsection (d)(3)(A)(i0 (excluding (A) any period of suspension
under subsection (d)(3)(C) or (d)(3)(D), and (B) any days the petttion is before a special master as a result of a remand under subsection (e)(2)(C)), or
(2) the Untted States Court of Federal Claims fails to enter a judgment under this section on a petition within 420 days (excluding (A) any period of suspension
under subsection (d)(3)(C) or (d)(3)(D), and (B) any days the petttion is before a special master as a result of a remand under subsection (e)(2)(C)) after the date
on which the petition was filed,
the special master or court shall notify the petitioner under such petition that the petitioner may withdraw the petition under section 300aa-21(b) of this title or the
petitioner may choose under section 300aa-21 (b) of this title to have the petition remain before the special master or court, as the case may be.
(July 1, 1944, ch. 373, title XXI, §2112, as added Pub. L. 99-660, title Ill, §311(a), Nov. 14, 1986, 100 Stat. 3761; amended Pub. L. 100-203, title IV, §§4303(d)(2)
(A), 4307(3), 4308(a), (b), Dec. 22, 1987, 101 Stat. 1330-222, 1330-224; Pub. L. 100-360, title IV, §411(0)(2), (3)(A), July 1, 1988, 102 Stat. 808; Pub. L. 101-239,
title VI, §6601(d)-(i), Dec. 19, 1989, 103 Stat. 2286--2290; Pub. L. 101--502, §5(b), Nov. 3, 1990, 104 Stat. 1286; Pub. L. 101-650, title Ill, §321, Dec. 1, 1990, 104
Stat. 5117; Pub. L. 102-168, title II, §201(c), (d)(1), (h)(2), (3), Nov. 26, 1991, 105 Stat. 1103, 1104; Pub. L. 102-572, title IX, §902(b), Oct. 29, 1992, 106 Stat. 4516;
Pub. L. 103-66, title XIII, §13632(c), Aug. 10, 1993, 107 Stat. 646.)
CODIFICATION

In subsec. (c)(4), "on December 19, 1989," substituted for "upon the date of the enactment of this subsection" and "on the date of the
enactment of this subsection".
In subsec. (d)(3)(D), "October 1, 1988," substituted for "the effective date of this part".
PRIOR PROVISIONS

A prior section 300aa-12, act July 1, 1944, §2113, was successively renumbered by subsequent acts and transferred, see section 238j of this title.
A prior section 2112 of act July 1, 1944, was successively renumbered by subsequent acts and transferred, see section 238i ofthis title.
AMENDMENTS

1993-Subsec. (d)(3)(D). Pub. L. 103-66 substituted "30 months (but for not more than 6 months at a time)" for "540 days".
1992-Subsecs. (a), (c) to (g). Pub. L. 102--572 substituted "United States Court of Federal Claims" for "United States Claims Court" and "Court
of Federal Claims" for "Claims Court", wherever appearing.
1991-Subsec. (d)(3)(D). Pub. L. 102-168, §201 (c), (h)(2), realigned margin and substituted "540 days" for "180 days".
Subsec. (g). Pub. L. 102-168, §201 (h)(3), made technical amendment to underlying provisions of original Act.
Pub. L. 102-168, §201 (d)(1), substituted "or the petitioner may choose under section 300aa-21 (b) of this title to have the petition remain before the
special master or court, as the case may be" for "and the petition will be considered withdrawn under such section if the petitioner, the special
master, or the court do not take certain actions" before period at end.
1990-Subsec. (d)(3)(D). Pub. L. 101-502, §5(b)(1), added subpar. (D).
Subsec. (g). Pub. L. 101--502, §5(b)(2), added subsec. (g).
1989-Subsec. (a). Pub. L. 101-239, §6601 (d), substituted "and the United States Claims Court special masters shall, in accordance with this
section, have jurisdiction" for "shall have jurisdiction (1)", ". The United States Claims Court may issue" for", and (2) to issue", and "deems" for

"deem".

Subsec. (b)(1). Pub. L. 101-239, §6601 (f), substituted "In all proceedings brought by the filing of a petition under section 300aa-11 (b) of this title, the
Secretary shall be named as the respondent, shall participate, and shall be represented in accordance with section 518(a) oftltle 28." for "The
Secretary shall be named as the respondent in all proceedings brought by the filing of a petition under section 300aa-11(b) of this title. Except as
provided in paragraph (2), no other person may intervene in any such proceeding."

E-10
Subsec. (c). Pub. L. 101-239, §6601 (e)(2), added subsec. (c). Former subsec. (c) redesignated (d).
Subsec. (d). Pub. L. 101-239, §6601 (e)(1), redesignated subsec. (c) as (d). Former subsec. (d) redesignated (e).
Subsec. (d)(1). Pub. L. 101-239, §6601 (g)(1), amended par. (1) generally. Prior to amendment, par. (1) read as follows: "Following receipt of a
petition under subsection (a) of this section, the United States Claims Court shall designate a special master to carry out the functions authorized
by paragraph (2)."
Subsec. (d)(2) to (4). Pub. L. 101-239, §6601 (g)(2), added pars. (2) to (4) and struck out former par. (2) which prescribed functions of special
masters.
Subsec. (e). Pub. L. 101-239, §6601 (h), substituted "Action by United States Claims Court" for "Action by court" as heading and amended text
generally. Prior to amendment, text read as follows:
"(1) Upon objection by the petitioner or respondent to the proposed findings of fact or conclusions of law prepared by the special master or
upon the court's own motion, the court shall undertake a review of the record of the proceedings and may thereafter make a de novo
determination of any matter and issue its judgment accordingly, including findings of fact and conclusions of law, or remand for further
proceedings.
"(2) If no objection is filed under paragraph (1) or if the court does not choose to review the proceeding, the court shall adopt the proposed
findings of fact and conclusions of law of the special master as its own and render judgment thereon.
"(3) The court shall render its judgment on any petition filed under the Program as expeditiously as practicable but not later than 365 days after
the date on which the petition was filed."
Pub. L. 101-239, §6601 (e)(1), redesignated subsec. (d) as (e). Former subsec. (e) redesignated (f).
Subsec. (f). Pub. L.101-239, §6601{Q, inserted "within 60 days of the date of entry of the United States Claims Court's judgment with such court
of appeals" after "with such court of appeals".
Pub. L. 101-239, §6601 (e)(1), redesignated subsec. (e) as (f).
1988--Subsec. (c)(2). Pub. L. 100-360, §411 (o)(3)(A), added Pub. L. 100-203, §4308(a), see 1987 Amendment note below.
Subsec. (e). Pub. L. 100-360, §411 (o)(2), made technical amendment to directory language of Pub. L. 100-203, §4307(3)(C), see 1987
Amendment note below.
Pub. L. 100-360, §411 (o)(3)(A), added Pub. L. 100-203, §4308(b), see 1987 Amendment note below.
1987--Subsec. (a). Pub. L. 100-203, §4307(3)(A), substituted "United States Claims Court" for "district courts of the United States" and "the
court" for "the courts".
Subsec. (c)(1). Pub. L. 100-203, §4307(3)(8), substituted "the United States Claims Court" for "the district court of the United States in which the
petition is filed".
Subsec. (c)(2). Pub. L. 100-203, §4308(a), as added by Pub. L. 100-360, §411(o)(3)(A), inserted", shall prepare and submit to the court proposed
findings of fact and conclusions of law," in introductory provisions and struck out subpar. (E) which read as follows: "prepare and submit to the
court proposed findings of fact and conclusions of law."
Subsec. (e). Pub. L. 100-203, §4308(b), as added by Pub. L. 100-360, §411 (o)(3)(A), inserted "within 60 days of the date of the judgment" after
"petition filed".
Pub. L. 100-203, §4307(3)(C), as amended by Pub. L. 100-360, §411 (o)(2), substituted "the United States Claims Court" for "a district court of the
United States" and "for the Federal Circuit" for "for the circuit in which the court is located".
Pub. L. 100-203, §4303(d)(2)(A), redesignated subsec. (g) as (e) and struck out former subsec. (e) relating to administration of an award.
Subsec. (f). Pub. L. 100-203, §4303(d)(2)(A), struck out subsec. (f) which related to revision of an award.
Subsec. (g). Pub. L. 100-203, §4303(d)(2)(A), redesignated subsec. (g) as (e).
CHANGE OF NAME

"United States magistrate judges" substituted for "United States magistrates" in subsec. (c)(6)(C) pursuant to section 321 of Pub. L. 101-650, set
out as a note under section 631 of Tille 28, Judiciary and Judicial Procedure.
EFFECTIVE DATE OF

1992 AMENDMENT

Amendment by Pub. L. 102-572 effective Oct. 29, 1992, see section 911 of Pub. L. 102-572, set out as a note under section 171 of Title 28, Judiciary
and Judicial Procedure.
EFFECTIVE DATE OF

1991

AMENDMENT

Amendment by section 201 (d)(1) of Pub. L. 102-168 effective as if in effect on and after Oct. 1, 1988, see section 201 (i)(2) of Pub. L. 102-168, set
out as a note under section 300aa-11 of this title.
EFFECTIVE DATE OF

1990 AMENDMENT

Amendment by Pub. L. 101-502 effective Sept. 30, 1990, see section 5(h) of Pub. L. 101-502, set out as a note under section 300aa-11 of this title.
EFFECTIVE DATE OF

1989 AMENDMENT

For applicability of amendments by Pub. L. 101-239 to petitions filed after Dec. 19, 1989, petitions currently pending in which the evidentiary
record is closed, and petitions currently pending in which the evidentiary record is not closed, with provision for an immediate suspension for 30
days of all pending cases, except that such suspension be excluded in determining the 240-day period prescribed in subsec. (d) of this section,
see section 6601(s)(1) of Pub. L. 101-239, set out as a note under section 300aa-10 of this title.
EFFECTIVE DATE OF

1988 AMENDMENT

Except as specifically provided in section 411 of Pub. L. 100-360, amendment by Pub. L. 100-360, as it relates to a provision in the Omnibus
Budget Reconciliation Act of 1987, Pub. L. 100-203, effective as if included in the enactment of that provision in Pub. L. 100-203, see section 411 (a)
of Pub. L. 100-360, set out as a Reference to OBRA; Effective Date note under section 106 of Title 1, General Provisions.
TERMINATION OF REPORTING REQUIREMENTS

For termination, effective May 15, 2000, of provisions in subsec. (c)(6)(E) of this section relating to reporting annually to the Congress, see
section 3003 of Pub. L. 104-66, as amended, set out as a note under section 1113 of Title 31, Money and Finance, and page 13 of House Document
No.103-7.
REVIEW BY 3-JUDGE PANEL

Section 322(c) of Pub. L. 99-660, as added by Pub. L. 101-502, §5(g)(2), Nov. 3, 1990, 104 Stat. 1288, and amended by Pub. L. 102-572, title IX,
§902(b)(1), Oct. 29, 1992, 106 Stat. 4516, provided that: "If the review authorized by section 2112(f) [42 u.s.c. 300aa-12(1)] is held invalid because
the judgment of the United States Court of Federal Claims being reviewed did not arise from a case or controversy under Article Ill of the
Constitution, such judgment shall be reviewed by a 3-judge panel of the United States Court of Federal Claims. Such panel shall not include the
judge who participated in such judgment."
[Enactment of section 322(c) of Pub. L. 99-660 by section 5(g)(2) of Pub. L. 101-502, set out above, effective Nov. 14, 1986, see section 5(h) of
Pub. L. 101-502, set out as an Effective Date of 1990 Amendment note under section 300aa-11 of this title.]

1 So in original. Probably_ should be a reference to the United States Court of Federal Claims.

E-11
Z So in original. Probably_ should be a reference to the United States Court of Federal Claims.
§300aa-13. Determination of eligibility and compensation
(a) General rule
(1) Compensation shall be awarded under the Program to a petitioner if the special master or court finds on the record as a whole(A) that the petitioner has demonstrated by a preponderance of the evidence the matters required in the petition by section 300aa-11(c)(1) of this title, and
(B) that there is not a preponderance ofthe evidence that the illness, disability, injury, condition, or death described in the petition is due to factors unrelated to
the administration of the vaccine described in the petition.
The special master or court may not make such a finding based on the claims of a petitioner alone, unsubstantiated by medical records or by medical opinion.
(2) For purposes of paragraph (1), the term "factors unrelated to the administration of the vaccine"(A) does not include any idiopathic, unexplained, unknown, hypothetical, or undocumentable cause, factor, injury, illness, or condition, and
(B) may, as documented by the petitioner's evidence or other material in the record, include infection, toxins, trauma (including birth trauma and related anoxia),
or metabolic disturbances which have no known relation to the vaccine involved, but which in the particular case are shown to have been the agent or agents
principally responsible for causing the petitioner's illness, disability, injury, condition, or death.
(b) Matters to be considered
(1) In determining whether to award compensation to a petitioner under the Program, the special master or court shall consider, in addition to all other relevant
medical and scientific evidence contained in the record(A) any diagnosis, conclusion, medical judgment, or autopsy or coroner's report which is contained in the record regarding the nature, causation, and
aggravation of the petitioner's illness, disability, injury, condition, or death, and
(B) the results of any diagnostic or evaluative test which are contained in the record and the summaries and conclusions.
Any such diagnosis, conclusion, judgment, test result, report, or summary shall not be binding on the special master or court. In evaluating the weight to be
afforded to any such diagnosis, conclusion, judgment, test result, report, or summary, the special master or court shall consider the entire record and the course of
the injury, disability, illness, or condition until the date of the judgment of the special master or court.
(2) The special master or court may find the first symptom or manifestation of onset or significant aggravation of an injury, disability, illness, condition, or death
described in a petition occurred within the time period described in the Vaccine Injury Table even though the occurrence of such symptom or manifestation was not
recorded or was incorrectly recorded as having occurred outside such period. Such a finding may be made only upon demonstration by a preponderance of the
evidence that the onset or significant aggravation ofthe injury, disability, illness, condition, or death described in the petition did in fact occur within the time period
described in the Vaccine Injury Table.

(c) "Record" defined
For purposes of this section, the term "record" means the record established by the special masters of the United States Court of Federal Claims in a proceeding
on a petition filed under section 300aa-11 of this title.
(July 1, 1944, ch. 373, title XXI, §2113, as added Pub. L. 99-660, title Ill, §311(a), Nov. 14, 1986, 100 Stat. 3763; amended Pub. L.100-203, title IV, §4307(4), Dec.
22, 1987, 101 Stat. 1330-224; Pub. L. 101-239, tltle VI, §66010), Dec. 19, 1989, 103 Stat. 2290; Pub. L. 101-502, §5(c), Nov. 3, 1990, 104 Stat. 1287; Pub. L. 102572, title IX, §902(b)(1), Oct. 29, 1992, 106 Stat. 4516.)
PRIOR PROVISIONS

A prior section 300aa-13, act July 1, 1944, §2114, was successively renumbered by subsequent acts and transferred, see section 238k of this
title.
A prior section 2113 of act July 1, 1944, was successively renumbered by subsequent acts and transferred, see section 238j of this title.
AMENDMENTS

1992-Subsec. (c). Pub. L. 102-572 substituted "United States Court of Federal Claims" for "United States Claims Court".
1990-Subsec. (c). Pub. L. 101-502 inserted "the" after "special masters of'.
1989-Subsecs. (a)(1), (b). Pub. L. 101-239, §6601{]")(1), substituted "special master or court" for "court" wherever appearing.
Subsec. (c). Pub. L. 101-239, §66010)(2), inserted "special masters of' after "established by the".
1987-Subsec. (c). Pub. L. 100-203 substituted "the United States Claims Court" for "a district court of the United States".
EFFECTIVE DATE OF

1992 AMENDMENT

Amendment by Pub. L. 102-572 effective Oct. 29, 1992, see section 911 of Pub. L. 102-572, set out as a note under section 171 of 1itle 28, Judiciary
and Judicial Procedure.
EFFECTIVE DATE OF

1990 AMENDMENT

Amendment by Pub. L. 101-502 effective Sept. 30, 1990, see section 5(h) of Pub. L. 101-502, set out as a note under section 300aa-11 of this title.
EFFECTIVE DATE OF

1989 AMENDMENT

For applicability of amendments by Pub. L. 101-239 to petitions filed after Dec. 19, 1989, petitions currently pending in which the evidentiary
record is closed, and petitions currently pending in which the evidentiary record is not closed, with provision for an immediate suspension for 30
days of all pending cases, see section 6601 (s)(1) of Pub. L. 101-239, set out as a note under section 300aa-10 ofthis title.

§300aa-14. Vaccine Injury Table
(a) Initial table
The following is a table of vaccines, the injuries, disabillties, illnesses, conditions, and deaths resulting from the administration of such vaccines, and the time
period in which the first symptom or manifestation of onset or of the significant aggravation of such injuries, disabillties, illnesses, conditions, and deaths is to occur
after vaccine administration for purposes of receiving compensation under the Program:
VACCINE INJURY TABLE

I.

DTP; P; DTP/Polio Combination; or Any Other Vaccine
Containing Whole Cell Pertussis Bacteria, Extracted or
Partial Cell Bacteria, or Specific Pertussis Antigen(s).
Illness, disability, injury, or condition covered:
A. Anaphylaxis or anaphylactic shock
B. Encephalopathy (or encephalitis)

1ime period for first symptom or
manifestation of onset or of significant
aggravation after vaccine administration:
24 hours
3 days

E-12
C. Shock-collapse or hypotonic-hyporesponsive collapse
D. Residual seizure disorder in accordance with subsection (b)
(2)
E. Any acute complication or sequela (including death) of an
illness, disability, injury, or condition referred to above which
illness, disability, injury, or condition arose within the time
period prescribed
II. Measles, mumps, rubella, or any vaccine containing any of the
foregoing as a component; DT; Td; or Tetanus Toxoid.
A. Anaphylaxis or anaphylactic shock
B. Encephalopathy (or encephalitis)

C. Residual seizure disorder in accordance with subsection (b)
(2)

Ill.

IV.

D. Any acute complication or sequela (including death) of an
illness, disability, injury, or condition referred to above which
illness, disability, injury, or condition arose within the time
period prescribed
Polio Vaccines (other than Inactivated Polio Vaccine).
A. Paralytic polio
-in a non-immunodeficient recipient
-in an immunodeficient recipient
-in a vaccine-associated community case
B. Any acute complication or sequela (including death) of an
illness, disability, injury, or condition referred to above which
illness, disability, injury, or condition arose within the time
period prescribed
Inactivated Polio Vaccine.
A. Anaphylaxis or anaphylactic shock
B. Any acute complication or sequela (including death) of an
illness, disability, injury, or condition referred to above which
illness, disability, injury, or condition arose within the time
period prescribed

3 days
3 days
Not applicable

24 hours
15 days (for mumps, rubella, measles, or
any vaccine containing any ofthe
foregoing as a component). 3 days (for
DT, Td, or tetanus toxoid).
15 days (for mumps, rubella, measles, or
any vaccine containing any ofthe
foregoing as a component). 3 days (for
DT, Td, or tetanus toxoid).
Not applicable

30 days
6 months
Not applicable
Not applicable

24 hours
Not applicable

(b) Qualifications and aids to interpretation
The following qualifications and aids to interpretation shall apply to the Vaccine Injury Table in subsection (a):
(1) A shock-collapse or a hypotonic-hyporesponsive collapse may be evidenced by indicia or symptoms such as decrease or loss of muscle tone, paralysis
(partial or complete), hemiplegia or hemiparesis, loss of color or turning pale white or blue, unresponsiveness to environmental stimuli, depression of
consciousness, loss of consciousness, prolonged sleeping with difficulty arousing, or cardiovascular or respiratory arrest.
(2) A petitioner may be considered to have suffered a residual seizure disorder if the petitioner did not suffer a seizure or convulsion unaccompanied by fever or
accompanied by a fever of less than 102 degrees Fahrenheit before the first seizure or convulsion after the administration of the vaccine involved and if(A) in the case of a measles, mumps, or rubella vaccine or any combination of such vaccines, the first seizure or convulsion occurred within 15 days after
administration of the vaccine and 2 or more seizures or convulsions occurred within 1 year after the administration ofthe vaccine which were unaccompanied by
fever or accompanied by a fever of less than 102 degrees Fahrenheit, and
(B) in the case of any other vaccine, the first seizure or convulsion occurred within 3 days after administration of the vaccine and 2 or more seizures or
convulsions occurred within 1 year after the administration of the vaccine which were unaccompanied by fever or accompanied by a fever of less than 102
degrees Fahrenheit.
(3)(A) The term "encephalopathy" means any significant acquired abnormality of, or injury to, or impairment of function of the brain. Among the frequent
manifestations of encephalopathy are focal and diffuse neurologic signs, increased intracranial pressure, or changes lasting at least 6 hours in level of
consciousness, with or without convulsions. The neurological signs and symptoms of encephalopathy may be temporary with complete recovery, or may result in
various degrees of permanent impairment. Signs and symptoms such as high pitched and unusual screaming, persistent unconsolable crying, and bulging
fontanel are compatible with an encephalopathy, but in and ofthemselves are not conclusive evidence of encephalopathy. Encephalopathy usually can be
documented by slow wave activity on an electroencephalogram.
(B) If in a proceeding on a petition it is shown by a preponderance of the evidence that an encephalopathy was caused by infection, toxins, trauma, or metabolic
disturbances the encephalopathy shall not be considered to be a condition set forth in the table. If at the time a judgment is entered on a petition filed under
section 300aa-11 of this title for a vaccine-related injury or death it is not possible to determine the cause, by a preponderance of the evidence, of an
encephalopathy, the encephalopathy shall be considered to be a condition set forth in the table. In determining whether or not an encephalopathy is a condition
set forth in the table, the court shall consider the entire medical record.
(4) For purposes of paragraphs (2) and (3), the terms "seizure" and "convulsion" include grand mal, petit mal, absence, myoclonic, tonic-clonic, and focal motor
seizures and signs. If a provision of the table to which paragraph (1), (2), (3), or (4) applies is revised under subsection (c) or (d), such paragraph shall not apply to
such provision after the effective date of the revision unless the revision specifies that such paragraph is to continue to apply.
(c) Administrative revision of table
(1) The Secretary may promulgate regulations to modify in accordance with paragraph (3) the Vaccine Injury Table. In promulgating such regulations, the
Secretary shall provide for notice and opportunity for a public hearing and at least 180 days of public comment.
(2) Any person (including the Advisory Commission on Childhood Vaccines) may petition the Secretary to propose regulations to amend the Vaccine Injury Table.
Unless clearly frivolous, or initiated by the Commission, any such petition shall be referred to the Commission for its recommendations. Following(A) receipt of any recommendation of the Commission, or
(B) 180 days after the date of the referral to the Commission,
whichever occurs first, the Secretary shall conduct a rulemaking proceeding on the matters proposed in the petition or publish in the Federal Register a statement
of reasons for not conducting such proceeding.
(3) A modification of the Vaccine Injury Table under paragraph (1) may add to, or delete from, the list of injuries, disabilities, illnesses, conditions, and deaths for
which compensation may be provided or may change the time periods for the first symptom or manifestation of the onset or the significant aggravation of any such
injury, disability, illness, condition, or death.
(4) Any modification under paragraph (1) of the Vaccine Injury Table shall apply only with respect to petitions for compensation under the Program which are filed
after the effective date of such regulation.
(d) Role of Commission

E-13
Except with respect to a regulation recommended by the Advisory Commission on Childhood Vaccines, the Secretary may not propose a regulation under
subsection (c) or any revision thereof, unless the Secretary has first provided to the Commission a copy of the proposed regulation or revision, requested
recommendations and comments by the Commission, and afforded the Commission at least 90 days to make such recommendations.
(e) Additional vaccines
(1) Vaccines recommended before August 1, 1993
By August 1, 1995, the Secretary shall revise the Vaccine Injury Table included in subsection (a) to include(A) vaccines which are recommended to the Secretary by the Centers for Disease Control and Prevention before August 1, 1993, for routine administration to
children,
(B) the injuries, disabilities, illnesses, conditions, and deaths associated with such vaccines, and
(C) the time period in which the first symptoms or manifestations of onset or other significant aggravation of such injuries, disabilities, illnesses, conditions,
and deaths associated with such vaccines may occur.
(2) Vaccines recommended after August 1, 1993
\/\/hen after August 1, 1993, the Centers for Disease Control and Prevention recommends a vaccine to the Secretary for routine administration to children, the
Secretary shall, within 2 years of such recommendation, amend the Vaccine Injury Table included in subsection (a) to include(A) vaccines which were recommended for routine administration to children,
(B) the injuries, disabilities, illnesses, conditions, and deaths associated with such vaccines, and
(C) the time period in which the first symptoms or manifestations of onset or other significant aggravation of such injuries, disabilities, illnesses, conditions,
and deaths associated with such vaccines may occur.
(3) Vaccines recommended for use in pregnant women
The Secretary shall revise the Vaccine Injury Table included in subsection (a), through the process described in subsection (c), to include vaccines
recommended by the Centers for Disease Control and Prevention for routine administration in pregnant women and the information described in subparagraphs
(B) and (C) of paragraph (2) with respect to such vaccines.

(July 1, 1944, ch. 373, title XXI, §2114, as added Pub. L. 99--660, title Ill, §311(a), Nov. 14, 1986, 100 Stat. 3764; amended Pub. L.101-239, title VI, §6601(k), Dec.
19, 1989, 103 Stat. 2290; Pub. L. 103--66, title XIII, §13632(a)(2), Aug. 10, 1993, 107 Stat. 645; Pub. L. 114-255, div. A, title Ill, §3093(c)(1), Dec. 13, 2016, 130
Stat. 1152.)
PRIOR PROVISIONS

A prior section 300aa-14, act July 1, 1944, §2115, was successively renumbered by subsequent acts and transferred, see section 2381 of this title.
A prior section 2114 of act July 1, 1944, was successively renumbered by subsequent acts and transferred, see section 238k of this title.
AMENDMENTS

2016-Subsec. (e)(3). Pub. L. 114-255 added par. (3).
1993-Subsec. (e). Pub. L. 103--66 amended heading and text of subsec. (e) generally. Prior to amendment, text read as follows: "The Secretary
may recommend to Congress revisions of the table to change the vaccines covered by the table."
1989-Subsec. (a). Pub. L. 101-239, §6601 (k)(1), substituted "(b)(2)" for "(c)(2)" in items I.D. and I1.C. in table.
Subsec. (b)(3)(B). Pub. L. 101-239, §6601(k)(2), substituted "300aa-11 of this title" for "300aa-11(b) of this title".
EFFECTIVE DATE OF

1989 AMENDMENT

For applicability of amendments by Pub. L. 101-239 to petitions filed alter Dec. 19, 1989, petitions currently pending in which the evidentiary
record is closed, and petitions currently pending in which the evidentiary record is not closed, with provision for an immediate suspension for 30
days of all pending cases, see section 6601 (s)(1) of Pub. L. 101-239, set out as a note under section 300aa-10 of this title.
REVISIONS OF VACCINE INJURY TABLE

The Vaccine Injury Table as modified by regulations promulgated by the Secretary of Health and Human Services is set out at 42 CFR 100.3.
Pub. L. 103--66, title XIII, §13632(a)(3), Aug. 10, 1993, 107 Stat. 646, provided that: "A revision by the Secretary under section 2114(e) of the
Public Health Service Act {42 u.s.c. 300aa-14(e)) (as amended by paragraph (2)) shall take effect upon the effective date of a tax enacted to
provide funds for compensation paid with respect to the vaccine to be added to the vaccine injury table in section 2114(a) of the Public Health
Service Act {42 u.s.c. 300aa-14(a))."

§300aa-15. Compensation
(a) General rule
Compensation awarded under the Program to a petitioner under section 300aa-11 of this title for a vaccine-related injury or death associated with the
administration of a vaccine after October 1, 1988, shall include the following:
(1)(A) Actual unreimbursable expenses incurred from the date of the judgment awarding such expenses and reasonable projected unreimbursable expenses
which(i) result from the vaccine-related injury for which the petitioner seeks compensation,
(iQ have been or will be incurred by or on behalf of the person who suffered such injury, and
(iii)(I) have been or will be for diagnosis and medical or other remedial care determined to be reasonably necessary, or
(II) have been or will be for rehabilltation, developmental evaluation, special education, vocational training and placement, case management services,
counseling, emotional or behavioral therapy, residential and custodial care and service expenses, special equipment, related travel expenses, and facillties
determined to be reasonably necessary.

(B) Subject to section 300aa-16(a)(2) of this title, actual unreimbursable expenses incurred before the date of the judgment awarding such expenses which(i) resulted from the vaccine-related injury for which the petitioner seeks compensation,
(iQ were incurred by or on behalf of the person who suffered such injury, and
(iii) were for diagnosis, medical or other remedial care, rehabilitation, developmental evaluation, special education, vocational training and placement, case
management services, counseling, emotional or behavioral therapy, residential and custodial care and service expenses, special equipment, related travel
expenses, and facilities determined to be reasonably necessary.
(2) In the event of a vaccine-related death, an award of $250,000 for the estate of the deceased.
(3)(A) In the case of any person who has sustained a vaccine-related injury after attaining the age of 18 and whose earning capacity is or has been impaired by
reason of such person's vaccine-related injury for which compensation is to be awarded, compensation for actual and anticipated loss of earnings determined in
accordance with generally recognized actuarial principles and projections.
(B) In the case of any person who has sustained a vaccine-related injury before attaining the age of 18 and whose earning capacity is or has been impaired by
reason of such person's vaccine-related injury for which compensation is to be awarded and whose vaccine-related injury is of sufficient severity to permit
reasonable anticipation that such person is likely to suffer impaired earning capacity at age 18 and beyond, compensation after attaining the age of 18 for loss of
earnings determined on the basis of the average gross weekly earnings of workers in the private, non-farm sector, less appropriate taxes and the average cost of
a health insurance policy, as determined by the Secretary.
(4) For actual and projected pain and suffering and emotional distress from the vaccine-related injury, an award not to exceed $250,000.
(b) Vaccines administered before effective date

E-14
Compensation awarded under the Program to a petitioner under section 300aa-11 of this tltle for a vaccine-related injury or death associated with the
administration of a vaccine before October 1, 1988, may include the compensation described in paragraphs (1)(A) and (2) of subsection (a) and may also include an
amount, not to exceed a combined total of $30,000, for(1) lost earnings (as provided in paragraph (3) of subsection (a)),
(2) pain and suffering (as provided in paragraph (4) of subsection (a)), and
(3) reasonable attorneys' fees and costs (as provided in subsection (e).1

(c) Residential and custodial care and service
The amount of any compensation for residential and custodial care and service expenses under subsection (a)(1) shall be sufficient to enable the compensated
person to remain living at home.
(d) Types of compensation prohibited
Compensation awarded under the Program may not include the following:
(1) Punitive or exemplary damages.
(2) Except with respect to compensation payments under paragraphs (2) and (3) of subsection (a), compensation for other than the health, education, or welfare
of the person who suffered the vaccine-related injury with respect to which the compensation is paid.
(e) Attorneys' fees
(1) In awarding compensation on a petition filed under section 300aa-11 of this title the special master or court shall also award as part of such compensation an
amount to cover(A) reasonable attorneys' fees, and
(B) other costs,
incurred in any proceeding on such petition. If the judgment of the United States Court of Federal Claims on such a petition does not award compensation, the
special master or court may award an amount of compensation to cover petitioner's reasonable attorneys' fees and other costs incurred in any proceeding on such
petition if the special master or court determines that the petition was brought in good faith and there was a reasonable basis for the claim for which the petition was
brought.
(2) If the petitioner, before October 1, 1988, filed a civil action for damages for any vaccine-related injury or death for which compensation may be awarded under
the Program, and petitioned under section 300aa-11 (a)(5) of this tltle to have such action dismissed and to file a petition for compensation under the Program, in
awarding compensation on such petition the special master or court may include an amount of compensation limited to the costs and expenses incurred by the
petitioner and the attorney of the petitioner before October 1 , 1988, in preparing, filing, and prosecuting such civil action (including the reasonable value of the
attorney's time if the civil action was filed under contingent fee arrangements).
(3) No attorney may charge any fee for services in connection with a petition filed under section 300aa-11 of this title which is in addition to any amount awarded
as compensation by the special master or court under paragraph (1).

(f} Payment of compensation
(1) Except as provided in paragraph (2), no compensation may be paid until an election has been made, or has been deemed to have been made, under section

300aa-21 (a) of this tltle to receive compensation.
(2) Compensation described in subsection (a)(1)(A)(iii) shall be paid from the date of the judgment of the United States Court of Federal Claims under section
300aa-12 of this title awarding the compensation. Such compensation may not be paid after an election under section 300aa-21(a) of this tltle to file a civil action for
damages for the vaccine-related injury or death for which such compensation was awarded.
(3) Payments of compensation under the Program and the costs of carrying out the Program shall be exempt from reduction under any order issued under part C
of the Balanced Budget and Emergency Deficit Control Act of 1985 [2 U.S.C. 900 et seq.].
(4)(A) Except as provided in subparagraph (B), payment of compensation under the Program shall be determined on the basis of the net present value of the
elements of the compensation and shall be paid from the Vaccine Injury Compensation Trust Fund established under section 9510 oftltle 26 in a lump sum of which
all or a portion may be used as ordered by the special master to purchase an annuity or otherwise be used, with the consent of the petitioner, in a manner
determined by the special master to be in the best interests of the petitioner.
(B) In the case of a payment of compensation under the Program to a petitioner for a vaccine-related injury or death associated with the administration of a
vaccine before October 1 , 1988, the compensation shall be determined on the basis of the net present value of the elements of compensation and shall be paid from
appropriations made available under subsection (j) in a lump sum of which all or a portion may be used as ordered by the special master to purchase an annuity or
otherwise be used, with the consent of the petitioner, in a manner determined by the special master to be in the best interests of the petitioner. Any reasonable
attorneys' fees and costs shall be paid in a lump sum. If the appropriations under subsection 0) are insufficient to make a payment of an annual installment, the
limitation on civil actions prescribed by section 300aa-21 (a) of this title shall not apply to a civil action for damages brought by the petitioner entitled to the payment.
(C) In purchasing an annuity under subparagraph (A) or (B), the Secretary may purchase a guarantee for the annuity, may enter into agreements regarding the
purchase price for and rate of return ofthe annuity, and may take such other actions as may be necessary to safeguard the financial interests of the United States
regarding the annuity. Any payment received by the Secretary pursuant to the preceding sentence shall be paid to the Vaccine Injury Compensation Trust Fund
established under section 9510 of title 26, or to the appropriations account from which the funds were derived to purchase the annuity, whichever is appropriate.

(g) Program not primarily liable
Payment of compensation under the Program shall not be made for any item or service to the extent that payment has been made, or can reasonably be expected
to be made, with respect to such item or service (1) under any State compensation program, under an insurance policy, or under any Federal or State health
benefits program (other than under title XIX of the Social Security Act [42 U.S.C. 1396 et seq.I), or (2) by an entity which provides health services on a prepaid basis.
(h) Liability of health insurance carriers, prepaid health plans, and benefit providers
No policy of health insurance may make payment of benefits under the policy secondary to the payment of compensation under the Program and(1) no State, and
(2) no entity which provides health services on a prepaid basis or provides health benefits,
may make the provision of health services or health benefits secondary to the payment of compensation under the Program, except that this subsection shall not
apply to the provision of services or benef~s under title XIX of the Social Security Act [42 U.S.C. 1396 et seq.].

(i) Source of compensation
(1) Payment of compensation under the Program to a petitioner for a vaccine-related injury or death associated with the administration of a vaccine before
October 1, 1988, shall be made by the Secretary from appropriations under subsection 0).
(2) Payment of compensation under the Program to a petitioner for a vaccine-related injury or death associated with the administration of a vaccine on or after
October 1, 1988, shall be made from the Vaccine Injury Compensation Trust Fund established under section 9510 of title 26.

(j) Authorization
For the payment of compensation under the Program to a petitioner for a vaccine-related injury or death associated with the administration of a vaccine before
October 1, 1988, there are authorized to be appropriated to the Department of Health and Human Services $80,000,000 for fiscal year 1989, $80,000,000 for fiscal
year 1990, $80,000,000 for fiscal year 1991, $80,000,000 for fiscal year 1992, $110,000,000 for fiscal year 1993, and $110,000,000 for each succeeding fiscal year
in which a payment of compensation is required under subsection (fJ(4)(B). Amounts appropriated under this subsection shall remain available until expended.
(July 1, 1944, ch. 373, title XXI, §2115, as added Pub. L. 99-660, title Ill, §311(a), Nov. 14, 1986, 100 Stat. 3767; amended Pub. L. 100-203, title IV, §§4302(b),
4303(a)-(d)(1), (e), (g), 4307(5), (6), Dec. 22, 1987, 101 Stat.1330-221 to 1330-223, 1330-225; Pub. L. 100-360, title IV, §411(0)(1), July 1, 1988, 102 Stat. 808;
Pub. L.101-239, tltle VI, §6601(c)(8), (Q, Dec.19, 1989, 103 Stat. 2286, 2290; Pub. L. 101-502, §5(d), Nov. 3, 1990, 104 Stat. 1287; Pub. L. 102-168, title II,
§201 (e), (fJ, Nov. 26, 1991, 105 Stat. 1103; Pub. L. 102-531, title Ill, §314, Oct. 27, 1992, 106 Stat. 3508; Pub. L. 102-572, tltle IX, §902(b)(1), Oct. 29, 1992, 106
Stat. 4516; Pub. L. 103-66, tltle XIII, §13632(b), Aug. 10, 1993, 107 Stat. 646.)

REFERENCES IN TEXT

E-15
The Balanced Budget and Emergency Deficit Control Act of 1985, referred to in subsec. (f)(3), is title II of Pub. L. 99-177, Dec. 12, 1985, 99 Stat.
1038. Part C of the Act is classified generally to subchapter I (§900 et seq.) of chapter 20 ofTitle 2, The Congress. For complete classification of this
Act to the Code, see Short Tille note set out under section 900 of Title 2 and Tables.
The Social Security Act, referred to in subsecs. (g) and (h), is act Aug. 14, 1935, ch. 531, 49 Stat. 620, as amended. Title XIX of the Social
Security Act is classified generally to subchapter XIX (§1396 et seq.) of chapter 7 of this title. For complete classification of this Act to the Code,
see section 1305 of this @e and Tables.
CODIFICATION

In subsecs. (a), (b), (e)(2), (f)(4)(B), (Q, and (D, "October 1, 1988" substituted for "the effective date of this subpart" on authority of section 323 of
Pub. L. 99-660, as amended, set out as an Effective Date note under section 300aa-1 of this title.
PRIOR PROVISIONS

A prior section 300aa-15, act July 1, 1944, §2116, was successively renumbered by subsequent acts and transferred, see section 238m of this
title.
A prior section 2115 of act July 1, 1944, was successively renumbered by subsequent acts and transferred, see section 2381 of this title.
AMENDMENTS

1993-Subsec. (j). Pub. L. 103--66 substituted "$110,000,000 for each succeeding fiscal year" for "$80,000,000 for each succeeding fiscal year''.
1992-Subsecs. (e)(1), (f)(2). Pub. L. 102-572 substituted "United States Court of Federal Claims" for "United States Claims Court".
Subsec. (j). Pub. L. 102-531 increased authorization for fiscal year 1993 from $80,000,000 to $110,000,000.
1991-Subsec. (f)(4)(A). Pub. L. 102-168, §201 (e)(1)(A), (2), struck out "of the proceeds" after "portion" and substituted "Vaccine Injury
Compensation Trust Fund established under section 9510 of title 26" for "trust fund".
Subsec. (f)(4)(8). Pub. L. 102-168, §201 (e)(1 )(8), which directed substitution of "shall be paid from appropriations made available under
subsection (D in a lump sum of which all or a portion" for "paid in 4 equal installments of which all or portion of the proceeds" was executed by
making the substitution for "paid in 4 equal annual installments of which all or a portion of the proceeds" to reflect the probable intent of Congress.
Subsec. (f)(4)(C). Pub. L. 102-168, §201 (f), added subpar. (C).
1990-Subsec. (e)(2). Pub. L. 101-502, §5(d)(1), inserted "of compensation" before "limited to the costs".
Subsec. (f)(2). Pub. L. 101-502, §5(d)(2)(A), substituted "section 300aa-21(a)" for "section 300aa-21(b)".
Subsec. (f)(4)(8). Pub. L. 101-502, §5(d)(2)(8), substituted "subsection (D" for "subsection (i)" and "the limitation on civil actions prescribed by
section 300aa-21 (a) of this title" for "section 300aa-11 (a) of this title".
Subsec. (j). Pub. L. 101-502, §5(d)(3), inserted before period at end of first sentence", and $80,000,000 for each succeeding fiscal year in which
a payment of compensation is required under subsection (f)(4)(B)".
1989-Subsec. (b). Pub. L.101-239, §6601(0(1), substituted "may include the compensation described in paragraphs (1)(A) and (2) of
subsection (a) and may also include an amount, not to exceed a combined total of $30,000, for-" and els. (1) to (3) for "may not include the
compensation described in paragraph (1)(8) of subsection (a) of this section and may include attorneys' fees and other costs included in a
judgment under subsection (e) of this section, except that the total amount that may be paid as compensation under paragraphs (3) and (4) of
subsection (a) of this section and included as attorneys' fees and other costs under subsection (e) of this section may not exceed $30,000."
Subsec. (e)(1). Pub. L. 101-239, §6601 (0(2)(A), substituted "In awarding compensation on a petition filed under section 300aa-11 of this title the
special master or court shall also award as part of such compensation an amount to cover" for "The judgment of the United States Claims Court
on a petition filed under section 300aa-11 of this title awarding compensation shall include an amount to cover".
Pub. L. 101-239, §6601 (1)(2)(8), (C), substituted "the special master or court may award an amount of compensation to cover'' for "the court may
include in the judgment an amount to cover'' and "the special master or court determines that the petition was brought in good faith and there was
a reasonable basis for the claim for which the petition" for "the court determines that the civil action was brought in good faith and there was a
reasonable basis for the claim for which the civil action".
Subsec. (e)(2). Pub. L. 101-239, §6601 (0(2)(0), which directed amendment of par. (2) by substituting "the special master or court may also
award an amount of compensation" for "the judgment of the court on such petition may include an amount", could not be executed because of the
prior amendment by Pub. L. 101-239, §6601 (c)(8)(B), see Amendment note below.
Pub. L. 101-239, §6601 (c)(8), substituted "and petitioned under section 300aa-11(a)(5) of this title to have such action dismissed" for "and elected
under section 300aa-11(a)(4) of this title to withdraw such action" and "in awarding compensation on such petition the special master or court may
include" for "the judgment of the court on such petition may include".
Subsec. (e)(3). Pub. L. 101-239, §6601 (0(2)(E), substituted "awarded as compensation by the special master or court under paragraph (1)" for
"included under paragraph (1) in a judgment on such petition".
Subsec. (f)(3). Pub. L. 101-239, §6601 (1)(3)(A), inserted "under the Program and the costs of carrying out the Program" after "Payments of
compensation".
Subsec. (f)(4)(A). Pub. L. 101-239, §6601 (1)(3)(8), struck out "made in a lump sum" after "the Program shall be" and inserted "and shall be paid
from the trust fund in a lump sum of which all or a portion of the proceeds may be used as ordered by the special master to purchase an annuity
or otherwise be used, with the consent of the petitioner, in a manner determined by the special master to be in the best interests of the petitioner''
after "elements of the compensation".
Subsec. (f)(4)(B). Pub. L. 101-239, §6601 (1)(3)(C), substituted "determined on the basis of the net present value of the elements of compensation
and paid in 4 equal annual installments of which all or a portion of the proceeds may be used as ordered by the special master to purchase an
annuity or otherwise be used, with the consent of the petitioner, in a manner determined by the special master to be in the best interests of the
petitioner. Any reasonable attorneys' fees and costs shall be paid in a lump sum" for "paid in 4 equal annual installments".
Subsec. (g). Pub. L. 101-239, §6601(1)(4)(A), inserted "(other than under title XIX of the Social Security Act)" after "State health benefits
program".
Subsec. (h). Pub. L. 101-239, §6601 (1)(4)(8), inserted before period at end ", except that this subsection shall not apply to the provision of
services or benefits under title XIX of the Social Security Act".
Subsec. (i)(1). Pub. L. 101-239, §6601(1)(5), which directed amendment of par. (1) by substituting "(j)" for "(i)", could not be executed because"
(i)" did not appear.
Subsec. (j). Pub. L. 101-239, §6601 (0(6), struck out "and" after "fiscal year 1991," and inserted ", $80,000,000 for fiscal year 1993" after "fiscal
year 1992".
1988-Subsec. (i)(1). Pub. L. 100-360, §411 (o)(1)(A), substituted "by the Secretary from appropriations under subsection (j)" for "from
appropriations under subsection (i)".
Subsec. (j). Pub. L.100-360, §411 (o)(1)(B), inserted "to the Department of Health and Human Services".
1987-Subsec. (a). Pub. L. 100-203, §4302(b)(1), substituted "effective date of this subpart" for "effective date of this part".
Pub. L. 100-203, §4303(d)(1)(A), struck out last two sentences which read as follows: "Payments for projected expenses shall be paid on a
periodic basis (but no payment may be made for a period in excess of 1 year). Payments for pain and suffering and emotional distress and
incurred expenses may be paid in a lump sum."
Subsec. (a)(1). Pub. L. 100-203, §4303(c), struck out last sentence of subpars. (A) and (B) each of which read as follows: "The amount of
unreimbursable expenses which may be recovered under this subparagraph shall be limited to the amount in excess of the amount set forth in
section 300aa-11 (c)(1)(D)(ii) of this title."
Subsec. (b). Pub. L. 100-203, §4303(e), substituted "may not include the compensation described in paragraph (1)(8) of subsection (a) of this
section and may include attorneys' fees and other costs included in a judgment under subsection (e) of this section, except that the total amount

E-16
that may be paid as compensation under paragraphs (3) and (4) of subsection (a) of this section and included as attorneys' fees and other costs
under subsection (e) of this section may not exceed $30,000" for "shall only include the compensation described in paragraphs (1 )(A) and (2) of
subsection (a) of this section".
Pub. L. 100-203, §4302(b)(1), substituted "effective date of this subpart" for "effective date of this part".
Subsec. (e)(1). Pub. L. 100-203, §4307(5), substituted "of the United States Claims Court" for "of a court" in two places.
Subsec. (e)(2). Pub. L. 100-203, §4302(b), substituted "effective date of this subpart, filed a" for "effective date of this subchapter, filed a" and
"effective date of this subpart in preparing" for "effective date of this part in preparing".
Subsec. (t). Pub. L. 100-203, §4303(d)(1)(8), (g), added par. (4) and redesignated a second subsec. (t), relating to the Program not being
primarily liable, as subsec. (g).
Subsec. (t)(2). Pub. L. 100-203, §4307(6), substituted "United States Claims Court" for "district court of the United States".
Subsecs. (g), (h). Pub. L. 100-203, §4303(g), redesignated a second subsec. (t), relating to the Program not being liable, as (g) and redesignated
former subsec. (g) as (h).
Subsecs. (Q, O} Pub. L. 100-203, §4303(a), (b), added subsecs. (i) and 0).
EFFECTIVE DATE OF

1992 AMENDMENT

Amendment by Pub. L. 102-572 effective Oct. 29, 1992, see section 911 of Pub. L. 102-572, set out as a note under section 171 of 1itle 28, Judiciary
and Judicial Procedure.
EFFECTIVE DATE OF

1991

AMENDMENT

Amendment by section 201 (t) of Pub. L. 102-168 effective as if in effect on and alter Oct. 1, 1988, see section 201 (i)(2) of Pub. L. 102-168, set out
as a note under section 300aa-11 ofthis@e.
EFFECTIVE DATE OF

1990 AMENDMENT

Amendment by Pub. L. 101-502 effective Sept. 30, 1990, see section 5(h) of Pub. L. 101-502, set out as a note under section 300aa-11 of this title.
EFFECTIVE DATE OF

1989 AMENDMENT

Amendment by Pub. L. 101-239 applicable to all pending and subsequently filed petitions, see section 6601 (s)(2) of Pub. L. 101-239, set out as a
note under section 300aa-10 of this title.
EFFECTIVE DATE OF

1988 AMENDMENT

Except as specifically provided in section 411 of Pub. L. 100-360, amendment by Pub. L. 100-360, as it relates to a provision in the Omnibus
Budget Reconciliation Act of 1987, Pub. L. 100-203, effective as if included in the enactment of that provision in Pub. L. 100-203, see section 411 (a)
of Pub. L. 100-360, set out as a Reference to OBRA; Effective Date note under section 106 of1itle 1, General Provisions.

1 So in original.

Probably_ should be P..receded by_ another closing_P-i}.renthesis.

§300aa-16. Limitations of actions
(a) General rule
In the case of(1) a vaccine set forth in the Vaccine Injury Table which is administered before October 1, 1988, if a vaccine-related injury or death occurred as a result of the
administration of such vaccine, no petition may be filed for compensation under the Program for such injury or death after the expiration of 28 months after
October 1, 1988, and no such petition may be filed if the first symptom or manifestation of onset or of the significant aggravation of such injury occurred more than
36 months after the date of administration of the vaccine,
(2) a vaccine set forth in the Vaccine Injury Table which is administered after October 1, 1988, if a vaccine-related injury occurred as a result of the
administration of such vaccine, no petition may be filed for compensation under the Program for such injury after the expiration of 36 months after the date of the
occurrence ofthe first symptom or manifestation of onset or of the significant aggravation of such injury, and
(3) a vaccine set forth in the Vaccine Injury Table which is administered after October 1, 1988, if a death occurred as a result of the administration of such
vaccine, no petition may be filed for compensation under the Program for such death after the expiration of 24 months from the date of the death and no such
petition may be filed more than 48 months after the date of the occurrence of the first symptom or manifestation of onset or of the significant aggravation of the
injury from which the death resulted.
(b) Effect of revised table
If at any time the vaccine Injury Table is revised and the effect of such revision is to permit an individual who was not, before such revision, eligible to seek
compensation under the Program, orto significantly increase the likelihood of obtaining compensation, such person may, notwithstanding section 300aa-11(b)(2) of
this title, file a petition for such compensation not later than 2 years after the effective date of the revision, except that no compensation may be provided under the
Program with respect to a vaccine-related injury or death covered under the revision of the table if(1) the vaccine-related death occurred more than 8 years before the date of the revision of the table, or
(2) the vaccine-related injury occurred more than 8 years before the date of the revision of the table.

(c) State limitations of actions
If a petition is filed under section 300aa-11 of this title for a vaccine-related injury or death, limitations of actions under State law shall be stayed with respect to a
civil action brought for such injury or death for the period beginning on the date the petition is filed and ending on the date (1) an election is made under section
300aa-21 (a) of this tltle to file the civil action or (2) an election is made under section 300aa-21 (b) of this tltle to withdraw the petition.
(July 1, 1944, ch. 373, title XXI, §2116, as added Pub. L. 99-660, title Ill, §311(a), Nov. 14, 1986, 100 Stat. 3769; amended Pub. L. 100-203, title IV, §4302(b)(2),
Dec. 22, 1987, 101 Stat. 1330-221; Pub. L. 101-239, title VI, §6601(m)(1), Dec. 19, 1989, 103 Stat. 2291; Pub. L. 101-502, §5(e), Nov. 3, 1990, 104 Stat. 1287;
Pub. L. 102-168, title II, §201(d)(2), Nov. 26, 1991, 105 Stat. 1103; Pub. L. 103-66, title XIII, §13632(a)(1), Aug. 10, 1993, 107 Stat. 645.)
CODIFICATION

In subsec. (a)(1) to (3), "October 1, 1988" and "October 1, 1988," substituted for "the effective date of this subpart" on authority of section 323
of Pub. L. 99-660, as amended, set out as an Effective Date note under section 300aa-1 of this title.
PRIOR PROVISIONS

A prior section 2116 of act July 1, 1944, was successively renumbered by subsequent acts and transferred, see section 238m of this title.
AMENDMENTS

1993-Subsec. (b). Pub. L.103-66 substituted "orto significantly increase the likelihood of obtaining compensation, such person may,
notwithstanding section 300aa-11 (b)(2) ofthis title, file" for "such person may file".
1991-Subsec. (c). Pub. L. 102-168 substituted "or (2)" for", (2)" and struck out", or (3) the petition is considered withdrawn under section 300aa21 (b) of this title."
1990-Subsec. (a)(1). Pub. L. 101-502, §5(e)(1), substituted "28 months" for "24 months" and inserted before comma at end "and no such
petition may be filed if the first symptom or manifestation of onset or of the significant aggravation of such injury occurred more than 36 months

E-17
after the date of administration of the vaccine".
Subsec. (c). Pub. L. 101-502, §5(e)(2), substituted "and ending on the date (1) an election is made under section 300aa-21(a) of this title to file the
civil action, (2) an election is made under section 300aa-21(b) of this title to withdraw the petition, or (3) the petition is considered withdrawn under
section 300aa-21 (b) of this title" for "and ending on the date a final judgment is entered on the petition".
1989-Subsec. (c). Pub. L. 101-239 substituted "300aa-11 of this title" for "300aa-11(b) of this title".
1987-Subsec. (a). Pub. L.100-203 substituted "effective date of this subpart" for "effective date of this subchapter'' in pars. (1) to (3).
EFFECTIVE DATE OF

1991

AMENDMENT

Amendment by Pub. L. 102-168 effective as if in effect on and after Oct. 1, 1988, see section 201 (Q(2) of Pub. L. 102-168, set out as a note under
section 300aa-11 of this title.
EFFECTIVE DATE OF

1990 AMENDMENT

Amendment by Pub. L. 101-502 effective Sept. 30, 1990, see section S(h) of Pub. L. 101-502, set out as a note under section 300aa-11 of this title.
EFFECTIVE DATE OF

1989 AMENDMENT

For applicability of amendments by Pub. L. 101-239 to petitions filed after Dec. 19, 1989, petitions currently pending in which the evidentiary
record is closed, and petitions currently pending in which the evidentiary record is not closed, with provision for an immediate suspension for 30
days of all pending cases, see section 6601 (s)(1) of Pub. L. 101-239, set out as a note under section 300aa-10 ofthis title.

§300aa-17. Subrogation
(a) General rule

Upon payment of compensation to any petitioner under the Program, the trust fund which has been established to provide such compensation shall be
subrograted 1 to all rights of the petitioner with respect to the vaccine-related injury or death for which compensation was paid, except that the trust fund may not
recover under such rights an amount greater than the amount of compensation paid to the petitioner.
(b) Disposition of amounts recovered

Amounts recovered under subsection (a) shall be collected on behalf of, and deposited in, the Vaccine Injury Compensation Trust Fund established under section
9510 of title 26.
(July 1, 1944, ch. 373, title XXI, §2117, as added Pub. L. 99-660, title Ill, §311(a), Nov. 14, 1986, 100 Stat. 3770; amended Pub. L. 100-203, title IV, §4307(7), Dec.
22, 1987, 101 Stat. 1330-225; Pub. L. 101-239, title VI, §6601(m)(2), Dec. 19, 1989, 103 Stat. 2291.)
AMENDMENTS

1989-Subsec. (b). Pub. L. 101-239 substituted "the Vaccine Injury Compensation Trust Fund established under section 9510 of title 26" for "the

trust fund which has been established to provide compensation under the Program".
1987-Subsec. (a). Pub. L.100-203 struck out par. (1) designation before "Upon" and struck out par. (2) which read as follows: "In any case in
which it deems such action appropriate, a district court of the United States may, after entry of a final judgment providing for compensation to be
paid under section 300aa-15 of this title for a vaccine-related injury or death, refer the record of such proceeding to the Secretary and the Attorney
General with such recommendation as the court deems appropriate with respect to the investigation or commencement of a civil action by the
Secretary under paragraph (1)."
EFFECTIVE DATE OF

1989 AMENDMENT

For applicability of amendments by Pub. L. 101-239 to petitions filed after Dec. 19, 1989, petitions currently pending in which the evidentiary
record is closed, and petitions currently pending in which the evidentiary record is not closed, with provision for an immediate suspension for 30
days of all pending cases, see section 6601 (s)(1) of Pub. L. 101-239, set out as a note under section 300aa-10 ofthis title.

1 So in original.

Probably_ should be "subrngated".

§300aa-18. Repealed.

Pub. L. 100-203, title IV, §4303(d)(2)(B), Dec. 22, 1987, 101 Stat. 1330-222

Section, act July 1, 1944, ch. 373, title XXI, §2118, as added Nov. 14, 1986, Pub. L. 99-660, title 111, §311 (a), 100 Stat. 3771, provided for annual
increases for inflation of compensation under subsections (a)(2) and (a)(4) of section 300aa-15 of this title and civil penalty under section 300aa-27(b)
of this title.

§300aa-19. Advisory Commission on Childhood Vaccines
(a) Establishment

There is established the Advisory Commission on Childhood Vaccines. The Commission shall be composed of:
(1) Nine members appointed by the Secretary as follows:
(A) Three members who are health professionals, who are not employees of the United States, and who have expertise in the health care of children, the
epidemiology, etiology, and prevention of childhood diseases, and the adverse reactions associated with vaccines, of whom at least two shall be pediatricians.
(B) Three members from the general public, of whom at least two shall be legal representatives of children who have suffered a vaccine-related injury or
death.
(C) Three members who are attorneys, of whom at least one shall be an attorney whose specialty includes representation of persons who have suffered a
vaccine-related injury or death and of whom one shall be an attorney whose specialty includes representation of vaccine manufacturers.
(2) The Director of the National Institutes of Health, the Assistant Secretary for Health, the Director of the Centers for Disease Control and Prevention, and the
Commissioner of Food and Drugs (or the designees of such officials), each of whom shall be a nonvoting ex officio member.
The Secretary shall select members ofthe Commission within 90 days of October 1, 1988. The members of the Commission shall select a Chair from among the
members.
(b) Term of office

Appointed members of the Commission shall be appointed for a term of office of 3 years, except that of the members first appointed, 3 shall be appointed for a
term of 1 year, 3 shall be appointed for a term of 2 years, and 3 shall be appointed for a term of 3 years, as determined by the Secretary.
(c) Meetings

The Commission shall first meet within 60 days after all members of the Commission are appointed, and thereafter shall meet not less often than four times per
year and at the call of the chair. A quorum for purposes of a meeting is 5. A decision at a meeting is to be made by a ballot of a majority of the voting members of the
Commission present at the meeting.

E-18
(d) Compensation
Members of the Commission who are officers or employees of the Federal Government shall serve as members of the Commission without compensation in
addition to that received in their regular public employment. Members of the Commission who are not officers or employees of the Federal Government shall be
compensated at a rate not to exceed the daily equivalent of the rate in effect for grade GS-18 of the General Schedule for each day (including traveltime) they are
engaged in the performance of their duties as members of the Commission. All members, while so serving away from their homes or regular places of business,
may be allowed travel expenses, including per diem in lieu of subsistence, in the same manner as such expenses are authorized by section 5703 of title 5 for
employees serving intermittently.
(e) Staff
The Secretary shall provide the Commission with such professional and clerical staff, such information, and the services of such consultants as may be necessary
to assistthe Commission in carrying out effectively its functions under this section.

(f} Functions
The Commission shall(1) advise the Secretary on the implementation of the Program,
(2) on its own initiative or as the result of the filing of a petition, recommend changes in the Vaccine Injury Table,
(3) advise the Secretary in implementing the Secretary's responsibilities under section 300aa-27 of this title regarding the need for childhood vaccination
products that result in fewer or no significant adverse reactions,
(4) survey Federal, State, and local programs and activities relating to the gathering of information on injuries associated with the administration of childhood
vaccines, including the adverse reaction reporting requirements of section 300aa-25(b) of this title, and advise the Secretary on means to obtain, compile, publish,
and use credible data related to the frequency and severity of adverse reactions associated with childhood vaccines, and
(5) recommend to the Director of the National Vaccine Program research related to vaccine injuries which should be conducted to carry out this part.
(July 1, 1944, ch. 373, title XXI, §2119, as added Pub. L. 99-660, title Ill, §311(a), Nov. 14, 1986, 100 Stat. 3771; amended Pub. L. 100-203, title IV, §4302(b)(1),
Dec. 22, 1987, 101 Stat. 1330-221; Pub. L. 102-168, title II, §201 (g), Nov. 26, 1991, 105 Stat. 1104; Pub. L. 102-531, title Ill, §312(d)(14), Oct. 27, 1992, 106 Stat.
3505.)
CODIFICATION

In subsec. (a), "October 1, 1988" substituted for "the effective date of this subpart" on authority of section 323 of Pub. L. 99-660, as amended, set
out as an Effective Date note under section 300aa-1 of this title.
AMENDMENTS

1992-Subsec. (a)(2). Pub. L. 102-531 substituted "Centers for Disease Control and Prevention" for "Centers for Disease Control".
1991-Subsec. (c). Pub. L. 102-168 inserted "present at the meeting" before period at end.
1987-Subsec. (a). Pub. L.100-203 substituted "effective date of this subpart" for "effective date of this part" in last sentence.
TERMINATION OF ADVISORY COMMISSIONS

Advisory commissions established after Jan. 5, 1973, to terminate not later than the expiration of the 2-year period beginning on the date of
their establishment, unless, in the case of a commission established by the President or an officer of the Federal Government, such commission
is renewed by appropriate action prior to the expiration of such 2-year period, or in the case of a commission established by the Congress, its
duration is otherwise provided by law. See sections 3(2) and 14 of Pub. L. 92-463, Oct. 6, 1972, 86 Stat. 776, set out in the Appendix to Title 5,
Government Organization and Employees.
Pub. L. 93-641, §6, Jan. 4, 1975, 88 Stat. 2275, set out as a note under section 217a ofthis title, provided that an advisory committee established
pursuant to the Public Health Service Act shall terminate at such time as may be specifically prescribed by an Act of Congress enacted after Jan.
4, 1975.
REFERENCES IN OTHER

LAws

TO

GS-16, 17, OR 18

PAY RATES

References in laws to the rates of pay for GS-16, 17, or 18, or to maximum rates of pay under the General Schedule, to be considered
references to rates payable under specified sections of Title 5, Government Organization and Employees, see section 529 [title I, §101 (c)(1)] of
Pub. L. 101-509, set out in a note under section 5376 of Title 5.

SUBPART B-ADDITIONAL REMEDIES

§300aa-21. Authority to bring actions
(a) Election
After judgment has been entered by the United States Court of Federal Claims or, if an appeal is taken under section 300aa-12(1) of this title, after the appellate
court's mandate is issued, the petitioner who filed the petition under section 300aa-11 of this title shall file with the clerk of the United States Court of Federal Claims

(1) if the judgment awarded compensation, an election in writing to receive the compensation orto file a civil action for damages for such injury or death, or
(2) if the judgment did not award compensation, an election in writing to accept the judgment orto file a civil action for damages for such injury or death.
An election shall be filed under this subsection not later than 90 days after the date of the court's final judgment with respect to which the election is to be made. If
a person required to file an election with the court under this subsection does not file the election within the time prescribed for filing the election, such person shall
be deemed to have filed an election to accept the judgment of the court. If a person elects to receive compensation under a judgment of the court in an action for a
vaccine-related injury or death associated with the administration of a vaccine before October 1, 1988, or is deemed to have accepted the judgment of the court in
such an action, such person may not bring or maintain a civil action for damages against a vaccine administrator or manufacturer for the vaccine-related injury or
death for which the judgment was entered. For limitations on the bringing of civil actions for vaccine-related injuries or deaths associated with the administration of a
vaccine after October 1, 1988, see section 300aa-11(a)(2) of this title.
(b) Continuance or withdrawal of petition
A petitioner under a petition filed under section 300aa-11 of this title may submit to the United States Court of Federal Claims a notice in writing choosing to
continue orto withdraw the petition if(1) a special master fails to make a decision on such petition within the 240 days prescribed by section 300aa-12(d)(3)(A)(ii) of this title (excluding (i) any period
of suspension under section 300aa-12(d)(3)(C) or 300aa-12(d)(3)(D) of this title, and (ii) any days the petition is before a special master as a result of a remand
under section 300aa-12(e)(2)(C) of this title), or
(2) the court fails to enter a judgment under section 300aa-12 of this title on the petition within 420 days (excluding (i) any period of suspension under section
300aa-12(d)(3)(C) or 300aa-12(d)(3)(D) of this title, and (ii) any days the petition is before a special master as a result of a remand under section 300aa-12(e)(2)
(C) of this title) after the date on which the petition was filed.

Such a notice shall be filed within 30 days of the provision of the notice required by section 300aa-12(g) of this title.

(c) Limitations of actions

E-19
A civil action for damages arising from a vaccine-related injury or death for which a petition was filed under section 300aa-11 of this title shall, except as provided
in section 300aa-16(c) of this title, be brought within the period prescribed by limitations of actions under State law applicable to such civil action.
(July 1, 1944, ch. 373, title XXI, §2121, as added Pub. L. 99--660, title Ill, §311(a), Nov. 14, 1986, 100 Stat. 3772; amended Pub. L. 100-203, title IV, §§4304(c),
4307(8), 4308(c), Dec. 22, 1987, 101 Stat. 1330-224, 1330-225; Pub. L. 100-360, title IV, §411(o)(3)(A), July 1, 1988, 102 Stat. 808; Pub. L. 101-239, title VI,
§6601(n), Dec. 19, 1989, 103 Stat. 2291; Pub. L. 101-502, §5(f), Nov. 3, 1990, 104 Stat. 1287; Pub. L. 102-168, title II, §201 (d)(3), Nov. 26, 1991, 105 Stat. 1103;
Pub. L. 102-572, title IX, §902(b)(1), Oct. 29, 1992, 106 Stat. 4516.)
CODIFICATION

In subsec. (a), "October 1, 1988," and "October 1, 1988" substituted for "the effective date of this part".
AMENDMENTS

1992-Subsecs. (a), (b). Pub. L. 102-572 substituted "United States Court of Federal Claims" for "United States Claims Court" wherever
appearing.
1991-Subsec. (b). Pub. L. 102-168 substituted "Continuance or withdrawal of petition" for "Withdrawal of petition" in heading, redesignated
introductory provisions of par. (1) as introductory provisions of subsec. (b) and substituted "a notice in writing choosing to continue or to withdraw
the petition" for "a notice in writing withdrawing the petition", redesignated subpars. (A) and (B) of former par. (1) as pars. (1) and (2), respectively,
and realigned margins, struck out at end of former par. (1) "If such a notice is not filed before the expiration of such 30 days, the petition with
respect to which the notice was to be filed shall be considered withdrawn under this paragraph.", and struck out par. (2) which read as follows: "If
a special master or the court does not enter a decision or make a judgment on a petition filed under section 300aa-11 ofthis@e within 30 days of
the provision of the notice in accordance with section 300aa-12(g) of this title, the special master or court shall no longer have jurisdiction over such
petition and such petition shall be considered as withdrawn under paragraph {1)."
1990-Subsec. {a). Pub. L. 101-502, §5{f){1), in closing provisions, inserted after second sentence "If a person elects to receive compensation
under a judgment of the court in an action for a vaccine-related injury or death associated with the administration of a vaccine before October 1,
1988, or is deemed to have accepted the judgment of the court in such an action, such person may not bring or maintain a civil action for
damages against a vaccine administrator or manufacturer for the vaccine-related injury or death for which the judgment was entered." and
inserted "for vaccine-related injuries or deaths associated with the administration of a vaccine after October 1, 1988" after "actions" in last
sentence.
Subsec. {b). Pub. L. 101-502, §5(f){2), amended subsec. {b) generally. Prior to amendment, subsec. {b) read as follows: "If the United States
Claims Court fails to enter a judgment under section 300aa-12 ofthis@e on a petition filed under section 300aa-11 of this title within 420 days
{excluding any period of suspension under section 300aa-12(d) of this title and excluding any days the petition is before a special master as a result
of a remand under section 300aa-12(e)(2)(C) of this title) after the date on which the petition was filed, the petitioner may submit to the court a notice
in writing withdrawing the petition. An election shall be filed under this subsection not later than 90 days after the date of the entry of the Claims
Court's judgment or the appellate court's mandate with respect to which the election is to be made. A person who has submitted a notice under
this subsection may, notwithstanding section 300aa-11(a)(2) of this title, thereafter maintain a civil action for damages in a State or Federal court
without regard to this subpart and consistent with otheiwise applicable law."
1989-Subsec. {a). Pub. L.101-239, §6601{n){1){A), amended introductory provisions generally. Prior to amendment, introductory provisions
read as follows: "After the judgment of the United States Claims Court under section 300aa-11 of this title on a petition filed for compensation under
the Program for a vaccine-related injury or death has become final, the person who filed the petition shall file with the court-".
Pub. L. 101-239, §6601 {n){1 ){B), amended last sentence generally. Prior to amendment, last sentence read as follows: "If a person elects to
receive compensation under a judgment of the court or is deemed to have accepted the judgment of the court, such person may not bring or
maintain a civil action for damages against a vaccine manufacturer for the vaccine-related injury or death for which the judgment was entered."
Subsec. {b). Pub. L. 101-239, §6601 (n)(2), substituted "within 420 days (excluding any period of suspension under section 300aa-12(d) of this title
and excluding any days the petition is before a special master as a result of a remand under section 300aa-12(e)(2)(C) of this title)" for "within 365
days" in first sentence and amended second sentence generally. Prior to amendment, second sentence read as follows: "Such a notice shall be
filed not later than 90 days after the expiration of such 365-day period."
1988-Subsec. {a). Pub. L.100-360 added Pub. L. 100-203, §4308{c), see 1987 Amendment note below.
1987-Subsec. {a). Pub. L. 100-203, §4308(c), as added by Pub. L. 100-360, substituted "the court's final judgment" for "the entry of the court's
judgment" in concluding provisions.
Pub. L. 100-203, §4307{8), substituted "the United States Claims Court" for "a district court of the United States" and "the court" for "a court" in
three places.
Subsecs. {b), {c). Pub. L. 100-203, §4304{c), added subsec. {b) and redesignated former subsec. {b) as {c).
EFFECTIVE DATE OF

1992 AMENDMENT

Amendment by Pub. L. 102-572 effective Oct. 29, 1992, see section 911 of Pub. L. 102-572, set out as a note under section 171 of Title 28, Judiciary
and Judicial Procedure.
EFFECTIVE DATE OF

1991

AMENDMENT

Amendment by Pub. L. 102-168 effective as in effect on and after Oct. 1, 1988, see section 201 {i){2) of Pub. L. 102-168, set out as a note under
section 300aa-11 of this title.
EFFECTIVE DATE OF

1990 AMENDMENT

Amendment by section 5{f){1) of Pub. L. 101-502 effective Nov. 14, 1986, and amendment by section 5{f){2) of Pub. L. 101-502 effective Sept. 30,
1990, see section 5{h) of Pub. L. 101-502, set out as a note under section 300aa-11 of this title.
EFFECTIVE DATE OF

1989 AMENDMENT

For applicability of amendments by Pub. L. 101-239 to petitions filed after Dec. 19, 1989, petitions currently pending in which the evidentiary
record is closed, and petitions currently pending in which the evidentiary record is not closed, with provision for an immediate suspension for 30
days of all pending cases, except that such suspension be excluded in determining the 420-day period prescribed in subsec. {b) of this section,
see section 6601{s){1) of Pub. L. 101-239, set out as a note under section 300aa-10 of this title.
EFFECTIVE DATE OF

1988 AMENDMENT

Except as specifically provided in section 411 of Pub. L. 100-360, amendment by Pub. L. 100-360, as it relates to a provision in the Omnibus
Budget Reconciliation Act of 1987, Pub. L. 100-203, effective as if included in the enactment of that provision in Pub. L. 100-203, see section 411 {a)
of Pub. L. 100-360, set out as a Reference to OBRA; Effective Date note under section 106 of Title 1, General Provisions.
EFFECTIVE DATE

Subpart effective Oct. 1, 1988, see section 323 of Pub. L. 99--660, set out as a note under section 300aa-1 of this title.

§300aa-22. Standards of responsibility

E-20
(a) General rule
Except as provided in subsections (b), (c), and (e) State law shall apply to a civil action brought for damages for a vaccine-related injury or death.
(b) Unavoidable adverse side effects; warnings
(1) No vaccine manufacturer shall be liable in a civil action for damages arising from a vaccine-related injury or death associated with the administration of a
vaccine after October 1, 1988, if the injury or death resulted from side effects that were unavoidable even though the vaccine was properly prepared and was
accompanied by proper directions and warnings.
(2) For purposes of paragraph (1), a vaccine shall be presumed to be accompanied by proper directions and warnings if the vaccine manufacturer shows that it
complied in all material respects with all requirements under the Federal Food, Drug, and Cosmetic Act [21 U.S.C. 301 et seq.] and section 262 of this title (including
regulations issued under such provisions) applicable to the vaccine and related to vaccine-related injury or death for which the civil action was brought unless the
plaintiff shows(A) that the manufacturer engaged in the conduct set forth in subparagraph (A) or (B) of section 300aa-23(d)(2) of this title, or
(B) by clear and convincing evidence that the manufacturer failed to exercise due care notwithstanding its compliance with such Act and section (and
regulations issued under such provisions).

(c) Direct warnings
No vaccine manufacturer shall be liable in a civil action for damages arising from a vaccine-related injury or death associated with the administration of a vaccine
after October 1, 1988, solely due to the manufacturer's failure to provide direct warnings to the injured party (or the injured party's legal representative) of the
potential dangers resulting from the administration of the vaccine manufactured by the manufacturer.
(d) Construction
The standards of responsibility prescribed by this section are not to be construed as authorizing a person who brought a civil action for damages against a vaccine
manufacturer for a vaccine-related injury or death in which damages were denied or which was dismissed with prejudice to bring a new civil action against such
manufacturer for such injury or death.
(e) Preemption
No State may establish or enforce a law which prohibits an individual from bringing a civil action against a vaccine manufacturer for damages for a vaccine-related
injury or death if such civil action is not barred by this part.
(July 1, 1944, ch. 373, title XXI, §2122, as added Pub. L. 99-660, title Ill, §311(a), Nov. 14, 1986, 100 Stat. 3773; amended Pub. L.100-203, title IV, §4302(b)(1),
Dec. 22, 1987, 101 Stat.1330-221.)

REFERENCES IN TEXT
The Federal Food, Drug, and Cosmetic Act, referred to in subsec. (b)(2), is act June 25, 1938, ch. 675, 52 Stat. 1040, as amended, which is
classified generally to chapter 9 (§301 et seq.) of 1itle 21, Food and Drugs. For complete classification of this Act to the Code, see Tables.
CODIFICATION

In subsecs. (b)(1), (c), "October 1, 1988" was substituted for "the effective date of this subpart" on authority of section 323 of Pub. L. 99-660, as
amended, set out as an Effective Date note under section 300aa-1 of this title.
AMENDMENTS

1987-Subsecs. (b)(1), (c). Pub. L. 100-203 substituted "effective date of this subpart" for "effective date of this part".

§300aa-23. Trial
(a) General rule
A civil action against a vaccine manufacturer for damages for a vaccine-related injury or death associated with the administration of a vaccine after October 1,
1988, which is not barred by section 300aa-11(a)(2) of this title shall be tried in three stages.
(b) Liability
The first stage of such a civil action shall be held to determine if a vaccine manufacturer is liable under section 300aa-22 of this title.
(c) General damages
The second stage of such a civil action shall be held to determine the amount of damages (other than punitive damages) a vaccine manufacturer found to be
liable under section 300aa-22 of this title shall be required to pay.
(d) Punitive damages
(1) If sought by the plaintiff, the third stage of such an action shall be held to determine the amount of punitive damages a vaccine manufacturer found to be liable
under section 300aa-22 ofthis title shall be required to pay.
(2) If in such an action the manufacturer shows that it complied, in all material respects, with all requirements under the Federal Food, Drug, and Cosmetic Act [21
U.S.C. 301 et seq.] and this chapter applicable to the vaccine and related to the vaccine injury or death with respect to which the action was brought, the
manufacturer shall not be held liable for punitive damages unless the manufacturer engaged in(A) fraud or intentional and wrongful withholding of information from the Secretary during any phase of a proceeding for approval of the vaccine under section
262 of this title,
(B) intentional and wrongful withholding of information relating to the safety or efficacy of the vaccine after its approval, or
(C) other criminal or illegal activity relating to the safety and effectiveness of vaccines,
which activity related to the vaccine-related injury or death for which the civil action was brought.

(e) Evidence
In any stage of a civil action, the Vaccine Injury Table, any finding of fact or conclusion of law of the United States Court of Federal Claims or a special master in a
proceeding on a petition filed under section 300aa-11 of this title and the final judgment of the United States Court of Federal Claims and subsequent appellate
review on such a petition shall not be admissible.
(July 1, 1944, ch. 373, title XXI, §2123, as added Pub. L. 99-660, title Ill, §311(a), Nov. 14, 1986, 100 Stat. 3774; amended Pub. L. 100-203, title IV, §§4302(b)(1),
4307(9), Dec. 22, 1987, 101 Stat. 1330-221, 1330-225; Pub. L. 101-239, title VI, §6601(0), Dec.19, 1989, 103 Stat. 2292; Pub. L.102-572, title IX, §902(b)(1),
Oct. 29, 1992, 106 Stat. 4516.)

REFERENCES IN TEXT
The Federal Food, Drug, and Cosmetic Act, referred to in subsec. (d)(2), is act June 25, 1938, ch. 675, 52 Stat. 1040, as amended, which is
classified generally to chapter 9 (§301 et seq.) of 1itle 21, Food and Drugs. For complete classification of this Act to the Code, see Tables.
CODIFICATION

In subsec. (a), "October 1, 1988" substituted for "the effective date of this subpart" on authority of section 323 of Pub. L. 99-660, as amended, set
out as an Effective Date note under section 300aa-1 of this title.
AMENDMENTS

1992-Subsec. (e). Pub. L. 102-572 substituted "United States Court of Federal Claims" for "United States Claims Court" in two places.

E-21
1989--Subsec. (e). Pub. L. 101-239 substituted "finding of fact or conclusion of law" for "finding", "special master" for "master appointed by such
court", and directed substitution of "the United States Claims Court and subsequent appellate review" for "a district court of the United States"
which was executed by inserting "and subsequent appellate review" after "the United States Claims Court" the second place it appeared to reflect
the probable intent of Congress and the amendment by Pub. L. 100-203, §4307(a), see 1987 Amendment note below.
1987--Subsec. (a). Pub. L. 100-203, §4302(b)(1), substituted "effective date of this subpart" for "effective date of this part".
Subsec. (e). Pub. L. 100-203, §4307(9), substituted "the United States Claims Court" for "a district court of the United States" in two places.
EFFECTIVE DATE OF

1992 AMENDMENT

Amendment by Pub. L. 102-572 effective Oct. 29, 1992, see section 911 of Pub. L. 102-572, set out as a note under section 171 of TIiie 28, Judiciary
and Judicial Procedure.
EFFECTIVE DATE OF

1989 AMENDMENT

For applicability of amendments by Pub. L. 101-239 to petitions filed after Dec. 19, 1989, petitions currently pending in which the evidentiary
record is closed, and petitions currently pending in which the evidentiary record is not closed, with provision for an immediate suspension for 30
days of all pending cases, see section 6601 (s)(1) of Pub. L. 101-239, set out as a note under section 300aa-10 ofthis title.

SUBF'ART C-ASSURING A SAFER CHILDHOOD VACCINATION PROGRAM IN UNITED STATES

§300aa-25. Recording and reporting of information
(a) General rule

Each health care provider who administers a vaccine set forth in the Vaccine Injury Table to any person shall record, or ensure that there is recorded, in such
person's permanent medical record (or in a permanent office log or file to which a legal representative shall have access upon request) with respect to each such
vaccine(1) the date of administration of the vaccine,
(2) the vaccine manufacturer and lot number of the vaccine,
(3) the name and address and, if appropriate, the title of the health care provider administering the vaccine, and
(4) any other identifying information on the vaccine required pursuant to regulations promulgated by the Secretary.

(b) Reporting

(1) Each health care provider and vaccine manufacturer shall report to the Secretary(A) the occurrence of any event set forth in the Vaccine Injury Table, including the events set forth in section 300aa-14(b) of this title which occur within 7 days
of the administration of any vaccine set forth in the Table or within such longer period as is specified in the Table or section,
(B) the occurrence of any contraindicating reaction to a vaccine which is specified in the manufacturer's package insert, and
(C) such other matters as the Secretary may by regulation require.

Reports of the matters referred to in subparagraphs (A) and (B) shall be made beginning 90 days after December 22, 1987. The Secretary shall publish in the
Federal Register as soon as practicable after such date a notice of the reporting requirement.
(2) A report under paragraph (1) respecting a vaccine shall include the time periods after the administration of such vaccine within which vaccine-related illnesses,
disabilities, injuries, or conditions, the symptoms and manifestations of such illnesses, disabilities, injuries, or conditions, or deaths occur, and the manufacturer and
lot number of the vaccine.
(3) The Secretary shall issue the regulations referred to in paragraph (1)(C) within 180 days of December 22, 1987.

(c) Release of information

(1) Information which is in the possession ofthe Federal Government and State and local governments under this section and which may identify an individual
shall not be made available under section 552 of title 5, or otherwise, to any person except(A) the person who received the vaccine, or
(B) the legal representative of such person.

(2) For purposes of paragraph (1), the term "information which may identify an individual" shall be limited to the name, street address, and telephone number of
the person who received the vaccine and of that person's legal representative and the medical records of such person relating to the administration of the vaccine,
and shall not include the locality and State of vaccine administration, the name of the health care providerwho administered the vaccine, the date of the vaccination,
or information concerning any reported illness, disability, injury, or condition resulting from the administration of the vaccine, any symptom or manifestation of such
illness, disability, injury, or condition, or death resulting from the administration of the vaccine.
(3) Except as provided in paragraph (1), all information reported under this section shall be available to the public.
(July 1, 1944, ch. 373, title XXI, §2125, as added Pub. L. 99--660, title Ill, §311(a), Nov. 14, 1986, 100 Stat. 3774; amended Pub. L. 100-203, title IV, §4302(b)(1),
Dec. 22, 1987, 101 Stat.1330-221.)
CODIFICATION

In subsec. (b)(1 ), (3), "December 22, 1987" was substituted for "the effective date of this subpart" on authority of section 323 of Pub. L. 99--660,
as amended, set out as an Effective Date note under section 300aa-1 of this title.
AMENDMENTS

1987--Subsec. (b)(1), (3). Pub. L. 100-203 substituted "effective date of this subpart" for "effective date of this part".
EFFECTIVE DATE

Subpart effective Dec. 22, 1987, see section 323 of Pub. L. 99--660, set out as a note under section 300aa-1 of this title.

§300aa-26. Vaccine information
(a) General rule

Not later than 1 year after December 22, 1987, the Secretary shall develop and disseminate vaccine information materials for distribution by health care providers
to the legal representatives of any child or to any other individual receiving a vaccine set forth in the Vaccine Injury Table. Such materials shall be published in the
Federal Register and may be revised.

(b) Development and revision of materials

Such materials shall be developed or revised(1) after notice to the public and 60 days of comment thereon, and
(2) in consultation with the Advisory Commission on Childhood Vaccines, appropriate health care providers and parent organizations, the Centers for Disease
Control and Prevention, and the Food and Drug Administration.

E-22
(c) Information requirements
The information in such materials shall be based on available data and information, shall be presented in understandable terms and shall include(1) a concise description of the benefits of the vaccine,
(2) a concise description of the risks associated with the vaccine,
(3) a statement of the availability of the National Vaccine Injury Compensation Program, and
(4) such other relevant information as may be determined by the Secretary.
(d) Health care provider duties

On and after a date determined by the Secretary which is(1) after the Secretary develops the information materials required by subsection (a), and
(2) not later than 6 months after the date such materials are published in the Federal Register,

each health care provider who administers a vaccine set forth in the Vaccine Injury Table shall provide to the legal representatives of any child or to any other
individual to whom such provider intends to administer such vaccine a copy of the information materials developed pursuant to subsection (a), supplemented with
visual presentations or oral explanations, in appropriate cases. Such materials shall be provided prior to the administration of such vaccine.
(July 1, 1944, ch. 373, title XXI, §2126, as added Pub. L. 99-660, title Ill, §311(a), Nov. 14, 1986, 100 Stat. 3775; amended Pub. L. 100-203, title IV, §4302(b)(1),
Dec. 22, 1987, 101 Stat.1330-221; Pub. L. 101-239, title VI, §6601(p), Dec. 19, 1989, 103 Stat. 2292; Pub. L. 102-531, title Ill, §312(d)(15), Oct. 27, 1992, 106
Stat. 3505; Pub. L. 103--183, title VII, §708, Dec. 14, 1993, 107 Stat. 2242.)
CODIFICATION

In subsec. (a), "December 22, 1987" substituted for "the effective date of this subpart" on authority of section 323 of Pub. L. 99-660, as amended,
set out as an Effective Date note under section 300aa-1 of this title.
AMENDMENTS

1993-Subsec. (a). Pub. L.103-183, §708(c), inserted "orto any other individual" after "to the legal representatives of any child".
Subsec. (b). Pub. L. 103-183, §708(a), struck out "by rule" after "revised" in introductory provisions and substituted "and 60" for", opportunity for
a public hearing, and 90" in par. (1).
Subsec. (c). Pub. L. 103-183, §708(b), inserted in introductory provisions "shall be based on available data and information," after "such
materials", added pars. (1) to (4), and struck out former pars. (1) to (10) which read as follows:
"(1) the frequency, severity, and potential long-term effects of the disease to be prevented by the vaccine,
"(2) the symptoms or reactions to the vaccine which, if they occur, should be brought to the immediate attention of the health care provider,
"(3) precautionary measures legal representatives should take to reduce the risk of any major adverse reactions to the vaccine that may occur,
"(4) early warning signs or symptoms to which legal representatives should be alert as possible precursors to such major adverse reactions,
"(5) a description of the manner in which legal representatives should monitor such major adverse reactions, including a form on which
reactions can be recorded to assist legal representatives in reporting information to appropriate authorities,
"(6) a specification of when, how, and to whom legal representatives should report any major adverse reaction,
"(7) the contraindications to (and bases for delay of) the administration of the vaccine,
"(8) an identification of the groups, categories, or characteristics of potential recipients of the vaccine who may be at significantly higher risk of
major adverse reaction to the vaccine than the general population,
"(9) a summary of"(A) relevant Federal recommendations concerning a complete schedule of childhood immunizations, and
"(8) the availability of the Program, and
"(10) such other relevant information as may be determined by the Secretary."
Subsec. (d). Pub. L. 103-183, §708(c), (d), in concluding provisions, inserted "or to any other individual" after "to the legal representatives of any
child", substituted "supplemented with visual presentations or oral explanations, in appropriate cases" for "or other written information which
meets the requirements of this section", and struck out "or other information" after "Such materials".
1992-Subsec. (b)(2). Pub. L. 102-531 substituted "Centers for Disease Control and Prevention" for "Centers for Disease Control".
1989-Subsec. (c)(9). Pub. L. 101-239 amended par. (9) generally. Prior to amendment, par. (9) read as follows: "a summary of relevant State
and Federal laws concerning the vaccine, including information on"(A) the number of vaccinations required for school attendance and the schedule recommended for such vaccinations, and
"(8) the availability of the Program, and".
1987-Subsec. (a). Pub. L.100-203 substituted "effective date of this subpart" for "effective date of this part".
EFFECTIVE DATE OF

1989 AMENDMENT

For applicability of amendments by Pub. L. 101-239 to petitions filed after Dec. 19, 1989, petitions currently pending in which the evidentiary
record is closed, and petitions currently pending in which the evidentiary record is not closed, with provision for an immediate suspension for 30
days of all pending cases, see section 6601 (s)(1) of Pub. L. 101-239, set out as a note under section 300aa-10 ofthis title.

§300aa-27. Mandate for safer childhood vaccines
(a) General rule

In the administration of this part and other pertinent laws under the jurisdiction of the Secretary, the Secretary shall(1) promote the development of childhood vaccines that result in fewer and less serious adverse reactions than those vaccines on the market on December 22,
1987, and promote the refinement of such vaccines, and
(2) make or assure improvements in, and otherwise use the authorities of the Secretary with respect to, the licensing, manufacturing, processing, testing,
labeling, warning, use instructions, distribution, storage, administration, field surveillance, adverse reaction reporting, and recall of reactogenic lots or batches, of
vaccines, and research on vaccines, in order to reduce the risks of adverse reactions to vaccines.
(b) Task force
(1) The Secretary shall establish a task force on safer childhood vaccines which shall consist of the Director of the National Institutes of Health, the Commissioner

of the Food and Drug Administration, and the Director of the Centers for Disease Control.
(2) The Director of the National Institutes of Health shall serve as chairman of the task force.
(3) In consultation with the Advisory Commission on Childhood Vaccines, the task force shall prepare recommendations to the Secretary concerning
implementation of the requirements of subsection (a).

(c) Report
111/ithin 2 years after December 22, 1987, and periodically thereafter, the Secretary shall prepare and transmit to the Committee on Energy and Commerce of the
House of Representatives and the Committee on Labor and Human Resources of the Senate a report describing the actions taken pursuant to subsection (a) during
the preceding 2-year period.

(July 1, 1944, ch. 373, title XXI, §2127, as added Pub. L. 99-660, title Ill, §311(a), Nov. 14, 1986, 100 Stat. 3777; amended Pub. L. 100-203, title IV, §4302(b)(1),
Dec. 22, 1987, 101 Stat.1330-221; Pub. L.101-239, title VI, §6601(q), Dec.19, 1989, 103 Stat. 2292.)
CODIFICATION

E-23
In subsecs. (a)(1 }, (c}, "December 22, 1987" substituted for "the effective date of this subpart" on authority of section 323 of Pub. L. 99-660, as
amended, set out as an Effective Date note under section 300aa-1 of this title.
AMENDMENTS

1989-Subsecs. (b}, (c). Pub. L. 101-239 added subsec. (b) and redesignated former subsec. (b) as (c).
1987-Subsecs. (a)(1 }, (b). Pub. L. 100--203 substituted "effective date of this subpart" for "effective date of this part".
CHANGE OF NAME

Committee on Labor and Human Resources of Senate changed to Committee on Health, Education, Labor, and Pensions of Senate by Senate
Resolution No. 20, One Hundred Sixth Congress, Jan. 19, 1999.
Committee on Energy and Commerce of House of Representatives treated as referring to Committee on Commerce of House of
Representatives by section 1 (a) of Pub. L. 104-14, set out as a note preceding section 21 of Hie 2, The Congress. Committee on Commerce of
House of Representatives changed to Committee on Energy and Commerce of House of Representatives, and jurisdiction over matters relating to
securities and exchanges and insurance generally transferred to Committee on Financial Services of House of Representatives by House
Resolution No. 5, One Hundred Seventh Congress, Jan. 3, 2001.
Centers for Disease Control changed to Centers for Disease Control and Prevention by Pub. L. 102-531, title 111, §312, Oct. 27, 1992, 106 Stat.
3504.
EFFECTIVE DATE OF

1989 AMENDMENT

For applicability of amendments by Pub. L. 101-239 to petitions filed after Dec. 19, 1989, petitions currently pending in which the evidentiary
record is closed, and petitions currently pending in which the evidentiary record is not closed, with provision for an immediate suspension for 30
days of all pending cases, see section 6601 (5)(1) of Pub. L. 101-239, set out as a note under section 300aa-10 oflhis title.

§300aa-28. Manufacturer recordkeeping and reporting
(a) General rule
Each vaccine manufacturer of a vaccine set forth in the Vaccine Injury Table or any other vaccine the administration of which is mandated by the law or regulations
of any State, shall, with respect to each batch, lot, or other quantity manufactured or licensed after December 22, 1987(1) prepare and maintain records documenting the history oflhe manufacturing, processing, testing, repooling, and reworking of each batch, lot, or other
quantity of such vaccine, including the identification of any significant problems encountered in the production, testing, or handling of such batch, lot, or other
quantity,
(2) if a safety test on such batch, lot, or other quantity indicates a potential imminent or substantial public health hazard is presented, report to the Secretary
within 24 hours of such safety test which the manufacturer (or manufacturer's representative) conducted, including the date of the test, the type of vaccine tested,
the identity of the batch, lot, or other quantity tested, whether the batch, lot, or other quantity tested is the product of repooling or reworking of previous batches,
lots, or other quanttties (and, if so, the identity of the previous batches, lots, or other quantities which were repooled or reworked), the complete test results, and
the name and address of the person responsible for conducting the test,
(3) include with each such report a certification signed by a responsible corporate official that such report is true and complete, and
(4) prepare, maintain, and upon request submit to the Secretary product distribution records for each such vaccine by batch, lot, or other quantity number.

(bl Sanction

Any vaccine manufacturer who intentionally destroys, alters, falsifies, or conceals any record or report required under paragraph (1) or (2) of subsection (a) shall(1) be subject to a civil penalty of up to $100,000 per occurrence, or
(2) be fined $50,000 or imprisoned for not more than 1 year, or both.

Such penalty shall apply to the person who intentionally destroyed, altered, falsified, or concealed such record or report, to the person who directed that such
record or report be destroyed, altered, falsified, or concealed, and to the vaccine manufacturer for which such person is an agent, employee, or representative. Each
act of destruction, alteration, falsification, or concealment shall be treated as a separate occurrence.
(July 1, 1944, ch. 373, title XXI, §2128, as added Pub. L. 99-660, title Ill, §311(a), Nov. 14, 1986, 100 Stal. 3777; amended Pub. L. 100-203, title IV, §4302(b)(1),
Dec. 22, 1987, 101 Stat.1330-221.)
CODIFICATION

In subsec. (a), "December 22, 1987" substituted for "the effective date of this subpart" on authority of section 323 of Pub. L. 99-660, as amended,
set out as an Effective Date note under section 300aa-1 of this title.
AMENDMENTS

1987-Subsec. (a). Pub. L.100-203 substituted "effective date of this subpart" for "effective date of this part".

SUB?ART D-GENERAL ?ROVISIONS

§300aa-31. Citizen's actions
(a) General rule
Except as provided in subsection (b), any person may commence in a district court of the United States a civil action on such person's own behalf against the
Secretary where there is alleged a failure of the Secretary to perform any act or duty under this part.
(b) Notice
No action may be commenced under subsection (a) before the date which is 60 days after the person bringing the action has given written notice of intent to
commence such action to the Secretary.
(c) Costs of litigation
The court, in issuing any final order in any action under this section, may award costs of litigation (including reasonable attorney and expert witness fees) to any
plaintiff who substantially prevails on one or more significant issues in the action.

(July 1, 1944, ch. 373, title XXI, §2131, as added Pub. L. 99-660, title Ill, §311(a), Nov. 14, 1986, 100 Stal. 3778; amended Pub. L. 100-203, title IV, §4305, Dec. 22,
1987, 101 Stat. 1330-224.)
AMENDMENTS

1987-Subsec. (c). Pub. L. 100-203, which directed that subsec. (c) be amended by substituting "to any plaintiff who substantially prevails on one
or more significant issues in the action" for "to any party, whenever the court determines that such award is appropriate", was executed by making
the substitution for "to any party, whenever the court determines such award is appropriate", to reflect the probable intent of Congress.

E-24
EFFECTIVE DATE
Subpart effective Dec. 22, 1987, see section 323 of Pub. L. 99--660, set out as a note under section 300aa-1 of this title.

§300aa-32. Judicial review
A petition for review of a regulation under this part may be filed in a court of appeals of the United States within 60 days from the date of the promulgation of the
regulation or after such date if such petition is based solely on grounds arising after such 60th day.
(July 1, 1944, ch. 373, title XXI, §2132, as added Pub. L. 99--660, title Ill, §311(a), Nov. 14, 1986, 100 Stat. 3778.)

§300aa-33. Definitions
For purposes of this part:
(1) The term "health care provider" means any licensed health care professional, organization, or institution, whether public or private (including Federal, State,
and local departments, agencies, and instrumentalities) under whose authority a vaccine set forth in the Vaccine Injury Table is administered.
(2) The term "legal representative" means a parent or an individual who qualifies as a legal guardian under State law.
(3) The term "manufacturer'' means any corporation, organization, or institution, whether public or private (including Federal, State, and local departments,
agencies, and instrumentalities), which manufactures, imports, processes, or distributes under its label any vaccine set forth in the Vaccine Injury Table, except
that, for purposes of section 300aa-28 of this title, such term shall include the manufacturer of any other vaccine covered by that section. The term "manufacture"
means to manufacture, import, process, or distribute a vaccine.
(4) The term "significant aggravation" means any change for the worse in a preexisting condition which results in markedly greater disability, pain, or illness
accompanied by substantial deterioration of health.
(5) The term "vaccine-related injury or death" means an illness, injury, condition, or death associated with one or more of the vaccines set forth in the Vaccine
Injury Table, except that the term does not include an illness, injury, condition, or death associated with an adulterant or contaminant intentionally added to such a
vaccine.
(6)(A) The term "Advisory Commission on Childhood Vaccines" means the Commission established under section 300aa-19 of this title.
(B) The term "Vaccine Injury Table" means the table set out in section 300aa-14 of this title.
(July 1, 1944, ch. 373, title XXI, §2133, as added Pub. L. 99--660, title Ill, §311(a), Nov. 14, 1986, 100 Stat. 3778; amended Pub. L. 107-296, title XVII, §§17141716, Nov. 25, 2002, 116 Stat. 2320, 2321; Pub. L. 108-7, div. L, §102(a), Feb. 20, 2003, 117 Stat. 528.)
AMENDMENTS

2003-Pars. (3), (5), (7). Pub. L. 108-7 repealed Pub. L. 107-296, §§1714-1717, and provided that this chapter shall be applied as if the sections
repealed had never been enacted. See 2002 Amendment notes below.
2002-Par. (3). Pub. L. 107-296, §1714, which directed amendment of first sentence by substituting "any vaccine set forth in the Vaccine Injury
table, including any component or ingredient of any such vaccine" for "under its label any vaccine set forth in the Vaccine Injury Table" and of
second sentence by inserting "including any component or ingredient of any such vaccine" before period at end, was repealed by Pub. L. 108-7.
Par. (5). Pub. L. 107-296, § 1715, which directed insertion of "For purposes of the preceding sentence, an adulterant or contaminant shall not
include any component or ingredient listed in a vaccine's product license application or product label." at end, was repealed by Pub. L. 108-7.
Par. (7). Pub. L. 107-296, §1716, which directed addition of par. (7), was repealed by Pub. L. 108-7, §102(a). Par. (7) read as follows: "The term
'vaccine' means any preparation or suspension, including but not limited to a preparation or suspension containing an attenuated or inactive
microorganism or subunit thereof or toxin, developed or administered to produce or enhance the body's immune response to a disease or
diseases and includes all components and ingredients listed in the vaccines's product license application and product label."
EFFECTIVE DATE OF

2002

AMENDMENT

Pub. L. 107-296, title XVII, §1717, Nov. 25, 2002, 116 Stat. 2321, which provided that the amendments made by sections 1714, 1715, and 1716
(amending this section) shall apply to all actions or proceedings pending on or after Nov. 25, 2002, unless a court of competent jurisdiction has
entered judgment (regardless of whether the time for appeal has expired) in such action or proceeding disposing of the entire action or
proceeding, was repealed by Pub. L. 108-7, div. L, §102(a), Feb. 20, 2003, 117 Stat. 528.
CONSTRUCTION OF AMENDMENTS
Pub. L. 108-7, div. L, §102(b), (c), Feb. 20, 2003, 117 Stat. 528, provided that:
"(b) APPL1cAT10N oF THE Puauc HEALTH SERv1cE AcT.-The Public Health Service Act {42 u.s.c. 201 et seq.) shall be applied and administered as if the
sections repealed by subsection (a) [repealing sections 1714 to 1717 of Pub. L. 107-296, which amended this section and enacted provisions set
out as a note under this section] had never been enacted.
"(c) RuLE oF CoNsTRucnoN.-No inference shall be drawn from the enactment of sections 1714 through 1717 of the Homeland Security Act of 2002
{Public Law 107-296), or from this repeal [repealing sections 1714 to 1717 of Pub. L. 107-296]. regarding the law prior to enactment of sections 1714
through 1717 of the Homeland Security Act of 2002 {Public Law 107-296) [Nov. 25, 2002]. Further, no inference shall be drawn that subsection {a)
or {b) affects any change in that prior law, or that Leroy v. Secretary of Health and Human Services, Office of Special Master, No. 02-392V
{October 11, 2002), was incorrectly decided."

§300aa-34. Termination of program
(a) Reviews
The Secretary shall review the number of awards of compensation made under the program to petitioners under section 300aa-11 of this title for vaccine-related
injuries and deaths associated with the administration of vaccines on or after December 22, 1987, as follows:
(1) The Secretary shall review the number of such awards made in the 12-month period beginning on December 22, 1987.
(2) At the end of each 3-month period beginning after the expiration of the 12-month period referred to in paragraph (1) the Secretary shall review the number of
such awards made in the 3-month period.
(b) Report
(1) If in conducting a review under subsection (a) the Secretary determines that at the end of the period reviewed the total number of awards made by the end of
that period and accepted under section 300aa-21 (a) of this title exceeds the number of awards listed next to the period reviewed in the table in paragraph (2)(A) the Secretary shall notify the Congress of such determination, and
(B) beginning 180 days after the receipt by Congress of a notification under paragraph (1), no petition for a vaccine-related injury or death associated with the
administration of a vaccine on or after December 22, 1987, may be filed under section 300aa-11 of this title.

Section 300aa-11 (a) of this title and subpart B of this part shall not apply to civil actions for damages for a vaccine-related injury or death for which a petition may
not be filed because of subparagraph (B).
(2) The table referred to in paragraph (1) is as follows:

E-25
Period reviewed:
12 months after December 22, 1987
13th through the 15th month after December
22, 1987
16th through the 18th month after December
22, 1987
19th through the 21st month after December
22, 1987
22nd through the 24th month after December
22, 1987
25th through the 27th month after December
22, 1987
28th through the 30th month after December
22, 1987
31st through the 33rd month after December
22, 1987
34th through the 36th month after December
22, 1987
37th through the 39th month after December
22, 1987
40th through the 42nd month after December
22, 1987
43rd through the 45th month after December
22, 1987
46th through the 48th month after December
22, 1987

Total number of awards by the end of the period

reviewed
150
188
225
263
300
338
375
413
450
488
525
563
600.

(July 1, 1944, ch. 373, title XXI, §2134, as added Pub. L. 100-203, tftle IV, §4303(1), Dec. 22, 1987, 101 Stat. 1330-222.)
CODIFICATION

In subsecs. (a) and (b), "December 22, 1987" substituted for "the effective date of this subpart" on authority of section 323 of Pub. L. 99-660, as
amended, set out as an Effective Date note under section 300aa-1 of this title.

F-1
D
APPENDIX F - CHILD DOE/77 V. SECRETARY OF HEALTH AND HUMAN SERVICES,
MMR VACCINE; THIMEROSAL-CONTAINING VACCINES, AUTISM SPECTRUM DISORDER;
FINDING OF ENTITLEMENT; DAMAGES DECISION BASED ON PROFFER, SPECIAL MASTER
CAMPBELL-SMITH, PUBLISHED AUGUST 27, 2010

Jn tbt W:niteb ~tates <!ourt of jfebrral <!laims

OFFICE OF SPECIAL MASTERS
(E-Filed: July 21, 201 O; Re-Issued: July 22, 201 O;
Re-Issued for Redaction: July 23, 2010; Re-issued for Redaction: August 27, 2010)

CHILD DOE/77, a minor,
b y . Parents and >Jatural Guardians,
JANE DOE/77 AND JOHN DOE/77,
Petitioners,

)
)

V.

SECRETARY OF HEALTH AND HUMAN
SERVICES,
Respondent.

)
)
)
)
)
)

__

)

)
)
)
)
)

MMR Vaccine; ThimerosalContaining Vaccines; Autism
Spectrnm Disorder;
Finding of Entitlement;
Damages Decision Based On
Proffer

Special Master Campbell-Smit h

TO PUBLISH

Clifford J. Shoemaker, Vienna, VA, for petitioners
Catharine E. Reeves, Washington, DC, for respondent

CAMPBELL-SMITH, Special Master
DECISION AWARDING DAMAGES 1

Vaccine Rule 18(b) provides that all of the decisions of the special masters will
be made available to the public unless an issued decision contains trade secrets or
commercial or financial information that is privileged or confidential, or the decision
contains medical or similar information the disclosure of which clearly would constitute
an unwarranted invasion of privacy. When a special master issues a decision or
substantive order, the parties have 14 days within \vhich to move for the redaction of
privileged or confidential information before the document's public disclosure.
1

F-2
D

On October 25, 2002, petitioners, John and Jane Doe/77, filed a petition on behalf
of their minor child seeking compensation under the National Vaccine Injury
Compensation Program ("the Vaccine Program") for a vaccine-related injury. 2
Respondent has conceded that petitioners are entitled to compensation due to the
significant aggravation of Child Doc/77's pre-existing mitochondrial disorder based on an
MMR vaccine Table presumptive injury of encephalopathy, which eventually manifested
as a chronic encephalopathy with features of autism spectrum disorder and a complex
partial seizure disorder as a sequela.
Based on the persuasive factors supporting petitioner's vaccine claim and
respondent's election not to challenge petitioner's claim, the undersigned finds that
petitioner is entitled to compensation under the Vaccine Program. Accordingly, a
determination of damages is appropriate.
On July 20, 2010, respondent filed a Proffer on Award of Compensation (Proffer).
On July 20, 2010, petitioners orally accepted respondent's Proffer. Based on the record as
a whole, the undersigned finds that petitioners are entitled to an award as stated in the
Proffer. Pursuant to the terms stated in the attached Proffer, the court awards petitioners:
1.

A lump sum payment of$1,507,284.67, representing compensation for life
care expenses expected to be incurred during the first year after judgment
($624,713.32), lost future earnings ($674,410.67) and pain and suffering
($208,160.68), in the form of a check payable lo petitioners, as the court
appointed guardian(s)/conserva tor(s) of the estate of Child Doe/77, for the
benefit of Child Doe/77. No payments shall be made until petitioners
provide respondent with documentation establishing that they have been
appointed as the guardian(s)/conserva tor(s) of Child Doe/77's estate;

2.

A lump sum payment of $140, I 09 .67, representing compensation for past
unreimbursable expenses, payable to John and Jane Doe/77, petitioners;

2 The National Vaccine Injury Compensation Program is set forth in Part 2 of the
National Childhood Vaccine Injury Act of 1986, Pub. L. No. 99-660, 100 Stat. 3755, codified as
amended, 42 U.S.C.A. § 300aa-J 0-§ 300aa-34 (West 1991 & Supp. 2002) (Vaccine Act or the
Act). All citations in this decision to individual sections of the Vaccine Act are to 42 U.S.C.A. §
300aa.

2

F-3
D

3.

A lump sum payment of$7,821.81, representing compensation for
satisfac:tion of the State of [redacted) M cdicaid lien, payable jointly to
petitioner an<l
[redacted] Department of Community Health Subrogation Unit
[redacted]
{redacted]
[redacted]
Attn: [redacted}

4.

An amount sufficient to purchase an annuity contract(s), subject to the
conditions described in paragraph II. D. of the attached Proffer, paid to the
life insurance company(ies) from which the annuity(ies) will be purchased.

In the absence of a motion for review filed pursuant to RCFC Appendix B, the
clerk of the court is directed to enter judgment herewith. 3

IT IS SO ORDERED.

s/Patricia E. Campbell-Smit h
Patricia Campbell-Smit h
Special Master

Pursuant to Vaccine Rule 11 (a), entry of judgment is expedited by the parties'
joint filing of notice renouncing the right to seek review.
3

3

F-4
D

IN THE UNITED STA TES COURT OF FEDERAL CLAIMS
OFFICE OF SPECIAL MASTERS

, a minor,
by her Parents and Natural Guardians,

Petitioners,

v.

SECRETARY OF HEALTH
AND HUMAN SERVICES,
Respondent.

)

)
)
)
)
}

)
)
)
)
)
)

V
No.
Special Master
Campbell-Smith

RESPONDENT'S PROFFER ON AWARD OF COMPENSATION

I. Items of Compensation
A.

Life Care Items

The respondent engaged life care planners Suzanne Labansky, MSN, CR RN, CCM,
CLCP, MSC, and Ginger Walton, MSN, FNP, CNCLP, and petitioners engaged life care planner
Terry Kennedy Arnold, RN, CDMS, CRRN, CLCP, CNLCP, to provide an estimation o f -

future vaccine injury-related needs. All items of compensation identified in the life care

plan are supported by the evidence and are illustrated by the chart entitled Appendix A: Items of

Compensation for

, attached hereto as Tab A. 1 Respondent proffers that

should be awarded all iterns of compensation set forth in the life care plan and
illustrated by the chart attached at Tab A. Petitioners agree.

1 The chart al Tab A illustrates the annllal benefits provided by the life care plan.
The annual benefit years
run from the date ofJudgmenl up to the first anniversary of the date of judgment, and every year thereafter up to the
anniversary of the dale of judgment.

F-5
D

B. Lost Future Earnings
The parties agree that based upon the evidence of record,

never be

gainfully employed. Therefore, respondent proffers t h a t - s h o u l d be awarded full
lost future earnings as provided under the Vaccine Act, 42 U.S.C. § 300aa-l 5(a)(3)(B).
Respondent proffers that the appropriate award for

lost future earnings is

$674,410.67. Petitioners agree.
C. Pain and Suffering
Rcs!Xlndcnt proffers t h a t - should be awarded $208,160.68 in actual and
projected pain and suffering. This amount reflects that the award for projected pain and suffering
has been reduced to net present value. See 42 U.S.C. § 300aa-15{a)(4). Petitioners agree.
D. Past Umeimbursable Expenses

Evidence supplied by petitioners documents their expenditure of past unreimbursable
expenses related t

vaccine-related injury. Respondent proffers that petitioners

should be awarded past umeimbursable expenses in the amount of$140,I09.67. Petitioners
agree.
E. Medicaid Lien
Respondent proffers tha

should be awarded funds to satisfy the State of

Medicaid lien in the amount of $7,821.81, which represents full satisfaction of any right
of subrogation. assignment, claim, lien, or cause of action the State o ~ a y have against
any individual as a result of any Medicaid payments the State of ~ a s made to or on
behalf of

from the date of her eligibility for benefits through the date of judgment

-2-

F-6
D

in this case as a result of her vaccine-related injury suffered on or about July 19, 2000, unJer
Title XIX of the Social Security Act.

II. Form of the Award
The parties recommend that the compensation provided t

should be made

through a combination of lump sum payments and future annuity payments as described below,
and request that the special master's decision and the Court's judgment award the following:
A. A lump sum payment of $1,507,284,67, representing compensation for life care

expenses expected to be incurred during the first year after judgment ($624,713.32), lost future
earnings ($674,410.67) and pain and suffering {$208,160.(,8), in the form of a check payable to
petitioners, as the court-appointed guardian(s)/conservator(s) of the estate o f _ , for
the benefit of

No payments shall be made until petitioners provide respondent

with documentation establishing that they have been appointed as the guar<lian(s)/conservator(s)
estate;
B. A lump sum payment of$l40,109.67, representing compensation for pasl un-

reimbursable expenses, payable to

, petitioners;

C. A lump sum payment of $7,821.81, representing compensation for satisfaction of the

State of-Medicaid lien, payable jointly to petitioners and
-

-

Department of Community Health

llllllliliilill

Petitioners agree to endorse this payment to the State of

-3-

F-7
D

D. An amount sufficient to purchase an annuity contract(s), subject to the conditions
described below, that will provide payments for the life care items contained in the life care plan,
as illustrated by the chart atTab A attached hereto, paid to the life insurance company(ies)2 from
which the annuity(ies) will be purchased. Compensation for Year Two (beginning on the first
anniversary of the date of judgment) and all subsequent years shall be provided through
respondent's purchase ofan annuity(ies), which annuity(ies) shall make payments directly to
petitioners as guardian(s)/conservat or(s) of the estate o f _ , for the benefit of
only so long as -

is alive at the time a particular payment is due. At the

Secretary's sole discretion, the periodic payments may be provided to petitioners in monthly,
quarterly, annual or other installments. The "annual amounts" set forth in the chart at Tab A
describe only the total yearly sum to be paid to petitioners and do not require that the payment be
made in one annual installment.
L

Growth Rate

Respondent proffers that a four percent (4%) growth rate should be applied to all nonmedical life care items, and a five percent (5%) growth rate should be applied to all medical life
care items. Thus, the benefits illustrated in the chart at Tab A that are to be paid through annuity
The Life Insurance Company must have a minimum of$250,000,000 capital and s1.1Tpl11s, exclusive of
any mandatory sec11rily valuation reserve. The Life Insurance Company must have one of the following ratings from
two of the following rating organizations:
a. A.M. Bcsl Company: A++, A+, A+g, A+p, A+r, or A+s;
b. Moody's Investor Ser,ice Claims Paying Rating: Aa3, Aa2, Aal, or Aaa;

c. Standard and Poor's Corporation lmurer Claims-Paying Ability Rating: AA-, AA, AA+, or
AAA;

d. Fitch Credit Rating Company, lllllurance Company Claims Paying Ability Rating: AA., AA,
AA+, or AAA.

-4-

F-8
D

payments should grow as follows: four percent (4%) compounded annually from the date of
judgment for non-medical items, and five percent (5%) compounded annually from the date of
judgment for medical items. Petitioners agree.

2.

Life-contingent annuity(ies)

Petitioners will continue to receive the annuity payments from the Life Insurance
Co:npany(ies) only so long as -

is alive at the time that a particular payment is due.

Petiiioners shall provi<le written notice to Lhc Secretary of Health and Human Services and the
Li re Insurance Company(ies) within twenty (20) days of
3.

death.

Guardianship

of-

No payments under section II. A. shall be made until petitioners provide the Secrclary
with documentation establishing their appointment as the guardian(s)/cons ervator(s)
-

estate. 1f petitioners are not authorized by a court of competent jurisdiction to serve as
guarJian(s)/cons ervator(s) of:he estate o f - a t the time a payment is to be made,
any such payment shall be paid to the party or parties appointed by a court of competent
jurisdiction to serve as guardian(s)/conscrvator(s) of the estate of

upon

submission of written documentation of such appointment to the Secretary.

III. Summary of Recommended Pavments Following Judgment
Lump Sum paid to petitioners, as guardian(s)/conservator(s) of
Yr I life care expenses,
the estate
lost future earnings, and pain and suffering:

$1,507,284.67

B.

A lump sum paid to petitioners:

$

140,109.67

C.

Reimbmscmcnt of the Medicaid lien:

$

7,821.81

A.

-5-

F-9
D

D.

An amount sufficient to purchase the annuity contract(s) described above in
section 11. D.
Respectfully submitted,
TONY WEST
Assistant Attorney General
TIMOTHY P. GARRE~
Director
Torts Branch, Civil Division

MARK W. ROGERS
Deputy Director
Torts Branch, Civil Division
ls/Catharine E. Reeves
CATHARINEE.REEVES
Assistant Director
Torts Branch, Civil Division
U.S. Department of Justice
P.O. Box 146
Benjamin Franklin Station
Washington, D.C. 20044-0146
Telephone: (202) 307-1400
Dated: July 20, 2010

-6-

G-1
D
APPENDIX G - AUTISM GENERAL ORDER #1, IN RE: CLAIMS FOR
VACCINE INJURIES RESULTING AUTISM SPECTRUM DISORDER OR A SIMILAR
NEURODEVELOPMENTAL DISORDER, VARIOUS PETITIONERS V. SECRETARY
OF HEALTH AND HUMAN SERVICES, JULY 3, 2002

OFFICE OF SPECIAL MASTERS
(Filed: July 3, 2002)

****************************

IN RE: CLAIMS FOR VACCINE INJURIES *
RESULTING IN AUTISM SPECTRUM
*
DISORDER OR A SIMILAR
*
NEURODEVELOPMENTAL DISORDER
*

*
VARIOUS PETITIONERS,
*
*
v.
*
*
SECRETARY OF HEALTH AND
*
HUMAN SERVICES,
*
*
Respondent.
*
*
****************************

AUTISM MASTER FILE
To be published

AUTISM GENERAL ORDER #1
A. Background
This Autism General Order #1 is being issued by the Office of Special Masters ("OSM"), to
address an unusual situation facing the National Vaccine Injury Compensation Program ("Program.") 1 This
situation arises out of concern in recent years that certain childhood vaccinations might be causing or
contributing to an apparent increase in the diagnosis of a type of serious neurodevelopmental disorder
known as "autism spectrum disorder," or "autism" for short.2 Specifically, it has been alleged that cases

1The applicable statutory provisions defining the Programare found at 42 U.S.C. § 300aa-10 et
seq. (2000). Hereinafter, for ease of citation, all"§" references will be to 42 U.S.C. § 300aa (2000).
2 An autism spectrum disorder is a brain disorder affecting a person's ability to communicate, form
relationships, and/or respond appropriately to the environment. Such disorders sometimes result in death.
The "spectrum'' of such disorders includes relatively high-functioning persons with speech and language
intact, as well as persons who are mentally retarded, mute, or with serious language delays. Symptoms
may include, but are not limited to, avoidance of eye contact, seeming "deafness," abrupt loss of language,

G-2
D

of autism, or neurodevelopmental disorders similar to autism, rnay be caused by Measles-Mumps-Rubella
("MMR") vaccinations; by the "thirnerosal" ingredient contained in certain Diphtheria-Tetanus-Pertussis
("DTP"), Diphtheria-Tetanus-acellar Pertussis ("DTaP"), Hepatitis B, and Hemophilus Influenza Type B
("HIB") vaccinations; or by some combination of the two.
To date, over 400 cases alleging a causal relationship between such vaccinations and autism
disorders have been filed in this court; more than 300 of those cases have been filed in the past six months.
Moreover, numerous civil lawsuits against vaccine manufacturers, alleging that the thirnerosal ingredient
caused autism, have been filed in courts around the country. One recent ruling in such a suit determined
as a matter of law that such claims of vaccinees against vaccine manufacturers must be dismissed and
brought to this court as Program claims. See Owens v. American Home Products Corp., 2002 WL
992094 (S.D. Tex. May 7, 2002).
As a result of the influx of Program claims and the potential for rnany more such claims, the OSM
has held a series of meetings with an informal advisory committee to address the task of dealing with these
claims. This committee consisted of petitioners' counsel who represent rnany such current and potential
Program claimants, along with legal and medical representatives of the Secretary of Health and Human
Services. (See Ex. C for a list of the participants in that advisory committee.) The participating petitioners'
counsel, who are in contact with rnany other petitioners' counsel, have estimated that due to the Owens
decision, approximately 3,000 to 5,000 such Program petitions (or possibly even more) are likely to be
filed with this court during the next several months.
Processing such a large number of cases will stretch thinly the resources of both the court and the
bar. It is in the interests of all that the court aggressively, but fairly, manage this docket to ensure a timely
presentation and resolution of the difficult medical and legal issues raised in these cases. This Autism
General Order # 1 and the procedure detailed herein resulted from extensive discussions with the parties'
representatives, and from the special masters' experience in handling other groups of cases presenting
cornrnonissues. The court is confident that this procedure, coupled with the cooperative efforts and quality
advocacy of counsel, will provide the necessary information for resolving these cases, within a reasonable
time frame.
During the advisory committee meetings, petitioners' representatives proposed a timetable for
resolving the general causation issues involved in these cases which extended well over two years. In
response, the OSM established one overriding principle governing all suggestions, proposals, and requests-the OSM's decision on the causation issues shall be rendered within two years after the filing of this

unawareness of environment, physical abusiveness, inaccessibility, fixation, bizarre behavior, ''flapping,"
repetitive and/or obsessive behavior, insensitivity to pain, social withdrawal, and extreme sensitivity to
sounds, textures, tastes, smells, and light. National Institute of Mental Health, Publication 97-4023.

2

G-3
D

General Order. The OSM' s subsequently adopted procedure and schedule contained herein are designed
to meet that two-year time frame.

B. PrQPosal of petitioners' representatives
Autism cases are not new to the court; a number have been pending for several years. However,
in those pending cases, petitioners' counsel continue to request more time for the science to crystalize, to
obtain experts, and in general to prepare their proof concerning the difficult medical and legal causation
issues. Similarly, in the advisory committee discussions described above, petitioners' representatives have
stated that they are not prepared to present their causation case at this time. Rather, petitioners request
extensive discovery--documents, studies, and raw data from government agencies and possibly vaccine
manufacturers--informationrelevant to the general causation issues, through this court's discovery process.
Accordingly, petitioners' representatives in the advisory committee meetings have proposed a
general procedure by which the OSM could process the claims described above, both those already filed
and those about to be filed. They propose that the OSM utilize a two-step procedure: first, conduct an
inquiry into the general causation issues involvedinthesecases-- i.e., whether the vaccinations in question
can cause autism and/or similar disorders, and if so in what circumstances; and then, second, apply the
conclusions reached in that general inquiry to the individual cases. They propose that the OSM establish
an "Autism Master File" with respect to the general causation issues, which would be open to inspection
by any interested persons, and which would constitute an evidentiary record with respect to the general
causation issues. They propose that a team of petitioners' lawyers be selected to represent the interests
ofall petitioners in these autism cases during the course of this general causation inquiry. They propose that
the proceeding begin with a lengthy period of discovery concerning the general causation issues, followed
by a designation of experts for each side, an evidentiary hearing, and a ruling on the general causation
issues. Finally, the special master's determination on the general causation issues would be applied to the
individual cases.
During the meetings of the informal advisory group, respondent's representatives did not oppose
petitioners' general plan, as set forth above, that the OSM conduct a general inquiry into the causation
question, then apply the conclusions reached in that inquiry to the individual cases.

C. Procedure adopted by the OSM
After considering carefully the practical and thoughtful advice from petitioners' and respondent's
representatives presented during the meetings of the advisory committee, the OSM responds to the
challenge presented by this influx of cases with the following procedures.
First, the OSM adopts the general approach to these cases suggested by the participants in the
informal advisory committee. That is, the OSM will utilize a two-step procedure: First, the OSM will
inquire into the general causation issues involved in these cases--i.e., whether the vaccinations in question

3

G-4
D

can cause autism and/or similar disorders, and if so in what circumstances; and then, second, the
conclusions reached in that general inquiry will be applied to the individual cases. As proposed, the OSM
will authorize a team of attorneys to represent the interests of all petitioners in these autism cases during the
course of this general causation inquiry, which is officially entitled the "Omnibus Autism Proceeding." The
inquiry will proceed as generally proposed by petitioners' attorneys--i. e., a period for any court-approved
discovery concerning the general causation issues, followed by a designation of experts for each side, an
evidentiary hearing, and finally a special master's ruling on the general causation issues. Subsequently, the
general causation conclusions will be applied to the individual cases.
Thecourtwill, as proposed, establish an "AutismMaster File"withrespect to the generalcausation
issues involved in these cases. That file will be open to inspection by any interested persons, and will
constitute an evidentiary record with respect to the general causation issues. All evidence relevant to the
general causation issues, including transcripts of any evidentiary hearings, will be placed into that file. The
first documents placed into that master file will be this AutismGeneral Order# 1 and the attachments hereto.
In accordance with§ 300aa-12(d)( 1), the Chief Special Master hereby designates Special Master
George Hastings to preside over the Omnibus Autism Proceeding, and to make any necessary rulings on
the general causation issues.

Representing the interests of petitioners in the Omnibus Autism Proceeding will be a Petitioners'
Steering Committee. This committee will be comprised of counsel who are representing Program
petitioners in autism cases. Currently, the vast majority of pending Program autism cases have been filed
by a small number of law firms. The OSM invited attorneys from those firms to participate in the informal
advisory committee described above. Those counsel have organized the initial Petitioners' Steering
Committee, whose members are set forth at Ex. D to this Order. Other counsel who are interested in
serving on the Steering Committee may contact the members of that committee to express their interest.
The OSM believes that membership on the Steering Committee should be determined by petitioners'
counsel, interacting among themselves. The Committee shall keep the presiding special master apprised,
however, of changes in its membership. The Committee shall designate two attorneys as "lead counsel,"
authorized to sign and file documents on behalf of the Committee into the Autism Master File, and to
represent the Committee at status conferences. In the unlikely event that disputes arise as to the Committee
membership, the presiding special master shall be informed immediately and will resolve any issues.
Similarly, respondent shall designate two "lead counsel" for respondent in the Omnibus Autism
Proceeding, who will be authorized to file documents on behalf of respondent into the AutismMaster File,
and to represent respondent at status conferences.
When either "party" to the Omnibus AutismProceeding--i. e., the Petitioners' Steering Committee
orrespondent--files documents into the AutismMaster File, if the document is less than20 pages, the party
shall file an original and two copies. For documents of 20 or more pages, an original and one copy will
suffice. By rule, the Clerk of the Court will file the original in the Autism Master File and send the copy or
4

G-5
D

copies to the presiding special.master. Unless requested, separate mailings to the presiding special master
are unnecessary. The Steering Committee will serve a copy of each filed document on each of the two
designated lead counsel for respondent. The respondent will serve a copy of each filed document on each
member of the Steering Committee.
Attached to this General Order as Exhibit A is the "Master Autism Petition for Vaccine
Compensation" ("Master Petition"). This document was drafted and presented to the OSM by the
Petitioners' Steering Committee. It sets forth the general allegation that a vaccinee's autistic disorder or
similar disorder was caused by one or more of the MMR and thimerosal-containing vaccinations. It
provides that any Program petitioner filing a "Short-Form Autism Petition for Vaccinee Compensation,"
in a form similar to that set forth as Exhibit B to this General Order, represents that such petitioner's claim
meets the criteria set forth in the Master Petition. As will be detailed below, by filing such a short-form
petition, a petitioner will elect into the Omnibus Autism Proceeding, and simultaneously opt to stay casespecific proceedings on his own petition until the conclusion of the Omnibus Autism Proceeding.

D. The Autism Master Schedule
To meet the court's self-imposed two-year timetable for decision, the Omnibus AutismProceeding
will be conducted according to an Autism Master Schedule, appended to this General Order as Exhibit E.
This schedule has been determined through cooperative discussions at the advisory committee meetings.
Petitioners' representatives proposed the first draft of the schedule. They proposed a schedule covering
two years, from issuance of an initial General Order (i.e., this Order) until the date of an evidentiary hearing
on the general causation issues, with an additional unspecified period of time obviously needed for the
presiding special master to analyze the evidence introduced at the hearing and produce a written opinion.
In that proposed schedule, essentially 470 of the 730 days in the two-year period were devoted to the
discovery process. The first proposal extended beyond two years and thus was rejected by the OSM.
After discussion, petitioners submitted a revised schedule which shortened the discovery period to 410
days, moved the hearing date up, and built in sufficient time to decide the causation issues within the twoyear period. This second proposal is adopted, with slight modifications and three observations.
First, and foremost, the OSM expects that the parties will act promptly and vigorously to adhere
to this schedule, if not move more quickly. Because the interests of thousands of petitioners are affected,
the presiding special master will be disinclined to allow the Omnibus Autism Proceeding to slip behind
schedule. In fact, the OSM and the presiding special master will strictly manage these proceedings in an
effort to resolve the causation issues in less than the allotted two-year time period.
Second, the OSM recognizes that two years is a relatively long time to ask petitioners to wait for
a ruling on the general causation issues. Congress clearly envisioned rulings on Program petitions rendered
in a much shorter time frame. However, the short decision-making time periods provided in the Program
statute were obviously based upon the assumption that most Program claims would present far different
issues than those presented in these autism cases. The assumption clearly was that in most Program cases
5

G-6
D

the question for the special master would simply be whether petitioner's case fit within one of the "Table
Injury" categories set forth at § 300aa-14(a). It was also assumed that even in those relatively few cases
where no Table Injury was alleged and a petitioner attempted to prove that the vaccine "actually caused"
an injury, 1he petitioner would file along with his petition all of his proof concerning the causation issue,
including a report from an expert supporting the claim. In contrast, in these autism claims petitioners have
requested a period of 500 days from now--almost a year-and-one-half--before filing expert reports
explaining and supporting their theory of causation. These reports will follow a lengthy discovery period
of a type clearly never envisioned by Congress. However, it is clear to the OSM that the reality of 1he
difficult medical issues involved and the stringent legal standards applied to causation cases justifies
petitioners' request for a reasonable discovery opportunity and the extended time for filing expert reports.
Unfortunately, resolution of the general causation inquiry must await longer than Congress envisioned and
the OSM would ideally wish; but it is clear to all involved that wi1hout the requested extended time frames,
petitioners would be unable to prosecute their claims. In this instance, quick justice would mean no justice.
Third, the above pages have referenced 1he "general causation issues." The OSM recognizes that
the Omnibus Autism Proceeding is in its earliest phase. While petitioners' representatives have mentioned
multiple potential theories of causation, until discovery is completed and expert reports are filed it will not
be known whether one or more causation theories are at issue. As noted above, there have been
suggestions that autistic disorders can be caused by (1) MMR vaccinations; (2) 1he thimerosalcomponent
of the DTP, DTaP, Hepatitis B, and HIB vaccinations; and/or (3) a combination of (1) and (2).
Accordingly, the presiding special master, working with the parties' representatives, will decide at a later
date 1he most efficient procedure for resolving the causation issues, depending upon the development of
the causation theories put forth by Petitioners' Steering Committee.

E. Optina: into, or out of, the Omnibus Autism Proceedina:
All persons with pending petitions or potential Program claims involving an autistic or autistic-like
disorder should assess their own cases in light of the Omnibus Autism Proceeding. Many petitioners with
pending claims have already requested and have been granted stays in their own cases until the conclusion
of the Omnibus Proceeding. 3 The presiding special master will conduct no case-specific proceedings in
those "stayed" cases until the conclusion of the Omnibus Proceeding, unless otherwise requested by a
party. The OSM will keep all petitioners or their counsel updated as to the progress of the Omnibus
Proceeding. After the Omnibus Proceeding is concluded by the special master's ruling concerning the
general causation issues, the individual cases will then be addressed. If the ruling on the general causation
issues appears favorable to an individual petitioner's case, 1he petitioner will be ordered to demonstrate
that his or her case qualifies for compensation under the general ruling, and proceed to a damages

cases will be officially transferred from the docket of the originally-assigned special master
to the docket of Special Master Hastings, the special master presiding over the Omnibus Autism
Proceeding.
3Such

6

G-7
D

determination. If the general ruling, on the other hand, appears unfavorable to an individual petitioner's
case, then the petitioner will be given the opportunity to introduce additional supportive case-specific
evidence, including expert reports, or to dismiss the case for want of proof. The court will determine how
to process individual cases, following the resolution of the general causation issues, only after ample time
and opportunity is granted to each petitioner to review the evidence from the Omnibus Proceeding, to
consult with counsel and medical experts, and then to make a reasoned choice.
Anypetitionerwitha pending autism-related drum, who has not yet requested to have proceedings
in his own case stayed for the duration of the Omnibus Autism Proceeding, may do so simply by filing a
Notice to Stay Proceedings, similar to that contained at Ex. F to this General Order. Once that is done,
no case-specific proceedings will be held in that case until further notice, and that case will be treated as
described in the previous paragraph.
Persons who have autism-related claims for which they have not yet filed Program petitions, and
who wish to have their cases stayed during the Omnibus Autism Proceeding, may file their petitions by filing
a "Short-Form Autism Petition for Vaccine Compensation" in a form similar to the one set forth as Ex. B
to this General Order. 4 No medical records need be filed with such a short-form petition, though each
petitioner or his counsel is encouraged to assemble, organize, and keep all relevant medical records so that
they will be available for filing if, and when, the petitioner is directed to do so by the special master. Once
such a short-form petition is filed, no case-specific proceedings will be held in the case during the course
of the Omnibus Autism Proceeding, and the case will be treated as described above.

One important caveat, however, is drawn to the attention of all petitioners and their
counsel! There may be cases involving autistic-like disorders which manifested following an injury defined

in the Vaccine Injury Table. That is, a vaccinee may have suffered an episode involving a severe acute
encephalopathy within 72 hours after a pertussis vaccination (DTP or DTaP), or 5 to 15 days after an
MMR vaccination. If so, such an acute encephalopathy and any residual effects thereof would be
presumed to be vaccine-caused pursuant to the Vaccine Injury Table. See 42 C.F.R. § 100.3(a) (10-197 version of CFR).5 However, this would apply only to cases falling within the current Vaccine Injury
Table's definition of "acute encephalopathy ,"in which the vaccinee suffered a sudden, dramatic, and severe
change in level of consciousness lasting at least 24 hours. 42 C.F.R. § 100.3(b)(2)(i)(A) and (D). The
incident must have been "sufficiently severe so as to require hospitalization," though actual hospitalization
at the time need not have occurred. 42 C.F.R. § 100.3(b)(2)(i). Autism cases involving Table Injuries
have been compensated under the Program. If in a particular case there exist medical records

OSM acknowledges that respondent opposes the use of a short-form petition. The court's
reasoning on this topic will be set forth in a separate document.
4The

Note that the Vaccine Injury Table contained in the statute at§ 300aa-14(a) is not applicable to
Program petitions filed since March 10, 1995. For any petition filed on or after March 24, 1997, the
applicable Vaccine Injury Table is found at 42 C.F.R. § 100.3 (1997).
5

7

G-8
D

demonstrating that such a qualifying "acute encephalopathy" occurred within the appropriate time frame,
petitioner or counsel should bring that to the assigned special master's attention so that, if appropriate, the
case can be processed without delay as a Table Injury.
Finally, petitioners should note that even after electing to have their case stayed pending the
conclusion of the Omnibus Autism Proceeding, such election is not irrevocable. That is, if at a future time
a petitioner determines that his own case should be separated from the Omnibus Autism Proceeding and
processed separately, with the petitioner introducing case-specific proof of causation, such petitioner may
request that a special master analyze his case. A special master will be assigned and the case will be
processed as expeditiously as possible.

F. Obtaining Information About the Progress of the Omnibus Autism Proceedin.g
As noted above, during the course of the Omnibus AutismProceeding, the individualautismcases

will be stayed, with no case-specific proceedings conducted. During that time, however, the OSM will
keep the petitioners in such cases well informed as to the progress of the Omnibus Autism Proceeding, by
two devices.
First, the OSM from time-to-time will issue additional Autism General Orders detailing the progress
of the Omnibus Autism Proceeding. Such general orders will be sent to all counsel, or petitioners appearing
prose, in autism cases.
Secondly, a specific page on this court's internet website will be devoted to the Omnibus Autism
Proceeding. Relevant filed documents and periodic updates regarding the proceedings will be posted on
that site. This page may be accessed by logging onto this court's website atwww.uscfc.uscourts.gov, then
clicking on the "Special Masters" icon.

G.

Conclusion

The Office of Special Masters is determined to process these autism petitions as swiftly and
efficiently as possible, while giving all interested parties a fair opportunity to present their claims and
evidence. We appreciate the assistance of all petitioners, petitioners' counsel, and respondent's
representatives in this challenging endeavor.

Gary J. Golkiewicz
Chief Special Master
For the Office of Special Masters

8

G-9
D

EXIDBITA
IN THE UNITED STATES COURT OF FEDERAL CLAIMS
OFFICE OF SPECIAL MASTERS

****************************
IN RE: CLAIMS FOR VACCINE INJURIES
RESULTING IN AUTISM SPECTRUM
DISORDER OR A SIMILAR
NEURODEVELOPMENTAL DISORDER
VARIOUS PETITIONERS,
v.
SECRETARY OF HEALTH AND
HUMAN SERVICES,
Respondent.

*
*
*
*

*
*
*
*
*
*
*
*
*

AUTISM MASTER FILE

*

*************************** *
MASTER AUTISM PETITION FOR VACCINE COMPENSATION
Pursuant to the Autism General Order# 1 issued by the Office of Special Masters of this Court on
July 3, 2002, this Master Autism Petition for Vaccine Compensation is hereby placed into the Omnibus
Autism Master File created in the Office of the Clerk of this Court. As detailed in that Autism General
Order # 1, any petitioner desiring that his or her Vaccine Act claim be processed along with the other
"Omnibus Autism" cases may file a "Short-FormAutismPetitionfor Vaccine Compensation" similar to that
contained at Ex. B to the Autism General Order #1. Any petitioner who files such a short-form
petition will be deemed to be representing that such petitioner's own particular claim meets the
following criteria:
1.

The petitioner alleges a vaccine-related injury and/or death, and requests compensation
under the National Vaccine Injury Compensation Program, codified at
42 U.S.C. §§ 300aa-10 et seq. (Supp. 1996).

2.

No civil action against a vaccine manufacturer or administrator for the vaccine-related
injury or death alleged by the petitioner is pending. No person has previously collected an
award or settlement of a civil action for damages for the vaccine-related injury or death
being claimed.

G-10

3.

As a direct result ofone or more vaccinations covered under the National Vaccine Injury
Compensation Program, the vaccinee in question has developed a neurodevelopmental
disorder, consisting of an Autism Spectrum Disorder* or a similar disorder. This disorder
was caused by a measles-mumps-rubella (MMR) vaccination; by the "thimerosal"
ingredient in certain Diphtheria-Tetanus-Pertussis (DTP), Diphtheria-Tetanus-acellular
Pertussis (DTaP), Hepatitis B, and Hemophilus Influenza Type B (HIB) vaccinations; or
by some combination of the two.

4.

The vaccinee received the vaccination or vaccinations in question in the United States, or
otherwise in compliance with 42 U.S.C. § 300aa-ll(c)(l)(B).

5.

The petition is being filed within three years after the first symptom of the disorder, or
within three years after the first symptom of a vaccine-caused significant aggravation of the
disorder. (If the vaccine-related death is alleged, the petition is being filed within two years
after the date of death and no later than 48 months after onset of the injury from which
death resulted.)

6.

The vaccine-related injury either has persisted for more than six months or resulted in
death.

Therefore, by filing a "Short-Form Autism Petition for Vaccine Compensation," a petitioner will
be deemed to be seeking an award under the National Vaccine Injury Compensation Program. Such a
petitioner will be deemed to have deferred specific compensation demands, pursuant to
42 U.S.C. § 300aa-1 l(e), until the issue of entitlement to compensation is determined.

•An autism spectrum disorder is a brain disorder affecting the petitioner's ability to communicate,
form relationships, and/or respond appropriately to the environment. Such disorders sometimes result in
death. The "spectrum" of such disorders includes relatively high-functioning persons with speech and
language intact, as well as persons who are mentally retarded, mute, or with serious language delays.
Symptoms may include, but are not limited to, avoidance of eye contact, seeming "deafness," abrupt loss
of language, unawareness of environment, physical abusiveness, inaccessibility, fixation, bizarre behavior,
":flapping," repetitive and/or obsessive behavior, insensitivity to pain, social withdrawal, and extreme
sensitivity to sounds, textures, tastes, smells, and light NationallnstituteofMentalHealth, Publication 974023.

2

G-11

IN THE UNITED STATES COURT OF FEDERAL CLAIMS

EXHIBITB

OFFICE OF SPECIAL MASTERS

****************************

*

parent(s) of

,a minor,
Petitioners,

v.
SECRETARY OF HEALTH AND
HUMAN SERVICES,
Respondent.

*
*
*
*
*
*
*
*
*
*
*
*
*

No. [leave blank
Special Master Ueave blank

****************************

SHORT-FORM AUTISM PETITION FOR VACCINE COMPENSATION
The petitioners, on behalf of their minor child, hereby petition for compensation under the National
VaccinelnjuryCompensationProgram. and adopt the MASTERAUTISMPETITIONFORVACCINE
COMPENSATION.
Sign: _ _ _ _ _ _ _ _ _ _ _ _ _ __

Print Name: _ _ _ _ _ _ _ _ _ _ _ _ __

Date

Address: _ _ _ _ _ _ _ _ _ _ _ _ _ __
City, State, Zip: _ _ _ _ _ _ _ _ _ _ __
Phone Number: _ _ _ _ _ _ _ _ _ _ __
Fax Number: _ _ _ _ _ _ _ _ _ _ _ __

Check One:

Pro Se

CERTIFICATE OF SERVICE
I hereby certify that a copy of the attached Autism Petition for Vaccine Compensation was sent
by First Class or Certified Mail o n - - - - - - - - - ~ to:
Secretary of Health and Human Services
c/o Director, Bureau of Health Professions
5600 Fishers Lane, Suite 8-05
Rockville, MD 20857
Signature of person mailing Petition

G-12

EXIDBITC
AUTISM ADVISORY COMMITTEE PARTICIPANTS

Participants from the Office of Special Masters
Chief Special Master Gary Golkiewicz
Special Master George Hastings
Special Master John Edwards

Petitioners' Counsel Participants
Clifford Shoemaker
Ghada A. Anis
SHOEMAKER & ASSOCIATES
Vienna, VA
Jeff Thompson
WILLIAMS BAILEY, L.L.P.
Houston, TX
John Kim
GALLAGHER, LEWIS, DOWNEY & KIM
Houston, TX
Ben C. Martin
LAW OFFICES OF BEN C. MARTIN
Dallas, TX
Ronald Homer
Kevin Conway
CONWAY, HOMER & CHIN-CAPLAN, P.C.
Boston,MA

Participants Representing Respondent
Mark Raby
Vince Matanoski
U.S. Department of Justice

G-13

Vito Caserta, M.D., Chief Medical Officer
National Vaccine fujury Compensation Program
Medical Analysis Branch
U.S. Department of Health & Human Services
Deborah Harris
Office of General Counsel, Public Health Division
U.S. Department of Health & Human Services
Vernessa Pollard, Assistant Chief Counsel
Office of the Chief Counsel
Food and Drug Administration

G-14

EXHIBITD
AUTISM PETITIONERS' STEERING COMMITTEE
Clifford Shoemaker
cliff@attorneyaccess.net
Ghada A Anis
~hada@attorneyaccess.net

SHOEMAKER & ASSOCIATES
Attorneys and Counselors of Law
9711 Meadowlark Road
Vienna, VA 22182
Telephone: (703) 281-6395
Fax: (703) 281-5807

Jeff Thompson
jthompson@williamsbailey.com

WILLIAMS BAILEY, L.L.P.
8441 Gulf Freeway, Suite 600
Houston TX 77017-5001
Telephone: (713) 230-2207
Fax: (713) 643-6226

John Kim
jhkkimlaw@aol.com

GALLAGHER, LEWIS, DOWNEY & KIM
Bank of America Center
700 Louisiana Street, 40th Floor
Houston TX 77002
Telephone: (713) 238-7787
Fax: (713) 222-0066

Ronald Homer
r'homer@ccandh.com

CONWAY, HOMER & CHIN-CAPLAN, P.C.
16 Shawmut Street
Boston, MA 02116
Telephone: (617) 695-1990
Fax: (617) 695-0880

Kevin Conway
kconway@ccandh.com

G-15

OMNIBUS AUTISM PROCEEDING

EXHIBITE

MASTER SCHEDULING ORDER
July 3, 2002

Autism General Order # 1

August 2, 2002

Petitioners file discovery requests, setting forth the discovery sought from
any party or entity subject to the control of respondent agency

September 3, 2002

Respondent files response and any objections to petitioners' discovery
requests

September 17, 2002

Conference on discovery requests

October 8, 2002

Hearing on discovery requests

February 3, 2003

Petitioners file supplemental discovery requests setting forth any additional
and/or third-party discovery sought

March 3, 2003

Respondent and/or third parties file response and any objections to
supplemental discovery requests

March 17, 2003

Conference on supplemental discovery requests

April 3, 2003

Hearing on supplemental discovery requests

August 22, 2003

Discovery completed

August 22, 2003

Petitioners designate experts for Omnibus Hearing

October 21, 2003

Respondent designate experts for Omnibus Hearing

November 21, 2003

Petitioners file expert reports with supporting authorities

January 21, 2004

Respondent file expert reports with supporting authorities

February 20, 2004

Any additional motions, objections, statements of interest, etc., must be

filed

March 22, 2004

Omnibus evidentiary hearing

May 3, 2004

Post-hearing briefs due

G-16

July 3, 2004

Decision on causation issues

G-17

EXHIBITF
IN THE UNITED STATES COURT OF FEDERAL CLAIMS
OFFICE OF SPECIAL MASTERS

*************************** *

--- and---,
parents of

Petitioner[s],
v.
SECRETARY OF HEALTH AND
HUMAN SERVICES,
Respondent.

*
*
*
*
*
*
*
*
*
*
*
*

*************************** *
NOTICE TO DEFER PROCEEDINGS IN AUTISM CASE

The petitioner[s] in 1his case believe[s] that the causation question in the case may be related to the
general causation issues to be addressed in the Omnibus Autism Proceeding, and request[s] that casespecific proceedings in this case be deferred pending completion of the Omnibus Autism Proceeding.

Counsel for Petitioner[s]
[or Petitioner appearing pro se]

